No. _______

IN THE

Supreme Court of the United States
_________

DEVON ARCHER,

Petitioner,

v.
UNITED STATES OF AMERICA.

_________

Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Second Circuit

_________

PETITION FOR A WRIT OF CERTIORARI

_________

MATTHEW L. SCHWARTZ
BOIES SCHILLER FLEXNER LLP
55 Hudson Yards, 20th Floor
New York, New York 10001
(212) 446-2300
mlschwartz@bsfllp.com
Counsel for Petitioner

i
QUESTION PRESENTED
The district court vacated Petitioner’s convictions
for securities fraud and conspiracy and ordered a new
trial after concluding that the evidence weighed so
heavily against the verdict that there was a serious
risk of a miscarriage of justice and that an innocent
person may have been convicted. The Second Circuit
reversed, holding that the district court lacked discretion to weigh the evidence under Federal Rule of
Criminal Procedure 33(a), unless there was evidentiary or instructional error or “the evidence was patently incredible or defied physical realities.”
The question presented is:
Does Federal Rule of Criminal Procedure 33(a) afford district courts discretion to reweigh the evidence
when evaluating a new trial motion, as eleven other
federal courts of appeals have held, or does the rule
require that a court “must defer to the jury’s resolution of conflicting evidence,” unless there was evidentiary or instructional error or “the evidence was patently incredible or defied physical realities,” as the
Second Circuit held in this case?

ii
PARTIES TO THE PROCEEDINGS
Petitioner is Devon Archer, who was defendant-appellee below.
Respondent is the United States of America, which
was plaintiff-appellant below.

iii
TABLE OF CONTENTS
QUESTION PRESENTED................................ i
PARTIES TO THE PROCEEDINGS ................ ii
TABLE OF CONTENTS ................................... iii
TABLE OF AUTHORITIES .............................. vi
PETITION FOR A WRIT OF CERTIORARI ... 1
OPINIONS BELOW .......................................... 1
JURISDICTION ................................................ 1
STATUTORY PROVISIONS INVOLVED ....... 2
INTRODUCTION .............................................. 2
STATEMENT OF THE CASE .......................... 7
I. Legal Background ................................... 7
a. Before Rule 33, District Courts
Historically Possessed Discretion
to Assess Whether Criminal
Verdicts Were Against the Weight
of the Evidence. ................................. 7
b. Rule
33
Incorporated
the
Discretionary
Standard
for
Granting New Trials Based on
Weight of the Evidence. .................... 9
c. The Majority of Circuits Interpret
Rule 33 As Permitting Weight of

iv
the
Evidence
Challenges
Addressed to the Trial Court’s
Discretion........................................... 11
II. This Case................................................. 12
REASONS FOR GRANTING THE
PETITION .................................................... 17
I. The Decision Below Creates a Split
Among Federal Courts of Appeals as
to Whether a New Trial May Be
Granted Based on Weight of the
Evidence Absent Impossible Evidence
or Judicial Error. .................................... 18
a. The Seventh and Eighth Circuits
Have Rejected the Requirement
that Evidence Must Be Impossible
or Incredible Before a District
Court May Reweigh the Evidence. ... 20
b. The
Archer
Standard
Is
Incompatible with Those Circuits
that Do Not Require District
Courts to View the Evidence in the
Light Most Favorable to the
Government
for
Rule
33
Challenges Based on the Weight of
the Evidence. ..................................... 24
II. The Second Circuit Broke from This
Court’s Prior Rulings on District

v
Courts’ Discretion to Weigh the
Evidence in Criminal Proceedings. ........ 29
III.The Question Presented Is of National
Importance. ............................................. 33
IV. This Case Is the Right Vehicle. .............. 34
CONCLUSION .................................................. 35
APPENDIX A – Opinion of the United
States Court of Appeals for the Second
Circuit (October 7, 2020) ............................. 1a
APPENDIX B – Opinion of the United
States Court of Appeals for the Second
Circuit (December 23, 2020) ........................ 19a
APPENDIX C – Opinion of the United
States District Court for the Southern
District of New York (November 15,
2018) ............................................................. 20a
APPENDIX D – Federal Rules of Crimimal
Procedure, Rule 33 ....................................... 59a

vi
TABLE OF AUTHORITIES
Cases
Aetna Cas. & Sur. Co. v. Yeatts,
122 F.2d 350 (4th Cir. 1941)..................... 34
Capital Traction Co. v. Hof,
174 U.S. 1 (1899) ....................................... 7, 8
Crumpton v. United States,
138 U.S. 361 (1891) ................................... 5, 9, 30,
32
Galloway v. United States,
319 U.S. 372 (1943) ................................... 7
Gasperini v. Ctr. for Humanities, Inc.,
518 U.S. 415 (1996) ................................... 34
Holland v. Allied Structural Steel Co.,
539 F.2d 476 (5th Cir. 1976)..................... 18
Inland & Sea-Board Coasting Co. v.
Hall,
124 U.S. 121 (1888) ................................... 9
Lee v. Lee,
33 U.S. 44 (1834) ...................................... 7
Maryland v. King,
567 U.S. 1301 (2012) ................................. 33
Metro. R.R. Co. v. Moore,
121 U.S. 558 (1887) ................................... 4
Montgomery Ward & Co. v. Duncan,
311 U.S. 243 (1940) ................................... 10

vii
Quercia v. United States,
289 U.S. 466 (1933) ................................... 7
Sparrow v. Strong,
71 U.S. 584 (1866) ..................................... 8
Tibbs v. Florida,
457 U.S. 31 (1982) ..................................... 5, 25, 27
United States v. Aguiar,
737 F.3d 251 (2d Cir. 2013) ...................... 13
United States v. Alston,
974 F.2d 1206 (9th Cir. 1992)................... 28
United States v. Archer,
977 F.3d 181 (2d Cir. 2020) ...................... passim
United States v. Brodie,
295 F.2d 157 (D.C. Cir. 1961) ................... 25
United States v. Burks,
974 F.3d 622 (6th Cir. 2020)..................... 24, 25
United States v. Cote,
544 F.3d 88 (2d Cir. 2008) ........................ 24, 28
United States v. Crittenden,
827 Fed. App’x 448 (5th Cir. 2020) .......... 27
United States v. Ferguson,
246 F.3d 129 (2d Cir. 2001) ...................... 5
United States v. Galanis,
366 F. Supp. 3d 477 (S.D.N.Y. 2018) ....... passim
United States v. Johnson,
327 U.S. 106 (1946) ................................... 27, 28
United States v. Lews,
521 F. App’x 530 (6th Cir. 2013) .............. 24

viii
United States v. Lincoln,
630 F.2d 1313 (8th Cir. 1980)................... 22, 28
United States v. Lopez,
576 F.2d 840 (10th Cir. 1978)................... 11, 25
United States v. Mallory,
902 F.3d 584 (6th Cir. 2018)..................... 11, 25,
26
United States v. Martinez,
763 F.2d 1297 (11th Cir. 1985)................. 28
United States v. McAtee,
481 F.3d 1099 (8th Cir. 2007)................... 22
United States v. Merlino,
592 F.3d 22 (1st Cir. 2010) ....................... 24, 28
United States v. Morales
902 F.2d 604 (7th Cir. 1990) (“Morales
I”) ............................................................... 4, 12
United States v. Morales,
910 F.2d 467 (7th Cir. 1990) (“Morales
II”).............................................................. 4, 21
United States v. Petit,
No. 19-cr-850-JSR, 2021 WL 673461
(S.D.N.Y. Feb. 21, 2021). .......................... 19
United States v. Robertson,
110 F.3d 1113 (5th Cir. 1997)................... 11, 25,
27
United States v. Rothrock,
806 F.2d 318 (1st Cir. 1986) ..................... 28
United States v. Sanchez
969 F.2d 1409 (2d Cir. 1992) .................... 18

ix
United States v. Shipp,
409 F.2d 33 (4th Cir. 1969)....................... 26
United States v. Smith,
331 U.S. 469 (1947) ................................... 31
United States v. Stacks,
821 F.3d 1038 (8th Cir. 2016)................... 4, 12, 22
United States v. Thompson,
__ F. Supp. 3d __, No. 1:18-cr-00126EAW, 2020 WL 6930621 (W.D.N.Y.
Nov. 25, 2020) ........................................... 19
United States v. Truman,
688 F.3d 129 (2d Cir. 2012) ...................... 33
United States v. Washington,
184 F.3d 653 (7th Cir. 1999)..................... 20
United States v. Weinstein,
452 F.2d 704 (2d Cir. 1971) ...................... 6
United States v. Wolff,
892 F.2d 75 (4th Cir. 1989)....................... passim
Zollman v. Symington Wayne Corp.,
438 F.2d 28 (7th Cir. 1991)....................... 18
Statutes
18 U.S.C. § 3231 .......................................... 12
18 U.S.C. § 3731 .......................................... 11
28 U.S.C. § 1254 .......................................... 1

x
Other Authorities
Barron & Holtzoff,
Federal Practice & Procedure § 2281
(Rules ed. 1958)......................................... 26
Drafting History of the Federal Rules of
Criminal Procedure (Madeleine J.
Wilken & Nicholas Triffin eds., 1991)...... 10, 30,
31
U.S. Courts, Table T-1,
https://www.uscourts.gov/data-tablenumbers/t-1. .............................................. 34
Rules
Fed. R. Civ. P. 50(b) ..................................... 10
Fed. R. Civ. P. 59 ......................................... 10
Fed. R. of Crim. P. 29 .................................. 10
Fed. R. of Crim. P. 33(a), ............................. 2, 6, 9

1
PETITION FOR A WRIT OF CERTIORARI
The Petitioner, Devon Archer, respectfully petitions for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Second Circuit in this case.
OPINIONS BELOW
The opinion of the Second Circuit is reported at
United States v. Archer, 977 F.3d 181 (2d Cir. 2020)
and is reproduced in the Appendix (“App.”) as App. A.
The order of the Second Circuit denying rehearing
is unpublished and is reproduced in the Appendix at
App. B.
The order of the district court granting Petitioner
a new trial is reported at United States v. Galanis, 366
F. Supp. 3d 477 (S.D.N.Y. 2018) and is reproduced in
the Appendix at App. C.
JURISDICTION
The Second Circuit issued its decision on October
7, 2020. The court denied a timely rehearing petition
on December 23, 2020. This Court extended the time
to file any petition for certiorari due on or after March
19, 2020, to 150 days and thus this Petition is timely
filed. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).

2
STATUTORY PROVISIONS INVOLVED
Federal Rule of Criminal Procedure 33(a), App. D,
provides in relevant part:
Upon the defendant’s motion, the court may vacate any judgment and grant a new trial if the
interest of justice so requires.
INTRODUCTION
This Petition gives this Court the opportunity to
address a split among the circuit courts concerning
whether a district court may grant a new criminal
trial based on the weight of the evidence under Rule
33 of the Federal Rules of Criminal Procedure. In the
decision below, the Second Circuit held that a district
court has essentially no discretion to order a new trial
based on the weight of the evidence and must defer to
the jury’s verdict of guilt under Rule 33—while giving
the prosecution the benefit of every inference from the
evidence—except in the narrow class of cases in which
the dispositive evidence of guilt is patently incredible
or physically impossible. The Seventh and Eighth
Circuits have considered and expressly rejected this
standard, and numerous other circuits have adopted
the “thirteenth juror” standard, or similar principles,
which recognize that district courts have discretion to
reweigh the evidence on Rule 33 review.
The Second Circuit announced its new test for Rule
33 motions when it reversed the district court’s decision to vacate Petitioner’s convictions and order a new
trial. The district court had concluded, after carefully
reviewing the extensive trial record in the case, that
“when viewing the entire body of evidence . . . the

3
Court harbors a real concern that [Petitioner] is innocent . . . .” United States v. Galanis, 366 F. Supp. 3d
477, 507 (S.D.N.Y. 2018). 1 Petitioner’s conviction, the
district court determined, was not supported by any
direct evidence; the inferences urged by the government from the circumstantial evidence were unsupported or weak; and there was substantial evidence of
Petitioner’s innocence—including evidence that the
nature of the crime was actively concealed from him,
and that unlike every other alleged conspirator, he did
not receive fraudulent proceeds but in fact lost money
in the scheme. The district court therefore was left
with a serious concern that Petitioner “lacked the requisite intent and is thus innocent of the crimes
charged.” Id. at 481.
On appeal, the Second Circuit observed that “the
district court relied on this Court’s prior case law on
the proper standard” but held that this case law was
in need of “clarifying,” because “we have not always
been clear about” when a district court has discretion
to grant a new trial based on the weight of the evidence. United States v. Archer, 977 F.3d 181, 188, 190
(2d Cir. 2020).
In “clarifying” the Rule 33 standard, id. at 190, the
court “stress[ed] that” under Rule 33, a district court
may not reweigh the evidence “absent a situation in
which the evidence was patently incredible or defied
physical realities, or where an evidentiary or instruc-

1 In case citations, all emphases are added and all internal alterations, citations, and quotation marks are
omitted unless otherwise noted.

4
tional error compromised the reliability of the verdict,” id. at 188. Because no procedural or instructional error marred the verdict, and because the evidence relied on by the jury was not insufficient as a
matter of law, the Second Circuit held that “the jury
was entitled to conclude” that Petitioner was guilty
and that the district court “must defer to the jury’s
resolution of conflicting evidence.” Id. at 187 n.3, 188.
The Seventh and Eighth Circuits, by contrast,
have considered and expressly rejected the argument
that evidence must be “physically impossible,” or “inconsistent with physical reality or otherwise incredible,” before a court may weigh the evidence and grant
a new trial under Rule 33. United States v. Stacks,
821 F.3d 1038, 1044 (8th Cir. 2016) (first quote),
United States v. Morales, 902 F.2d 604, 608 (7th Cir.
1990) (second quote) (“Morales I”), amended, 910 F.2d
467 (7th Cir. 1990) (“Morales II”). The remaining circuits have likewise adopted Rule 33 standards that
are incompatible with the Second Circuit’s threshold
test.
The Second Circuit, by adding a threshold test for
evidentiary sufficiency under Rule 33, also broke with
this Court’s century-plus old distinction between posttrial weight of the evidence review (“insufficient in
fact”) and review for whether the evidence was “insufficient in law.” Metro. R.R. Co. v. Moore, 121 U.S. 558,
568–69 (1887). This Court held in Metropolitan Railroad:
Insufficiency in point of fact may exist in cases
where there is no insufficiency in point of law;
that is, there may be some evidence to sustain
every element of the case, competent both in

5
quantity and quality in law to sustain it, and
yet it may be met by countervailing proof so potent as to leave no reasonable doubt of the opposing conclusion.
Id. This distinction, the Court confirmed, applied in
criminal cases. In Crumpton v. United States, the
Court confirmed that district courts presiding over
criminal trials may, as “a matter of discretion,” grant
“a new trial upon th[e] ground” that the verdict was
“manifestly against the weight of evidence.” 138 U.S.
361, 364 (1891). And this distinction is today embedded in the difference between Rule 29 of the Federal
Rules of Criminal Procedure—which requires a judgment of acquittal to be entered when the evidence is
insufficient as a matter of law—and Rule 33.
Prior to Archer, the Second Circuit had interpreted
Rule 33 as permitting a court to weigh the evidence in
its discretion, see United States v. Ferguson, 246 F.3d
129, 133 (2d Cir. 2001), which was consistent with this
Court’s pre-Rule 33 jurisprudence, see Crumpton, 138
U.S. at 364. Cf. Tibbs v. Florida, 457 U.S. 31, 42
(1982) (observing that under “weight of the evidence”
review, the “court sits as a thirteenth juror” and can
“disagree[] with the jury’s resolution of conflicting evidence”). 2 With Archer, however, the Court of Appeals
2 Before Archer, the Second Circuit recognized district
courts’ discretion to reweigh the evidence, with the exception that district courts were generally required to
defer to the jury’s witness credibility determinations.
See Ferguson, 246 F.3d at 133–34. That issue did not
arise in Archer, as his conviction did not turn on any
credibility issues.

6
stripped district courts of this discretion, and in doing
so deprived them of a critical (though appropriately
infrequently used) tool to act as “the interest of justice
so requires.” Fed. R. Crim. P. 33(a); see also United
States v. Weinstein, 452 F.2d 704, 714 n.13 (2d Cir.
1971) (Friendly, J.) (“When proof with respect to an
essential element of the crime is circumstantial, the
judge may have a larger role with respect to sufficiency, since he must determine whether the web of
inferences the prosecution seeks to have the jury draw
has been spun too far.”).
Simply put, Archer split from other courts of appeals on an important question of federal law that this
Court has never addressed: whether and when district courts have discretion to weigh the evidence under Rule 33. This Petition presents an ideal vehicle
for resolution of this question. Petitioner’s conviction
by all accounts rested entirely on circumstantial evidence of guilty knowledge, and the district court’s decision granting him a new trial did not turn on any
instructional or evidentiary errors or adverse credibility determinations. Rather, the district court reviewed the extensive trial evidence and concluded
that although there was legally sufficient evidence of
guilt, the entire record demonstrated that Petitioner
was likely factually innocent such that the “interest of
justice” required the verdict to be vacated. The Second Circuit’s reversal, in turn, hinged on the legal conclusion that the district court lacked discretion to
weigh the evidence unless the evidence relied on by
the jury was patently incredible or physically impossible.
The Petition should be granted.

7
STATEMENT OF THE CASE
I. LEGAL BACKGROUND
a. Before Rule 33, District Courts Historically Possessed Discretion to Assess
Whether Criminal Verdicts Were Against
the Weight of the Evidence.
Under English and American common law, the
concept of “trial by jury” included “not merely a trial
by a jury” but also “the superintendence of a judge empowered to . . . set aside their verdict, if, in his opinion,
it is against the law or the evidence.” Capital Traction
Co. v. Hof, 174 U.S. 1, 13–14 (1899).
Since the creation of the federal courts, trial judges
“weighed the evidence, not only piecemeal but in toto
for submission to the jury, by at least two procedures,
the demurrer to the evidence and the motion for a new
trial.” Galloway v. United States, 319 U.S. 372, 389–
90 (1943); see Lee v. Lee, 33 U.S. 44, 50 (1834) (“If, in
the opinion of the court, the verdict of the jury should
be found against the evidence, the proper correction,
if at all to be applied by the court, would be by granting a new trial.”).
With the adoption of “the Federal Constitution[,]
the[se] essential prerogatives of the trial judge as they
were secured by the rules of the common law are
maintained in the federal courts.” Quercia v. United
States, 289 U.S. 466, 469 (1933). The Judiciary Act
of 1789 specifically provided that “‘all the said courts
of the United States’ should ‘have power to grant new
trials, in cases where there has been a trial by jury,
for reasons for which new trials have usually been

8
granted in the courts of law.’” Capital Traction, 174
U.S. at 10 (quoting Judiciary Act of Sept. 24, 1789,
§ 17, 1 Stat. 83).
Throughout the nineteenth century, this Court
clarified and distinguished different grounds for
granting a new trial, including based on weight of the
evidence. In Sparrow v. Strong, the Court explained
that certain grounds for a new trial “may involve matters of discretion—as the weight of evidence,” which
the Court distinguished from other grounds, which
“may involve rulings of law, or [] may involve both”
discretionary and legal decisions. 71 U.S. 584, 592
(1866) (emphasis omitted).
The Court subsequently drilled down further,
holding that weight of the evidence review is conceptually distinct from review for sufficiency of the evidence as a matter of law:
[It] is customary and proper for courts of justice, sitting in the trial of causes by jury, to set
aside verdicts and grant new trials in both classes of cases; that is, where the verdict rests
upon evidence which is either insufficient in
law or insufficient in fact . . . . Insufficiency in
point of fact may exist in cases where there is
no insufficiency in point of law; that is, there
may be some evidence to sustain every element
of the case, competent both in quantity and
quality in law to sustain it, and yet it may be
met by countervailing proof so potent as to leave
no reasonable doubt of the opposing conclusion.
Metro. R.R. Co., 121 U.S. at 568–69; see also Inland &
Sea-Board Coasting Co. v. Hall, 124 U.S. 121, 121

9
(1888) (a “motion where the verdict is attacked ‘for insufficient evidence’ . . . includes insufficiency in point
of fact, and is equivalent to ‘against the weight of evidence’”).
In Crumpton v. United States, the Court confirmed
that this discretionary power existed in criminal proceedings, holding that district courts presiding over
criminal trials may grant “a new trial upon th[e]
ground” that the verdict was “manifestly against the
weight of evidence.” Crumpton, 138 U.S. at 364. The
Court emphasized “that the granting or refusing of
such a motion is a matter of discretion is settled.” Id.
b. Rule 33 Incorporated the Discretionary
Standard for Granting New Trials Based
on Weight of the Evidence.
When the original Federal Rules of Criminal Procedure were first adopted by this Court in 1944, they
carried forward the discretion that the trial court had
at common law to weigh the evidence before it and
grant a new trial in appropriate cases.
Rule 33 of the Federal Rules of Criminal Procedure
is a “continuation of the common law tradition” that
trial courts could grant a new trial in their “discretion.” United States v. Wolff, 892 F.2d 75 (4th Cir.
1989). Since coming into effect, Rule 33 has permitted
trial courts to grant a new trial when doing so is in
“the interest of justice.” Fed. R. Crim. P. 33(a). The
drafting history of the rules reveals that the Advisory
Committee contemplated that Rule 33 broad standard
incorporated the common law grounds that the “[t]he
verdict is contrary to the weight of the evidence.” 7

10
Drafting History of the Federal Rules of Criminal Procedure 88 (Madeleine J. Wilken & Nicholas Triffin
eds., 1991).
The drafting history also states the drafters’ intent
that motions for a new trial under Rule 33 were to be
“grantable in the discretion of the court.” 1 Drafting
History of the Federal Rules of Criminal Procedure
130.
Further, Rule 33 was drafted against the backdrop
of Federal Rule of Civil Procedure 59, which permits
a district court to grant a new trial for any reason that
would have justified a new trial (at law) or hearing (at
equity) prior to the Rules. See Rule 33, 1944 cmt. (explaining that Rule 33 “substantially continues existing practice,” and citing Civil Rule 59(a)). Likewise,
Federal Rule of Criminal Procedure 29, which permits
a district court to enter a judgment of acquittal when
the evidence is legally insufficient, was drafted at the
same time in light of Federal Rule of Civil Procedure
50(b), providing for judgment as a matter of law. See
Rule 29, 1944 cmt. b. Just four years prior, this Court
had confirmed that Civil Rule 50(b) “recognizes” the
inherent distinction between sufficiency and weight of
the evidence. “The motion for judgment cannot be
granted unless, as matter of law, the opponent of the
movant failed to make a case”; whereas “[t]he motion
for a new trial may invoke the discretion of the court
in so far as it is bottomed on the claim that the verdict
is against the weight of the evidence.” Montgomery
Ward & Co. v. Duncan, 311 U.S. 243, 251 (1940).
In the intervening years, there continued to be no
serious question that district courts had discretion to
order a new trial if the verdict was contrary to the

11
weight of the evidence. And in 1984, Congress
amended 18 U.S.C. § 3731 to permit the government
to take an interlocutory appeal from a district court’s
grant of a new trial, though “[n]othing in that jurisdictional change suggested, however, that, though
now reviewable, the range of discretion directly conferred on district courts by Rule 33 in continuation of
the common law tradition was to be reduced.” Wolff,
892 F.2d at n.7.
c. The Majority of Circuits Interpret Rule 33
As Permitting Weight of the Evidence
Challenges Addressed to the Trial Court’s
Discretion.
Since Rule 33’s adoption, the vast majority of the
federal courts of appeals have interpreted Rule 33 as
permitting a district court to order a new trial when,
in the court’s discretion, the verdict is against the
weight of the evidence, such that there is a real concern of manifest injustice. Some of these circuits have
adopted the “thirteenth juror” rule, pursuant to which
the district court draws its own conclusions from the
evidence as if it were a juror. See, e.g., United States
v. Mallory, 902 F.3d 584, 596 (6th Cir. 2018) (“Such a
motion calls on the trial judge to take on the role of a
thirteenth juror, weighing evidence and making credibility determinations firsthand to ensure there is not
a miscarriage of justice.”); United States v. Lopez, 576
F.2d 840, 845 n.1 (10th Cir. 1978) (“When considering
a motion for a new trial under Federal Rule of Criminal Procedure 33 a trial judge considers the credibility
of witnesses and weighs the evidence as a thirteenth
juror.”); United States v. Robertson, 110 F.3d 1113,
1120 n.11 (5th Cir. 1997) (“[O]n such a motion [for new
trial] the court sits as a thirteenth juror.”).

12
Other circuits, while not using this specific analogy, have confirmed that district courts can weigh the
evidence under Rule 33, even in situation where it is
otherwise legally sufficient under Rule 29. See, e.g.,
Stacks, 821 F.3d at 1044 (8th Cir. 2016); Morales I,
902 F.2d at 607 (7th Cir. 1990).
II. THIS CASE
Following a six-week trial in an “indisputably complex case,” Petitioner was convicted of securities fraud
and conspiracy. Galanis, 366 F. Supp. 3d at 492. The
thrust of the government’s case was that Jason
Galanis, “the admitted mastermind of the conspiracy
and a serial fraudster,” Archer, 977 F.3d at 480, effectively took control of a series of financial institutions
and used that control to issue bonds on behalf of a Native American tribal corporation, which he caused clients of one of the financial institutions to purchase
without their knowledge or consent. Galanis then
misappropriated the proceeds of the bonds for his own
purposes, including to buy a luxury home, Galanis,
366 F. Supp. 3d at 485. The district court had jurisdiction under Section 3231 of Title 18 of the United
States Code.
Galanis and several co-conspirators pleaded
guilty, while Petitioner and two other defendants proceeded to trial, where “the primary issue was intent.”
Id. at 492. Although the government called one cooperating witness and two immunized ones, it is undisputed that no witness directly implicated Petitioner,
nor was there any direct documentary evidence of his
guilt. Rather, the government’s case hinged entirely
on circumstantial evidence.

13
On November 15, 2018, the district court (Hon.
Ronnie Abrams, J.) found that under the prevailing
Rule 33 standard, Petitioner (but not the other two
trial defendants) was entitled to a new trial. Id. at
481. In a lengthy and thorough decision, the district
court evaluated the entire trial record and applied
what all parties agreed was the correct standard:
whether, after “examin[ing] the entire case,” there is
“a real concern that an innocent person may have
been convicted.” Id. at 491 (quoting United States v.
Aguiar, 737 F.3d 251, 264 (2d Cir. (2013).
Like the trial, the district court’s Rule 33 analysis
focused on the intent element of the charged crimes.
After meticulously surveying the trial evidence, the
district concluded that the evidence as a whole revealed that “Galanis viewed Archer as a pawn,” whom
he sought to keep [] in the dark” “such that [Archer]
knew only that which was essential” to his “narrowly
defined role.” Id. at 492, 505. Viewed as a whole, the
record left the court with an “unwavering concern that
Archer is innocent.” Id. at 493.
In reaching this conclusion, the district court carefully weighed the inferences pressed by the government and found them seriously lacking. The government’s case relied on drawing strained inferences
from common business “terms such as ‘liquidity’ and
‘discretionary’ as if they are necessarily evidence of
criminal intent.” Id. at 495. The government treated
these as synonymous with misappropriation, but the
district court looked at all of the evidence “cumulatively” and found that “when these individuals used
the word discretionary in this context they were referencing the ability of an asset manager to exercise discretion in selecting investments for a client.” Id. at

14
497. Because “[d]iscretionary liquidity is frequently
referenced in the course of discussing perfectly legitimate transactions and entities, including the sorts at
issue in the case at hand,” id., the district court concluded that this “language in the emails is facially innocuous or, at best, most naturally subject to innocent
interpretations,” id. at 495. (No witness who was involved in the relevant emails testified to their meaning. Id.)
Similarly, the government put “much weight” on
a line in an email from one of Petitioner’s co-defendants—“$20mm bond approved. Proceeds are 15mm to
us and 5mm to them.” Id. at 496. The government
argued that the phrase “15mm to us” put Petitioner
on notice of his co-defendants’ intent to misappropriate funds. Id.
Judge Abrams, however, weighed the email in the
context of the whole record, including a legal opinion
letter attached to the email itself that set out how certain proceeds would be distributed to the debtor
“while the remaining $15 million was to be invested
on its behalf.” Id. Because the “to us” language
simply reiterated what was in the legal opinion, the
court drew the “more natural inference” that a reader
of this email would “not understand [the author] to
mean that they would steal the money.” Id.
Upon reviewing these and many other documents,
the court found that the government had advanced a
“misleading impression” of the evidence, which required “simply too large an inferential leap.” Id. at
482, 499.

15
The district court likewise found the government’s
other circumstantial evidence to be wanting in light of
the full record. For example, the government emphasized an instance in which Petitioner sent $250,000 to
one of the Galanis-controlled financial institutions—
one in a series of investments and working capital
loans that Petitioner made to that company—at or
about the same time that Galanis made fraudulent interest payments on the bonds from the same entity.
Id. at 503. But the district court found that Galanis
stole $240,000 of the $250,000 for himself, “further
undercut[ting] the notion that Archer was aware that
the money he supplied was being used for illicit purposes.” Id. at 503 n.22.
The district court also analyzed the weakness of
the inculpatory inferences urged by the government
against the substantial countervailing evidence of Petitioner’s innocence. This included extensive evidence
that Galanis actively concealed his scheme from Petitioner, id. at 493–45, and that “unlike his co-defendants at trial, [Petitioner] never received misappropriated proceeds directly,” and instead lost the substantial amounts that he had invested in the transactions
at issue. Id. at 507; see id. at 492. “The Court is left
wondering why [Petitioner] would have engaged in
this scheme, especially in light of the illegal gains
reaped by his alleged co-conspirators but not by him.”
Id. at 407.
At the end of the day, the district court was left
with a “substantial concern [] that [Petitioner] lacked
the requisite intent and is thus innocent of the crimes
charged in the indictment.” Id. at 481. Because
“when viewing the entire body of evidence . . . the

16
Court harbors a real concern that [Petitioner] is innocent,” the court vacated the conviction and ordered a
new trial. Id. at 507.
After the government appealed, the Second Circuit
took the opportunity to “clarify” the standard for
weighing the evidence under Rule 33. No longer
would district courts have discretion to determine
whether the evidence weighed so heavily against the
verdict as to create a “manifest injustice.” Archer, 977
F.3d at 187–88. Instead—and putting aside cases involving instructional or evidentiary error—district
courts would be barred from weighing the evidence at
all, except in that narrow class of cases where key evidence was insufficient as a matter of law:
We stress that, under this standard, a district
court may not reweigh the evidence and set
aside the verdict simply because it feels some
other result would be more reasonable. To the
contrary, absent a situation in which the evidence was patently incredible or defied physical
realities, or where an evidentiary or instructional error compromised the reliability of the
verdict, a district court must defer to the jury’s
resolution of conflicting evidence.
Id. at 188. Under this new standard, courts in the
Second Circuit are required to view the facts on a Rule
33 weight-of-the-evidence challenge “in the light most
favorable to the [g]overnment,” deviating only when,
as a matter of law, the jury would not have been “entitled” to draw an inculpatory inference. Id. at 183
n.1.

17
Having crafted a new set of rules governing
weight-of-the-evidence challenges, the Second Circuit
held that the district court had applied “the incorrect
standard,” and reversed because “the jury was entitled to conclude that [Petitioner] knowingly participated in the scheme.” Id. at 187 n.3.
REASONS FOR GRANTING THE PETITION
The decision below adopted a new reading of Rule
33 that strips district courts of discretion to order a
new trial when a guilty verdict is so against the
weight of the evidence that it is contrary to the interests of justice. In doing so, the decision below (I) conflicts with other circuits’ precedents and (II) departs
from this Court’s pre-Rule 33 holdings on weight-ofthe-evidence review, as well as from the text of Rule
33 itself.
Of the three courts of appeals that have considered
whether to restrict weight-of-the-evidence challenges
under Rule 33 to circumstances where evidence was
patently incredible or physically impossible, the Second Circuit is the only court to have adopted such a
restriction. In doing so, the Second Circuit split with
the two courts that expressly rejected that restriction,
as well as every other geographic court of appeals
whose standards are now inconsistent with the Second Circuit.
Rule 33 provides a critical safeguard in criminal
jury trials that ensures confidence in the judicial system. This Court has yet to interpret how Rule 33
should be applied by district courts when conducting
a weight-of-the-evidence review. While the Court has
opined on the scope of weight-of-the-evidence review

18
in other contexts, this case presents an ideal vehicle
for clarifying an important issue of criminal procedure.
I. THE DECISION BELOW CREATES A SPLIT AMONG
FEDERAL COURTS OF APPEALS AS TO WHETHER A
NEW TRIAL MAY BE GRANTED BASED ON WEIGHT
OF THE EVIDENCE ABSENT IMPOSSIBLE EVIDENCE
OR JUDICIAL ERROR.
While every other circuit provides courts with discretion to weigh the evidence on Rule 33 review, the
Second Circuit now prohibits a district court from doing so unless the verdict was infected by an evidentiary or procedural error or the evidence of guilt was
“patently incredible or defied physical realities.”
Archer, 977 F.3d at 187–88.
By imposing this restriction, the decision below requires courts to reject all Rule 33 weight-of-the-evidence challenges out of hand unless (a) there was separate evidentiary or instructional error, or (b) the evidence supporting the verdict was insufficient as a
matter of law. Indeed, the “patently incredible or defied physical realities” standard in Archer traces back
to civil jurisprudence on judgment as a matter of law,
where the standard is legal sufficiency of the evidence.
Specifically, Archer traces its standard back, id. at
188, to language in United States v. Sanchez, which in
turn was based on two cases concerning directed verdicts in civil cases, 969 F.2d 1409, 1414 (2d Cir. 1992)
(first citing Holland v. Allied Structural Steel Co., 539
F.2d 476, 483 (5th Cir. 1976)) (then citing Zollman v.
Symington Wayne Corp., 438 F.2d 28, 31–32 (7th Cir.
1991)).

19
Absent the special circumstances enumerated in
Archer, courts on Rule 33 motions must, according to
Archer, view the evidence “in the light most favorable
to the [g]overnment” and “defer” to the jury’s verdict
so long as it is legally supportable. 977 F.3d at 183
n.1; see id. at 188, 195 (“a trial court must defer to the
jury’s resolution of the evidence”). The Second Circuit
illustrated these principles in Archer, as it systematically rejected each of the district court’s factual findings, in each case because the jury was “entitled to”
draw its own inferences. Id. at 192 (“entitled to
credit”); id. at 192–93 (“entitled to find”); id. at 193
(“entitled to endorse”); id. at 194 (“entitled to rely”);
id. at 196 (“entitled to infer”); id. at 196 (“entitled to
draw inferences”).
Subsequent district court opinions in the Second
Circuit have recognized Archer as restricting weightof-the-evidence challenges to circumstances where the
evidence was “patently incredible” or “def[ying] physical realities.” United States v. Thompson, __ F. Supp.
3d __, No. 1:18-cr-00126-EAW, 2020 WL 6930621, at
*4 (W.D.N.Y. Nov. 25, 2020) (citing Archer both for the
proposition that evidence must be “patently incredible
or [have] defied physical realities” to warrant a new
trial and that “a district court must defer to the jury’s
resolution of conflicting evidence”); accord United
States v. Petit, No. 19-cr-850-JSR, 2021 WL 673461, at
*7 (S.D.N.Y. Feb. 21, 2021).
The Second Circuit’s new standard splits from
other courts of appeals on the application of Rule 33
in weight-of-the-evidence cases. It conflicts with opinions of the Seventh Circuit and Eighth Circuit, which
have expressly rejected the notion of restricting

20
weight of the evidence review to evidence that is patently incredible or physically impossible. It also conflicts with every other circuit insofar as it requires district courts, on Rule 33, to view the record “in the light
most favorable to the [g]overnment.” Archer, 977 F.3d
at 183 n.1.
a. The Seventh and Eighth Circuits Have Rejected the Requirement that Evidence
Must Be Impossible or Incredible Before a
District Court May Reweigh the Evidence.
Archer’s “patently incredible or defies physical realities” test is in direct conflict with the holdings of the
Seventh and Eighth Circuit, which have explicitly
considered and rejected such barriers on Rule 33
weight-of-the-evidence motions.
In United States v. Washington, the Seventh Circuit considered whether a new trial could be granted
when the evidence was “not contrary to the laws of nature or otherwise incapable of belief.” 184 F.3d 653,
657 (7th Cir. 1999). The court held that while the admission of such evidence would not in itself be a reason for a new trial, a court could still consider it in
determining whether the evidence weighed against
the verdict under Rule 33. Id. “The focus in a motion
for a new trial is not on whether the testimony is so
incredible that it should have been excluded,” the Seventh Circuit held. “Rather, the court considers
whether the verdict is against the manifest weight of
the evidence.” Id. at 657.
The Washington decision continued a line of reasoning that began in United States v. Morales, where
the Seventh Circuit held that a verdict could be so

21
against the weight of the evidence as to warrant a new
trial, even where that evidence was “not impossible,”
“inconsistent with physical reality[,] or otherwise incredible.” Morales I, 902 F.2d at 607–08. In Morales
I, the district court had denied a motion for a new trial
despite severe concerns about the defendant’s guilt,
apparently believing itself constrained by prior Seventh Circuit precedent that prevented it from excluding testimony that did not defy physical reality and
was not otherwise inherently incredible. Id. at 606,
608. The Seventh Circuit reversed and ordered a new
trial, finding that even though the testimony was admissible, “it would be a manifest injustice to let the
guilty verdict stand” in light of the entire trial record.
Id. at 609.
“[T]he question of admissibility must be separated
from that of weight,” the Seventh Circuit elaborated
in a brief amendment. Morales II, 910 F.2d at 468.
The court continued:
Evidence may be admissible without establishing a proposition with the degree of certainty
required of the prosecution in a criminal case.
If the complete record, testimonial and physical, leaves a strong doubt as to the defendant’s
guilt, even though not so strong a doubt as to
require a judgment of acquittal, the district
judge may be obliged to grant a new trial.
Id.
Like the Seventh Circuit, the Eighth Circuit has
also rejected the proposition that a district court must
defer to a jury’s verdict under Rule 33, unless the ver-

22
dict was based on patently incredible or physically impossible evidence. Stacks, 821 F.3d at 1046. In Stacks
the government appealed from the district court’s
grant of a new trial and urged the Eight Circuit that
a district court may only grant a new trial “if [the evidence] is physically impossible.” Id.
The Eighth Circuit rejected this argument and explained that the “physically impossible” test it had
previously articulated applied to Rule 29 motions, not
Rule 33 motions. Id. (quoting United States v. McAtee,
481 F.3d 1099, 1105 (8th Cir. 2007)). On a Rule 33
motion, the court continued, “The district court need
not view the evidence in the light most favorable to
the verdict; it may weigh the evidence and in so doing
evaluate for itself the credibility of the witnesses.” Id.
(quoting United States v. Lincoln, 630 F.2d 1313, 1319
(8th Cir. 1980)). Under this standard, the district
court “did not abuse its considerable discretion” in ordering a new trial, even though the district court had
acknowledged that the record contained “evidence
from which a reasonable jury could convict Stacks.”
Id. at 1045–46. “The district court acknowledged the
evidence supporting the verdicts. The district court
weighed it against the exculpatory evidence before
concluding in a thorough, reasoned manner that a
miscarriage of justice may occur if the verdicts were
allowed to stand. It did not abuse its considerable discretion in doing so.” Id. at 1046.
Here, the district court also considered “the most
damning evidence” against Petitioner; also weighed
the government’s evidence “against the exculpatory
evidence”; and also issued a “thorough, well-reasoned
opinion.” Id. at 1045–1046; see Galanis, 366 F. Supp.
3d at 500 (considering “most damaging evidence

23
against [Petitioner]”); id. at 497 (weighing “inculpatory” and “exculpatory” evidence against one other).
But because the Second Circuit subsequently adopted
the physical impossibility standard for Rule 33 that
Stacks had rejected, Archer, 977 F.3d at 188, it held
that the district court had no discretion to order a new
trial despite the court’s “real concern that [Petitioner]
is innocent,” Galanis, 366 F. Supp. 3d at 507.
Three different circuits courts—the Second, Seventh, and Eighth—have thus directly considered the
question of whether, absent some procedural or instructional error, a district court may only reweigh evidence under Rule 33 when it is physically impossible
or patently incredible. Both the Seventh Circuit and
Eight Circuit, in well-reasoned opinions, have answered this question in the negative and confirmed
that district courts may find that a verdict was so
against the weight of the evidence as to warrant a new
trial “in the interest of justice,” even when that evidence was not patently incredible or contrary to physical realities. In the decision below, the Second Circuit
took the opposite approach and required that district
courts “must defer” to the jury’s conclusions on a Rule
33 weight-of-the-evidence challenge except where the
evidence is “patently incredible or defie[d] physical realities.” Archer, 977 F.3d at 188.
Along with these divergent holdings from the Seventh and Eighth Circuits, on one side, and the Second
Circuit, on the other, two other circuits have taken a
middle approach. The First and Sixth Circuit hold
that district courts have discretion to weigh evidence
under Rule 33 generally but restrict that discretion
when it comes to witness credibility. In United States

24
v. Burks, the Sixth Circuit created an exception to district’s discretion to “scrutinize the record” under Rule
33: district courts could override the jury’s credibility
determinations only where the testimonial accounts
“def[y] physical realities” or contain “internal inconsistencies.” 974 F.3d 622 (6th Cir. 2020) (first quoting
United States v. Cote, 544 F.3d 88, 101 (2d Cir. 2008)
(Sotomayor, J.)) (then quoting United States v. Lews,
521 F. App’x 530, 541 (6th Cir. 2013)).
The First Circuit similarly held that when weighing the evidence, “it is only where exceptional circumstances can be demonstrated that the trial judge may
intrude upon the jury function of credibility assessment.” United States v. Merlino, 592 F.3d 22, 32–33
(1st Cir. 2010) (quoting Cote, 544 F.3d at 101). Both
this holding and that in Burks—like the Second Circuit’s pre-Archer standard, see n.2, supra—were expressly restricted to witness credibility issues. Neither decision barred district courts from weighing
other types of evidence or examining competing inferences from circumstantial evidence, as Archer does.
The Second Circuit thus stands alone among all the
courts to have considered this question in whole or in
part.
b. The Archer Standard Is Incompatible with
Those Circuits that Do Not Require District Courts to View the Evidence in the
Light Most Favorable to the Government
for Rule 33 Challenges Based on the
Weight of the Evidence.
The Archer decision also split with each of the circuits that have more generally recognized district
courts’ discretion to reevaluate the evidence on a Rule

25
33 motion, including under the “thirteenth juror” paradigm. As this Court explained in Tibbs v. Florida,
the “thirteenth juror” standard permits a district
court to order a new trial when it “disagrees with the
jury’s resolution of the conflicting testimony.” 457
U.S. at 43.
The D.C. Circuit, Fourth Circuit, Fifth Circuit,
Sixth Circuit, and Tenth Circuit have all adopted this
analogy, whereby “on such a motion for new trial the
court sits as a thirteenth juror.” Robertson, 110 F.3d
at 1120 n.11 (5th Cir. 1997); accord Mallory, 902 F.3d
at 596 (6th Cir. 2018) (“Such a motion calls on the trial
judge to take on the role of a thirteenth juror, weighing evidence and making credibility determinations
firsthand to ensure there is not a miscarriage of justice.”); 3 Lopez, 576 F.2d at 845 n.1 (10th Cir. 1978)
(“When considering a motion for a new trial under
Federal Rule of Criminal Procedure 33 a trial judge
considers the credibility of witnesses and weighs the
evidence as a thirteenth juror.”); Wolff, 892 F.2d at 75
(4th Cir. 1989) (“[W]e owe the great deference commanded by the traditional power of trial judges sitting
as ‘thirteenth jurors,’ to avoid possible miscarriages of
justice by ordering new trials in criminal cases.”);
United States v. Brodie, 295 F.2d 157, 160 (D.C. Cir.
3 The Sixth Circuit’s adoption of the “thirteenth juror”
analogy predates its decision in Burks, which generally restricted district courts from second-guessing a
jury’s credibility determination. See United States v.
Burks, 974 F.3d 622, 628 (6th Cir. 2020); supra Section I(a). But in all other respects, district courts in
the Sixth Circuit have discretion to reweigh the evidence.

26
1961) (“[O]n a motion for a new trial made . . . ‘the
court sits as a thirteenth juror,’ and the trial court has
broader powers.” (quoting Barron & Holtzoff, Federal
Practice & Procedure § 2281 (Rules ed. 1958))).
Because the thirteenth-juror standard gives district courts discretion to draw different inferences
than the jury, it is incompatible with the Second Circuit’s holding that courts “must defer” to those inferences. Archer, 977 F.3d at 188. As the Fourth Circuit
explained, district courts are provided with “particular deference” and “wide discretion,” when they exercise the “traditional power of trial judges sitting as
thirteenth jurors.” Id. In Wolff, as in Archer, “the
[trial] judge was concerned about the weight of the evidence on the critical element of [the defendant’s]
criminal intent.” 892 F.2d at 75. But Wolff, applying
the “thirteenth juror” standard, refused to “secondguess[]” the district court’s “judgment that, all thing
considered, the interests of justice will be served by
directing a new trial before another factfinder.” Id.;
see also United States v. Shipp, 409 F.2d 33, 36–37
(4th Cir. 1969) (“Even when there has been substantial evidence which required [the trial judge] to submit the case to the jury, he may in his discretion set
the verdict aside and grant a new trial if he thinks the
verdict is against the weight of the evidence . . . .”).
The Sixth Circuit’s opinion in United States v. Mallory also illustrates the incompatibility between the
thirteenth-juror standard and Archer. In Mallory, the
Sixth Circuit said the lower court had mistaken the
Rule 29 standard for the Rule 33 standard. See 902
F.3d 584, 596 (2018) (“the district court conflated
these rules”). The correct Rule 33 standard asks
“whether the trial judge himself believes the manifest

27
weight of the evidence supports the verdict,” not what
a reasonable jury would believe. Id. (emphasis in original). Thus, a Rule 33 motion “calls on the trial judge
to take on the role of a thirteenth juror, weighing evidence and making credibility determinations
firsthand.” As the Fourth Circuit did in Wolff, the
Sixth Circuit in Mallory grounded this discretion in
the trial judge’s superior command of the evidence
presented at trial: “The judge that saw the witnesses
and sat with the evidence at trial must make that
call.” Id. at 597. An appellate court must defer to the
district court’s “call”: “In the end, the manifest weight
of the evidence may support the verdict. But as an
appellate court, this is not for us to say.” Id.; see also
United States v. Johnson, 327 U.S. 106, 111 (1946)
(“[I]t is not the province of this Court or the Circuit
Court of Appeals to review orders granting or denying
motions for a new trial when such review is sought on
the alleged ground that the trial court made erroneous
findings of fact.”).
The Fifth Circuit has also adopted the thirteenthjuror standard and held that the “trial judge may
weigh the evidence and may assess the credibility of
the witnesses during its consideration of the motion
for new trial.” Robertson, 110 F.3d at 1117 (citing
Tibbs, 457 U.S. at 37–38). That court recently confirmed that under this discretionary standard, “Even
where the evidence is sufficient to support a conviction, the district court may grant a new trial if it cautiously reweighed the evidence and concluded that it
preponderated heavily against the guilty verdict.”
United States v. Crittenden, 827 Fed. App’x 448, 450
(5th Cir. 2020).

28
As each of these courts of appeals have held that
districts courts may draw their own conclusions from
the evidence, they are at odds with Archer’s holding
that district courts must view the evidence in the light
most favorable to the government and defer to the
jury’s conclusions on a Rule 33 motion.
And although the remaining courts of appeals have
not all expressly adopted the “thirteenth juror” rubric,
Archer is at odds with them, too. Each of these
courts—the First, Third, Ninth, and Eleventh Circuits—have held that a district court may generally
reweigh the evidence on a Rule 33 motion without being required to defer to the jury’s inferences. See, e.g.,
United States v. Rothrock, 806 F.2d 318, 321 (1st Cir.
1986) (“A district court has greater power to order a
new trial than to overturn a jury’s verdict through a
judgment of acquittal . . . [because] [i]n considering
such a motion, the court has broad power to reweigh
evidence”); 4 United States v. Johnson, 302 F.3d 139,
150 (3d Cir. 2002) (“[W]hen a district court evaluates
a Rule 33 motion it does not view the evidence favorably to the Government”); United States v. Alston, 974
F.2d 1206, 1211 (9th Cir. 1992) (same) (citing Lincoln,
630 F.2d at 1319); United States v. Martinez, 763 F.2d
1297, 1312 (11th Cir. 1985) (same) (citing Lincoln, 630
F.2d at 1319).

4 In Merlino, the First Circuit adopted an “exceptional
circumstances” standard for witness credibility assessments under Rule 33 but confirmed that a district
court may otherwise make “its own evaluation of the
evidence.” United States v. Merlino, 592 F.3d 22, 32–
33 (1st Cir. 2010); see supra Section I(a).

29
Archer broke from these decisions and held that
the record on a Rule 33 weight-of-the-evidence challenge must be viewed “in the light most favorable to
the [g]overnment,” with the district court required to
“defer to the jury’s resolution of conflicting evidence.”
977 F.3d at 183 n.1, 188. These competing holdings
cannot be squared. In every other circuit, the starting
point of Rule 33 analysis is that the record need not
be viewed in the light most favorable to the government; the district court is free to reweigh the evidence.
But a district court’s Rule 33 analysis in the Second
Circuit now begins by drawing all inferences in favor
of the verdict and then assessing whether the jury was
“entitled” to convict, i.e., whether the evidence it relied on was patently incredible or defied physical realities. Id. at 188.
This Court should grant the Petition to resolve this
split and restore to district courts in the Second Circuit the discretion they had at common law and under
the Federal Rules to grant new trials “if the interest
of justice so requires,” even in those situations where
the evidence was legally sufficient to convict.
II. THE SECOND CIRCUIT BROKE FROM THIS COURT’S
PRIOR
RULINGS
ON
DISTRICT
COURTS’
DISCRETION TO WEIGH THE EVIDENCE IN
CRIMINAL PROCEEDINGS.
Review by this Court is appropriate for the independent reason that Archer conflicts with this Court’s
pre-Rule 33 holdings on district courts’ discretion to
weigh the evidence in criminal proceedings.

30
Long before Rule 33 was adopted, this Court set
out the standard for when district courts may grant a
new trial in criminal proceedings:
If the verdict were manifestly against the
weight of evidence, defendant was at liberty to
move for a new trial upon that ground; but that
the granting or refusing of such a motion is a
matter of discretion is settled in Freeborn v.
Smith, 2 Wall. 160; Railroad Co. v. Heck, 102
U.S. 120; Lancaster v. Collins, 115 U. S. 222, 6
Sup. Ct. Rep. 33, and many other cases in this
court.
Crumpton, 138 U.S. at 364 (1891). The Court contrasted this “weight of the evidence” review with a motion for a “directed verdict” based on whether the evidence was “sufficient.” Id. Crumpton’s citations to
civil cases, including Freeborn and Heck, also confirmed that district courts possessed the same discretion to grant a new trial in criminal cases as they did
in civil ones. That discretion, the Court had explained
just four years prior, included the ability to grant a
new trial based on weight of the evidence even “where
there is no insufficiency in point of law; that is, there
be some evidence to sustain every element of the case,
competent both in quantity and quality in law to sustain it.” Metro. R.R. Co., 121 U.S. at 568–69.
These cases are still controlling because when Rule
33 was adopted, it did not overwrite the Court’s jurisprudence on when a new trial may be granted based
on weight of the evidence; instead Rule 33 marked a
“continuation of the common law tradition.” Wolff,
892 F.2d at 75. The drafting history of the rules confirms that the Advisory Committee contemplated that

31
motions under Rule 33 would include the long-standing grounds “[t]he verdict is contrary to the weight of
the evidence,” 7 Drafting History of the Federal Rules
of Criminal Procedure 88, and that such motions
would be “grantable in the discretion of the court,” 1
Drafting History of the Federal Rules of Criminal Procedure 130.
Just one year after Rule 33 went into effect, this
Court confirmed that the Rule, if anything, expanded
on the prior discretion of district courts to grant new
trials. United States v. Smith, 331 U.S. 469, 472
(1947). In Smith, the Court reviewed a district court’s
exceedingly terse grant of a new trial—“It is our opinion upon this reconsideration that in the interest of
justice a new trial should be granted the defendant”—
issued with “no more particular ground for the order.”
Id. at 471. While the Court ultimately held that the
new trial order was granted out of time, it also held
that, on the merits, the order itself was unassailable.
Id. at 472–74.
The Court began by noting that Rule 33 did not undertake to limit the bases for new trials “to reasons
catalogued as they might have been” and instead the
rule “is declaratory of the power to grant a new trial
‘in the interest of justice.’” Id. at 472. In the immediately following sentence, the Court then applied that
standard to the district court’s order: “The generality
of the reasons assigned by Judge Smith for the order
in question is all that is required.” Id. Thus, the district court’s one-sentence explanation, which merely
recited the governing standard—“It is our opinion
upon this reconsideration that in the interest of justice a new trial should be granted the defendant”—
was “all that is required” to satisfy Rule 33. Id. at

32
471–72. By setting the bar for compliance with Rule
33 so low, the Court showed that Rule 33 had continued, if not expanded upon, district courts’ discretion
to order new trials.
The decision below ignored this Court’s long-standing jurisprudence. Instead of recognizing that district
courts may “weigh the evidence” in their “discretion,”
Crumpton, 138 U.S. at 364, the Second Circuit cabined that discretion, requiring district courts to defer
to a verdict absent the exceedingly narrow situation
where evidence was patently incredible or physically
impossible. See Archer, 977 F.3d at 188.
Archer also departs from Crumpton by collapsing
the distinction this Court set out between motions for
directed verdicts and motions for a new trial. Crumpton, 138 U.S. at 364. By requiring, absent procedural
or instructional error, that evidence by physically impossible or patently incredible, the Second Circuit has
conditioned the district court’s Rule 33 discretion on
whether the evidence for conviction was inadmissible
or insufficient as a matter of law. Archer, 977 F.3d at
188. That standard contradicts the Court’s instructions that a new trial based on weight of the evidence
may be proper even where there is “evidence to sustain every element of the case, competent both in
quantity and quality in law to sustain it.” Metro. R.R.
Co., 121 U.S. at 568–69.
The Second Circuit has now collapsed that distinction by eliminating a district court’s discretion to
weigh the evidence. Under the Second Circuit’s approach, a district court can no longer exercise its ability under Rule 33 to grant a new trial based on the

33
weight of the evidence to avoid a miscarriage of justice. Archer, 977 F.3d at 188. The Second Circuit
holds that if, viewing the evidence in the light most
favorable to the government, the evidence was legally
sufficient to convict—that is, if the conviction would
stand under Rule 29—then the district court is compelled also to reject a new trial because it “must defer”
to the verdict unless the “jury was [not] entitled” to
convict. Id. at 187 n.3, 188.
By disregarding this Court’s longstanding distinction between sufficiency of the evidence and weight of
the evidence, the Second Circuit’s standard is also at
odds with the Federal Rules of Criminal Procedure,
which incorporated that distinction into the separate
standards for Rule 29 and Rule 33. Except for instances of evidentiary or instructional error, Archer
renders Rule 33 superfluous in weight-of-the-evidence
cases: because the evidence must be insufficient as a
matter of law before it can be reweighed, there is no
instance where a verdict would meet Archer’s Rule 33
standard without also meeting the Rule 29 standard
for acquittal. Compare Archer, 977 F.3d at 188, with
United States v. Truman, 688 F.3d 129, 139 (2d Cir.
2012) (holding that under Rule 29, courts must draw
all inferences in favor of the government unless the
evidence is “incredible on its face” or “def[ies] physical
realities.”).
III. THE QUESTION PRESENTED IS
IMPORTANCE.

OF

NATIONAL

The question presented on this petition concerns
an “important feature” of the law. Maryland v. King,
567 U.S. 1301, 1302 (2012) (Roberts, C.J., in chambers). By curtailing district courts’ historic discretion

34
to grant new trials at their discretion, Archer raises a
legal question that is fundamental in criminal (and
civil) procedure. “The exercise of the trial court’s
power to set aside the jury’s verdict and grant a new
trial is not in derogation of the right of trial by jury
but is one of the historic safeguards of that right.”
Gasperini v. Ctr. for Humanities, Inc., 518 U.S. 415,
433 (1996) (quoting with approval Aetna Cas. & Sur.
Co. v. Yeatts, 122 F.2d 350, 353 (4th Cir. 1941)).
This issue is also one that will affect countless proceedings in the future. The federal court system sees
approximately 7,000 of criminal trials each year. See
U.S.
Courts,
Table
T-1,
https://www.uscourts.gov/data-table-numbers/t-1.
Given the sheer number of cases that Rule 33 bears
upon, this Court should clarify the proper standard to
avoid unnecessary inconsistency across the circuits.
IV.THIS CASE IS THE RIGHT VEHICLE.
This case presents a clean vehicle to reach the
question of whether and when a district court may order a new trial despite the legal sufficiency of the evidence. The district court’s decision was based purely
on its belief (a) that the inferences urged by the government and apparently adopted by the jury were either unsupportable, speculative, or weak, and (b) that
substantial countervailing evidence of Petitioner’s innocence warranted a new trial. The district court did
not disregard any of the government’s evidence or find
any of its witnesses not to be credible, nor did it identify any other evidentiary, instructional, or other errors that contributed materially to its decision. Rather, the district court simply reweighed the evidence

35
and determined that the interests of justice demanded
a new trial.
This case is also the right vehicle because the decision below articulated the Second Circuit’s new Rule
33 standard and created the splits discussed above.
Given the number of cases implicated by the decision
below, this Court should address the issue immediately.
CONCLUSION
The petition for writ of certiorari should be
granted.
Respectfully submitted,
MATTHEW L. SCHWARTZ
Counsel of Record
CRAIG WENNER
DAVID BARILLARI
KATHERINE ZHANG (admission
pending)
BOIES SCHILLER FLEXNER LLP
55 Hudson Yards, 20th Floor
New York, New York 10001
(212) 446-2300
mlschwartz@bsfllp.com
Counsel for Petitioner
MAY 2021

APPENDIX

la
APPENDIXA
U.S. v. ARCHER

181

Cite as 977 F.3d 181 (2nd Cir. 2020)

The Supreme Court has repeatedly held
that "[t]he State has the undoubted right
to require candidates to make a preliminary showing of substantial support in order to qualify for a place on the ballot,
because it is both wasteful and confusing
to encumber the ballot with the names of
frivolous candidates." Anderson, 460 U.S.
at 788 n.9, 103 S.Ct. 1564. This court and
others have recognized that signature requirements are an appropriate means of
vindicating that interest. See Schulz, 44
F.3d at 57-58 (explaining that a state's
interest in "limiting the ballot to those
candidates who have demonstrated support" is "by no means novel and ha[s] long
enjoyed support in the case law''); Barr v.
Galvin, 626 F.3d 99, 111 (1st Cir. 2010)
(upholding a signature requirement "[i]n
light of the state's legitimate interest in
ensuring that the candidates who appear
on the statewide ballot have demonstrable
support among the voting public"). The
district court did not err in concluding that
this important interest justified the burden
Connecticut's laws impose on Appellants.3
CONCLUSION

For the foregoing reasons we AFFIRM
the judgment of the district court.

UNITED STATES of America,
Appellant,

v.
Devon ARCHER, Defendant-Appellee,
Jason Galanis, Gary Hirst, John Galanis, aka Yanni, Hugh Dunkerley, Michelle Morton, Bevan Cooney, Defendants.•
Docket No. 18-3727
August Term 2019

United States Court of Appeals,
Second Circuit.
Argued: November 18, 2019
Decided: October 7, 2020
Background: Defendant was convicted of
securities fraud and conspiracy to commit
securities fraud and moved for new trial.
The United States District Court for the
Southern District of New York, Ronnie
Abrams, J ., 366 F.Supp.3d 477, granted
motion. Government appealed.
Holdings: The Court of Appeals, Sullivan,
Circuit Judge, held that trial evidence regarding defendant's intent to defraud did
not preponderate heavily against verdict,
such that new trial was not warranted.

Reversed and remanded.
I. Criminal Law <S=>1156(1)
The Court of Appeals reviews the decision of the district court to grant a new
3. Appellants suggest on appeal that the Governor lacked authority under state law to issue Executive Order 7LL. We decline to addr ess this argument because it was forfeited,
see Greene v. United States, 13 F .3d 577, 586
(2d Cir. 1994) ("[I]t is a well-established gen eral rule that an appellate court will not con sider an issue raised for the first time on
appeal."), and in any event would be an improper basis for an injunction from a federal
court, see Pennhurst State Sch. & Hosp. v.

Halderman, 465 U.S. 89, 106, 104 S.Ct. 900,
79 L.Ed.2d 67 (I 984) ("[I]t is difficult to think
of a greater intrusion on state sovereignty
than when a federal court instructs state officials on how to conform their conduct to state
law. Such a result conflicts directly with the
principles of federalism that underlie the
Eleventh Amendment.").

* The Clerk of the Court is directed to amend
the caption as set forth above.

2a
182

977 FEDERAL REPORTER, 3d SERIES

trial for abuse of discretion.
Crim. P. 33.

Fed. R.

because it feels some other result would be
more reasonable. Fed. R. Crim. P. 33.

2. Criminal Law e:>1147

6. Criminal Law e:>935(1)

A district court abuses its discretion
when (1) its decision rests on an error of
law, such as application of the wrong legal
principle, or a clearly erroneous factual
fmding, or (2) its decision, though not necessarily the product of a legal error or a
clearly erroneous factual finding, cannot be
located within the range of permissible
decisions.

Absent a situation in which the evidence was patently incredible or defied
physical realities or where an evidentiary
or instructional error compromised the reliability of the verdict, a district court must
defer to the jury's resolution of conflicting
evidence when deciding a motion for a new
trial. Fed. R. Crim. P. 33.

3. Criminal Law e:>935(1)

As it must do for a motion for a
judgment of acquittal, a district court
faced with a motion for a new trial must be
careful to consider any reliable trial evidence as a whole, rather than on a piecemeal basis. Fed. R. Crim. P. 29, 33.

A district court may not grant a motion for a new trial based on the weight of
the evidence alone unless the evidence preponderates heavily against the verdict to
such an extent that it would be manifest
injustice to let the verdict stand. Fed. R.
Crim. P. 33.
4. Criminal Law e:>935(1)
The preponderates heavily standard,
which requires evidence to preponderate
heavily against the verdict for a district
court to grant a motion for a new trial
based on the weight of the evidence alone,
is not limited to cases in which a district
court, after discounting certain questionable evidence, must assess the weight of the
remaining evidence supporting the conviction; it also applies with equal, if not
stronger, force to cases in which a district
court examines the weight of the evidence
as a whole, all of which the jury reasonably
and appropriately relied on in reaching its
verdict. Fed. R. Crim. P. 33.
5. Criminal Law e:>935(1)

Under the preponderates heavily
standard, which requires evidence to preponderate heavily against the verdict for a
district court to grant a motion for a new
trial based on the weight of the evidence
alone, a district court may not reweigh the
evidence and set aside the verdict simply

7. Criminal Law e:>961

8. Conspiracy e:>373
Criminal Law e:>935(1)
Securities Regulation e:>199

Trial evidence regarding defendant's
intent to defraud did not preponderate
heavily against verdict finding defendant
guilty of securities fraud and conspiracy to
commit securities fraud stemming from
scheme to defraud tribal entity by inducing it to issue bonds on false promise that
proceeds would be invested into annuity,
such that new trial was not warranted;
string of e-mails connected bond deal with
conspirator's apparent intent to spend the
funds as he saw fit, e-mails reflected defendant's awareness that conspirators
were investing in ways that were objectionable, and to facilitate use of proceeds
from first bond offering for second bond
purchase, defendant represented to tribal
entity that he was sophisticated investor
purchasing the bonds for his own account
and lied to banks. Securities Exchange
Act of 1934 §§ 10, 32, 15 U.S.C.A.
§§ 78j(b), 78ff; 18 U.S.C.A. § 2; Fed. R.
Crim. P. 33; 17 C.F.R. § 240.lOb-5.

3a
U.S. v. ARCHER

183

Cite as 977 F .3d 181 (2nd Cir. 2020)

9. Conspiracy e:>343

Both the existence of a conspiracy and
a given defendant's participation in it with
the requisite knowledge and criminal intent may be established through circumstantial evidence.
10. Criminal Law e:>935(1)

The preponderates heavily standard,
which requires evidence to preponderate
heavily against the verdict for a district
court to grant a motion for a new trial
based on the weight of the evidence alone,
specifically requires that the district court
make a comprehensive assessment of the
evidence. Fed. R. Crim. P. 33.
11. Criminal Law e:>935(1)

The preponderates heavily standard,
which requires evidence to preponderate
heavily against the verdict for a district
court to grant a motion for a new trial
based on the weight of the evidence alone,
does not permit a district court to elevate
its own theory of the evidence above the
jury's clear choice of a reasonable competing theory. Fed. R. Crim. P. 33.

MATIHEW L. SCHWARTZ, Boies
Schiller Flexner LLP, New York, NY, for
Defendant-Appellee.
Before: WALKER, SULLIVAN, Circuit
Judges, NATHAN, District Judge.t
RICHARD J . SULLIVAN, Circuit
Judge:
The government appeals from an order
of the United States District Court for the
Southern District of New York (Ronnie
Abrams, J.) vacating Defendant-Appellee
Devon Archer's conviction and granting his
motion for a new trial pursuant to Federal
Rule of Criminal Procedure 33. The operative indictment, filed March 26, 2018,
charged Archer with conspiracy to commit
securities fraud, in violation of 18 U.S.C.
§ 371, and securities fraud, in violation of
15 U.S.C §§ 78j(b) and 78ff, 17 C.F.R.
§ 240.IOb-5, and 18 U.S.C. § 2. After a
month-long trial, the jury found Archer
guilty on both counts. On appeal, the government argues that the district court
abused its discretion in setting aside the
jury's verdict under Rule 33 as against the
weight of the evidence. We agree.
I.

Appeal from the United States District
Court for the Southern District of New
York (Ronnie Abrams, J. )
SARAH K. E DDY (Rebecca Mermelstein, Negar Tekeei, on the brief), Assistant United States Attorneys, for Audrey
Strauss, Acting United States Attorney,
for Appellant.

t Judge Alison Nathan, of the United States Dis-

trict Court for the Southern District of New
York, sitting by designation.
1. "Because this is an appeal from a judgment
of conviction entered after a jury trial, the ...
facts are drawn from the trial evidence and
described in the ligh t most favorable to the
[g]overnment." United States v. Litwok, 678
F.3d 208, 210- 11 (2d Cir. 2012). Since a key

B ACKGROUND

A.

Facts 1

This case concerns a scheme engineered
by Jason Galanis ("Galanis") and others to
defraud a tribal entity, the Wakpamni
Lake Community Corporation of the Oglala Sioux Tribe (the "Wakpamni"), of the
proceeds of a series of bond offerings
worth approximately $60 million. In doing
so, the conspirators harmed not only the
component of Archer's defense at trial and his
argument on appeal is his intent (or lack
thereof), this section provides only a broad
overview of the scheme, focusing primarily on
the undisputed facts. We discuss the details of
Archer's role and wh at the jury could infer
from the evidence regarding his knowledge
and intent in the following section.

4a
184

977 FEDERAL REPORTER, 3d SERIES

Wakpamni but also several investors upon
whom they foisted the Wakpamni bonds which had no secondary market - in order
to generate cash for their own personal
use.
In early 2014, Jason Galanis, Archer,
Bevan Cooney, and other s were working
together to acquire financial services companies that they could "roll up" into a
large financial conglomerate with Archer
at the helm. They began by investing in
Burnham Financial Group ("Burnham"), a
well-established financial services company
with a prominent name that they sought to
leverage in building their own conglomerate. But to purchase additional so-called
"roll-up" companies, they needed capital.
So, in F ebruary 2014, Galanis informed
Archer and Cooney that he had been
"brought a deal" for tax-free bonds from
the Ogala Sioux Tribe, to which the Wakpamni belonged. App'x 848. The next
month, John Galanis, Jason Galanis's father, met with a representative from the
Sioux Tribe and convinced the W akpamni
to issue a series of bonds, promising that
the proceeds from the sale of these bonds
would be placed into an annuity. The Wakpamni understood that the annuity ''would
be like an insurance wrapper that would
protect the principal investment and generate annual income to cover the inter est
on the bonds as well as generate income
for" the Wakpamni's economic development projects. Tr. 1836; see also Tr. 1850.
The scheme had an air of legitimacy: John
Galanis represented to the Wakpamni that
Wealth Assurance-AG, a legitimate insurance company that Archer, Cooney, Jason
Galanis, and others had acquired, would be
the annuity provider. The transaction documents, however, listed Wealth Assurance
Private Client Corp. (''WAPC"), a shell
entity that J ohn Galanis falsely represented to be a subsidiary of Wealth AssuranceAG, as the annuity provider. In June 2014,

one of Archer's co-defendants opened a
bank account in the name of WAPC (the
''WAPC account") and designated Hugh
Dunkerley, another of Archer's eventual
co-defendants, as a signatory of that account. Finally, J ohn Galanis r epresented to
the Wakpamni that Burnham Securities
Inc., a legitimate registered broker-dealer,
would serve as the "placement agent" responsible for ''undertak[ing] due diligence
on the bonds, do[ing] a lot of legal [work]
putting together . . . the contracts[,] and
then finally find[ing] investors for the
bonds." Tr. 1005.
Once J ohn Galanis set up the Wakpamni
scheme, Jason Galanis, Archer, and others
went about finding buyers for the bonds.
A company with which Archer was affiliated financed the purchase of an investment
adviser, Hughes Asset Management
("Hughes"), and Galanis installed another
one of the co-defendants, Michelle Morton,
as Hughes's CEO. In August 2014, based
on John Galanis's promise that the proceeds would be invested in an annuity, the
Wakpamni issued their first set of bonds.
Morton purchased the entire issue, worth
$28 million, on behalf of Hughes's unsuspecting clients - without disclosing that
the same individuals who induced the
Wakpamni to issue the bonds also controlled Hughes and the purported placement agent. Placing the bonds in this
manner, without investor knowledge or
perm1Ss10n, also violated several of
Hughes's clients' investor agreements.
Most importantly, the bond proceeds were
then placed into the WAPC account - not
an annuity.
Unaware that the proceeds from the
first bond offering had been diverted to
the WAPC account and not invested in an
annuity, the Wakpamni launched a second
issuance the following month. This time
around, Archer and Cooney collectively
purchased $20 million worth of bonds from

5a
U.S. v. ARCHER

Cite as 977 F .3d 181 (2n d Cir. 2020)

the Wakpamni - with Archer doing so
through his r eal estate company, Rosemont Seneca Bohai LLC ("RSB") - using
proceeds from the first offering that had
been diverted to the WAPC account. After
buying the bonds, Archer and Cooney used
them to satisfy the net capital r equirements of two other Archer-controlled companies, without disclosing that the bonds
were purchased with the proceeds of an
earlier bond issuance. The Financial Industry Regulatory Authority ("F INRA")
would later condemn Archer's use of the
bonds in this way because the Wakpamni
bonds had "no active market." Tr. 2097.
In April 2015, the Wakpamni issued
their third and final set of bonds for $16
million. As with the first bond offering,
Burnham Securities was selected as the
supposed placement agent for the bonds.
At around that same time, Archer and
Cooney acquired a second investment adviser company, Atlantic Asset Management ("Atlantic"), which (like Hughes) was
led by Morton. Ultimately, Morton and
Atlantic arranged for the purchase of the
entire $16 million in bonds by a single
client of Atlantic, the Omaha School E mployees Retirement System ("OSERS").
As with the first bond offering, Morton did
not seek or r eceive approval from OSERS
for the transaction, which did not align
with its investment goals, nor did she inform OSERS of the inherent conflicts of
interest that permeated the transaction.
Once again, instead of being used to
purchase an annuity for the Wakpamni, as
John Galanis had promised, the proceeds
from the third bond issuance were diverted to the WAPC account, where they were
used by various conspirators for their own
personal benefit and interests. Some, like
Jason Galanis and his father, used the
bond proceeds to purchase "jewelry and
luxury cars," Tr. 58, and a new condo in
New York City; others, like Archer and

185

Cooney, used the bonds and the proceeds
"to further their [own] schemes," Tr. 59,
which included building "a big financial
services company'' that Archer was to control, Tr. 59-60.
In the fall of 2015, the Wakpamni
scheme began to unravel when the first set
of interest payments on the Wakpamni
bonds became due. In September 2015,
Archer transferred $250,000 from one of
his companies to the WAPC account, which
was then used to help pay the interest on
the bonds from the first offering. Soon
thereafter, Galanis was arrested on unrelated charges. In October 2015, some of
the conspirators created a new entity
named Calvert Capital ("Calvert") to cover
up the scheme. As part of this effort, they
fabricated backdated documents suggesting that WAPC invested in Calvert and
that Calvert lent Cooney and Archer the
$20 million to purchase t he bonds from the
second offering.
In the end, the Wakpamni were left with
$60 million in debt, and the fund investors
lost over $40 million.

B. Procedural History
On March 26, 2018, the government filed
the operative, super seding indictment
charging Archer and four others with conspiracy to commit securities fraud, in violation of 18 U.S.C. § 371 ("Count One"), and
securities fraud, in violation of 15 U.S.C.
§§ 78j(b) and 78ff, 17 C.F.R. § 240.lOb-5,
and 18 U.S.C. § 2 ("Count Two"). Count
One alleged that the Defendants conspired
to defraud the Wakpamni by inducing
them to issue bonds on the false promise
that the proceeds would be invested into
an annuity, which the Defendants instead
misappropriated for their own use. It also
charged the Defendants with conspiring to
defraud Hughes's and Atlantic's clients by
"gaining ownership and control" of those
investment advisers "and causing client

6a
186

977 FEDERAL REPORTER, 3d SERIES

funds to be invested in the [Wakpamni]
bonds, without disclosing the material facts
to these clients, including that the bonds
did not fit within the investment parameters of certain clients' investment advisory
contracts and that certain substantial conflicts of interest existed." App'x 136. Count
Two accused the Defendants of substantive
securities fraud for making false statements and omitting material facts while
"engag[ing] in a scheme to misappropriate
the proceeds of several bond issuances by
the [Wakpamni]" and in "caus[ing] investor funds" of Hughes's and Atlantic's
clients "to be used to purchase the bonds."
App'x 134-56; see also Tr. 4146. Alternatively, Count Two alleged that the Defendants aided and abetted the securities
fraud.
Four Defendants charged in the case Jason Galanis, Gary Hirst, Hugh Dunkerley, and Michelle Morton - pleaded guilty
prior to trial, with Dunkerley doing so
pursuant to a cooperation agreement with
the government.2 Archer proceeded to a
jury trial along with two of his co-defendants, John Galanis and Bevin Cooney. A
key issue at trial, which forms the basis of
this appeal, was whether Archer, a businessman with connections to high-profile
business and political leaders, was a knowing participant in the scheme or was simply a victim of Jason Galanis's fraud.
Trial commenced on May 22, 2018 and
ended on June 28, 2018, at which time the
jury convicted Archer, John Galanis, and
Cooney on both counts. After trial, Archer
and his trial co-defendants moved for acquittal under Federal Rule of Criminal
Procedure 29 or, in the alternative, for a
new trial under Rule 33. The district court
denied all motions except Archer's motion
2. Jason Galanis was charged in the original
indictment but pleaded guilty before the gov-

for a new trial. S ee Galanis, 366 F. Supp.

3d 477.

With respect to Archer's Rule 29 motion, the district court recognized that,
"drawing every inference in the government's favor, as the [c]ourt is required to
do under Rule 29, [it] [could not] conclude
that no reasonable jury could have convicted [Archer], particularly because the primary issue was intent and the government
presented a substantial amount of circumstantial evidence to that effect." Id. at 492.
Nevertheless, in addressing Archer's motion for a new trial pursuant to Rule 33,
the district court concluded that while
"[t]he government's reliance on circumstantial evidence is of course perfectly appropriate" and "the government's case
against Archer is not without appeal at
first blush[,] . . . when each piece of evidence in this indisputably complex case is
examined with scrutiny and in the context
of all the facts presented, the government's case against Archer loses much of
its force." Id.
Concerned that Galanis deceived many
of those around him, including those knowingly involved in his schemes, the district
court determined, as a factfinder would do,
"that Galanis viewed Archer as a pawn to
be used in furtherance of his various criminal schemes." Id. The district court was
further troubled ''by the government's inability throughout trial to articulate a compelling motive for Archer to engage in this
fraud," noting that "Archer never received
money from the purported annuity provider, nor did he profit directly from the
misappropriation of the bond proceeds."
Id. And while the district court acknowledged that the government's theory regarding Archer's motive - his "admitted
interest in the roll up being successful" ernment filed the operative indictment.

7a

187

U.S. v. ARCHER

Cite as 977 F .3d 181 (2nd Cir. 2020)

could not be "dismiss[ed] ... entirely," it
nevertheless concluded that this motive
was not "compelling" and was "mitigated"
by the fact that Archer ultimately lost a
significant portion of the funds that he
himself had invested into the scheme. Id.
at 492-93.
The district court stated that, because
the evidence was subject to multiple interpretations, it "remain[ed] unconvinced that
Archer knew that Jason Galanis was
perpetrating a massive fraud." Id. 493. It
emphasized "the unique considerations
pertaining to [Archer's] relationship with
Jason Galanis" - namely, what it saw as
Galanis's efforts to keep Archer in the
dark while simultaneously touting Archer's
political and business connections - as well
as "potential juror confusion over a government summary chart admitted as an
exhibit." Id. at 505. The district court announced that, ''when viewing the entire
body of evidence, particularly in light of
the alternative inferences that may legitimately be drawn from each piece of circumstantial evidence, . . . [it] harbor[ed] a
real concern" that Archer did not have the
requisite intent and was instead "innocent
of the crimes charged." Id. at 507. The
district court therefore granted Archer's
Rule 33 motion and ordered a new trial.
Id. The government timely appealed.
II.

STANDARD OF R EVIEW

[I, 2] 'We review the decision of the
district court to grant a new trial for abuse
of discretion." United States v. Ferguson,
246 F.3d 129, 133 (2d Cir. 2001). A district
court abuses its discretion ''when (1) its
decision rests on an error of law (such as
application of the wrong legal principle) or
3. The government also contends that the district court failed to consider that Archer's
guilty knowledge could be proved by conscious avoidance, as the jury was instructed.
Because we hold that the district court ap-

a clearly erroneous factual finding, or (2)
its decision - though not necessarily the
product of a legal error or a clearly erroneous factual finding - cannot be located
within the range of permissible decisions."
United States v. Forbes, 790 F.3d 403, 406
(2d Cir. 2015).
III.

D ISCUSSION

On appeal, the government argues that
the district court abused its discretion in
granting Archer's Rule 33 motion because
the evidence did not ''preponderate heavily
against the verdict." Gov. Br. at 33. It
further argues that in assessing the evidence, the district court inappropriately
disregarded the jury's resolution of conflicting evidence and failed to consider the
weight of the evidence in its entirety. We
agree. 3

A. To Grant a Rule 33 Motion Based
on the Weight of the Evidence
Alone, the Evidence Must Preponderate Heavily Against the Verdict
[3] Under Rule 33, "the court may
grant a new trial to [a] defendant if the
interests of justice so require." Fed. R.
Crim. P. 33. While we have held that a
district court may grant a new trial if the
evidence does not support the verdict, we
have emphasized that such action must be
done " 'sparingly' and in 'the most extraordinary circumstances.'" Ferguson, 246
F.3d at 134 (quoting United States v. Sanchez, 969 F.2d 1409, 1414 (2d Cir. 1992)).
Nevertheless, we have not always been
clear about what constitutes an "extraordinary circumstance" t hat can justify a district court's decision to overturn a jury's
verdict. We now clarify that rule and hold
plied the incorrect standard and that the jury
was entitled to conclude that Archer knowingly participated in the scheme, we need not
reach this argument.

8a

188

977 FEDERAL REPORTER, 3d SERIES

that a district court may not grant a Rule
33 motion based on the weight of the
evidence alone unless the evidence preponderates heavily against the verdict to such
an extent that it would be "manifest injustice" to let the verdict stand. See Sanchez,
969 F.2d at 1414.
The "preponderates heavily'' standard
finds support in our decision in Sanchez,
969 F.2d 1409. There, we considered the
district court's grant of a Rule 33 motion
based on what the district judge considered to be perjured testimony. We first
concluded that the district court erred in
finding that several police officers committed perjury simply because their recollection of the events at issue differed. Id. at
1415. Since the testimony shared many
consistent aspects, "the differences in testimony'' presented, at most, "a credibility
question for the jury." Id. But even discounting that testimony, we emphasized
that "[i]t surely cannot be said .. . that the
evidence 'preponderate[d] heavily against
the verdict, such that it would be a miscarriage of justice to let the verdict stand.' "
Id. (quoting United Stales v. Martinez,
763 F.2d 1297, 1313 (11th Cir. 1985)).
[ 4] The "preponderates heavily'' standard is not limited to cases like Sanchez in
which a district court, after discounting
certain questionable evidence, must assess
the weight of the remaining evidence supporting the conviction. It also applies with
equal, if not stronger, force to cases in
which a district court examines the weight
of the evidence as a whole - all of which
the jury reasonably and appropriately relied on in reaching its verdict. Our clarification that the "preponderates heavily''
standard applies in such cases is in accord
with the standard used by several of our
sister circuits. See United States v. LaVictor, 848 F.3d 428, 455-56 (6th Cir. 2017)
("A motion for a new trial . . . is ...
granted only in the extraordinary circum-

stances where the evidence preponderates
heavily against the verdict.'' (internal quotation marks omitted)); United States v.
Robertson, 110 F.3d 1113, 1118 (5th Cir.
1997) ("The evidence must preponderate
heavily against the verdict, such that it
would be a miscarriage of justice to let the
verdict stand."); United States v. Alston,
974 F.2d 1206, 1211-12 (9th Cir. 1992)
(agreeing with the Eighth Circuit's conclusion that the district court, in granting a
new trial based on the sufficiency of the
evidence, should look to whether the evidence "preponderates sufficiently heavily
against the verdict" (quoting United Stales
v. Lincoln, 630 F.2d 1313, 1319 (8th Cir.
1980)); United States v. Reed, 875 F.2d
107, 114 (7th Cir. 1989) ("[T]his is not one
of those 'exceptional cases' where the evidence preponderates so heavily against the
defendant that it would be a manifest injustice to let the guilty verdict stand.");
Martinez, 763 F.2d at 1313 ("The evidence
must preponderate heavily against the verdict, such that it would be a miscarriage of
justice to let the verdict stand.").
[5-7] We stress that, under this standard, a district court may not "reweigh the
evidence and set aside the verdict simply
because it feels some other result would be
more reasonable." Robertson, 110 F.3d at
1118; see also Van Steenburgh v. Rival
Co., 171 F.3d 1155, 1160 (8th Cir. 1999)
(holding that a district court may not grant
a new trial "simply because it believes
other inferences and conclusions are more
reasonable"). To the contrary, absent a
situation in which the evidence was "patently incredible or defie[d] physical realities," Ferguson, 246 F.3d at 134 (quoting
Sanchez, 969 F 2d at 1414), or where an
evidentiary or instructional error compromised the reliability of the verdict, see id.
at 136-37, a district court must "defer to
the jury's resolution of conflicting evidence," United Stales v. M cCourty, 562

9a
U.S. v. ARCHER

Cite as 977 F .3d 181 (2nd Cir. 2020)

F.3d 458, 475-76 (2d Cir. 2009). And, as it
must do under Rule 29, a district court
faced with a Rule 33 motion must be careful to consider any reliable trial evidence
as a whole, rather than on a piecemeal
basis. See, e.g., United States v. Middl,em iss, 217 F.3d 112, 117 (2d Cir. 2000).
Importantly, we do not find this standard to conflict with our holding in Ferguson. In Ferguson, the district court not
only explicitly applied the preponderates
heavily standard that we adopt today, see
United States v. Ferguson, 49 F. Supp. 2d
321, 323 (S.D.N.Y. 1999), affd, 246 F.3d
129 (2d Cir. 2001), it did so following a trial
infected by several errors, none of which
are present here. In Ferguson, the defendant was convicted of committing a violent
crime in aid of racketeering, which requires that one use or threaten violence
for at least one of three possible purposes:
(1) pecuniary gain, (2) "gaining entry'' into
an "enterprise," which in that case was a
gang, or (3) "maintaining or increasing
[one's] position" in that enterprise. 18
U.S.C. § 1959(a); see Ferguson, 246 F.3d at
134. Although the district court instructed
the jury as to all three possible motives,
Ferguson, 49 F. Supp. 2d at 324, it recognized, in granting the defendant's Rule 33
motion, that there was legally sufficient
evidence supporting only the pecuniary
gain motive, id. at 327- 30, and it was
therefore "error to have charged on all
three of the motivational alternatives," id.
at 324 n.5. The district court further explained that the only evidence supporting
the pecuniary motive was the vague, suspect testimony of an interested witness,
which alone was simply ''too slender . .. to
support a guilty verdict." Id. at 328-29.
Moreover, the district court stated that its
denial of Ferguson's motion to sever his
trial from that of his co-defendants was
reversible error alone, as it exposed the
jury to ''weeks of testimony regarding sue-

189

cessful murders and assaults, none of
which involved" the defendant. Id. at 330.
In short, Ferguson was an "exceptional"
case warranting a new trial. Ferguson, 246
F .3d at 134-35. While we did not explicitly
acknowledge that the evidence preponderated heavily against the verdict, the standard we laid out in Ferguson is not in
tension with the "preponderates heavily''
standard that we explicitly adopt today.
Moreover, the factual circumstances underlying our decision in Ferguson are simply not present here.
In sum, while we review a district
court's decision to grant a new trial based
on t he weight of the evidence for abuse of
discretion - not a "more stringent standard of review," id. at 133 n.l - the district
court's discretion in such cases is not without limit. Instead, the ''preponderates
heavily'' standard circumscribes that discretion, and provides much needed guidance to district courts.

B. The Evidence Here Did Not
Preponderate Heavily Against
the Verdict
The evidence introduced at trial did not
preponderate heavily against the jury's
verdict. In ruling on Archer's Rule 33 motion, the district court found that it ''was
clear that material misstatements and
omissions were made in connection with
the sale of securities," and therefore focused on "[t]he only seriously disputed element" - Archer's intent. S. App'x 11. For
Count Two, the substantive securities
fraud charge, this was whether Archer acted "[w]illfully'' and with the "[i]ntent to
defraud," Tr. 4153, 4161-62, or, in the
event the jury found him guilty of aiding
and abetting, whet her he ''willfully, knowingly associated himself in some way with
the crime and that he willfully and knowingly would seek by some act to help make
the crime succeed," Tr. 4159. And with

10a
190

977 FEDERAL REPORTER, 3d SERIES

respect to Count One, the conspiracy
charge, the government was required to
prove Archer "willfully and knowingly became a member of the conspiracy, with
intent to further its illegal purposes - that
is, with the intent to commit the object of
the charged conspiracy." Tr. 4165. Thus,
the government was r equired to show that
Archer had "at least the degree of criminal
intent necessary for the substantive offense itself," United States v. Feol,a, 420
U.S. 671, 686, 95 S.Ct. 1255, 43 L.Ed2d
541 (1975), but was not required to show
that he "knew all of the details of the
conspiracy, so long as he knew its general
nature and extent," United States v. Torres, 604 F.3d 58, 65 (2d Cir. 2010) (internal
quotation marks omitted) (quoting United
States v. Huezo, 546 F .3d 174, 180 (2d Cir.
2008)).
[8] In concluding that the evidence did
not support the jury's finding, the district
court relied on this Circuit's prior case law
on the proper standard, which we are clarifying today. But when the facts of this
case are assessed under the preponderates
heavily standard outlined above, we are
left with the unmistakable conclusion that
the jury's verdict must be upheld.
1.

The Promise of an Annuity and
Misappropriation of Funds

During trial, the jury reviewed a wealth
of emails in which Archer, Cooney, and
Galanis discussed the progression of the
Wakpamni scheme, which the government
argued reflected Archer's knowledge of
the scheme and intent to misappropriate
the bond proceeds.
Throughout the first half of 2014, Galanis ensured that Archer stayed up to date
on the deal with the Wakpamni, including
by informing Archer that the pr oceeds
from the sale of the bonds wer e supposed
to be placed into an annuity. Yet Galanis
also repeatedly emphasized that the pro-

ceeds from the bonds would provide them
with "discretionary liquidity'' to use to further their financial empire. See, e.g., App'x
862, 866. As the government argues, the
idea that they could use bond proceeds
however they chose stood in sharp tension
with the conservative annuity investment
that the Wakpamni wer e promised and
about which Archer was fully apprised.
Nonetheless, in setting aside the jury's
verdict, the district court found that this
evidence did not reflect Archer's intent,
contending that the language in the emails
was "facially innocuous or, at best, most
naturally subject to innocent interpretations." Gal,anis, 366 F . Supp. 3d at 495.
But while much of the language in these
emails, such as the term "discretionary
liquidity," could be subject to both legitimate and nefarious interpretations, the
jury did not ''misinterpret[ ]" the emails in
concluding the latter . Id. at 496. One email,
the import of which the parties hotly disputed during oral argument, pr ovides a
key example: On July 20, 2014, Galanis
sent Archer an email alerting him that
"the indians signed . . . our engagement"
and sending him the contact information of
the lawyer advising the Wakpamni on the
deal. App'x 786. Galanis instructed Archer
that while there was "[n]othing for [Archer] to do at this point," it ''may[ ]be good
for [the Wakpamni's counsel] to know that
you [ (Archer) ] are associated with the
insurance company at the right moment,"
which ''might be nice icing on the cake."
Id. He further added that "[t ]he use of
proceeds is to place the bonds into a
Wealth Assurance annuity," which would
then be "invested by an appointed manager on a discretionary basis." Id. While the
district court concluded that this email was
better read as "exculpatory because Galanis is specifically representing that the bond
proceeds would be placed in an annuity,"
Gal,anis, 366 F. Supp. 3d at 497, it could

lla
U.S. v. ARCHER

Cite as 977 F .3d 181 (2nd Cir. 2020)

also reasonably be read as Galanis providing tacit instructions to Archer regarding
their cover story. Either way, it was not
the province of the district court to reweigh the evidence in that regard. See Van
Steenburgh, 171 F .3d at 1160 ("On a motion for new trial, the district court is
entitled to interpret the evidence and
judge the credibility of witnesses, but it
may not usurp the role of the jury by
granting a new trial simply because it believes other inferences and conclusions are
more reasonable.").
Moreover, the government did not present this email to the jury in isolation.
Instead, it introduced a string of emails
connecting the bond deal with Galanis's
apparent intent to spend the funds as he
saw fit - not only on other financial services companies but also on a condo in
Manhattan's Tribeca neighborhood. For instance, on July 11, 2014, Galanis and Archer emailed about the closing date of the
Wakpamni deal. In the course of this same
email chain, Galanis stated they were "[s]o
close" and that he was "[m]assively motivated" because his attorney, Clifford
Wolff, was "running the stall for [him] on
[his] nyc mansion," and he did not want to
live in a "1750 square foot cage." App'x
869. Once the deal closed, Galanis did in
fact purchase a new condo in Tribeca - in
the name of an LLC bearing Archer's
name and business address - using approximately $1 million of funds from the
WAPC bank account.
While the district court discounted the
email evidence linking Galanis's purchase
of a Tribeca condo with the closing of the
bond deal because it was "not convinced"
that this showed Archer's knowledge, Galanis, 366 F. Supp.3d at 499, it was not for
the district court to second guess the
jury's clear choice of a different inference - namely, that Archer knew Galanis

191

diverted the money meant for the purported annuity for his own personal use.
These emails can reasonably be read to
demonstrate both that Archer knew the
proceeds were supposed to be invested
into an annuity and that Galanis demonstrated no restraint in spending the funds
for personal gain. Thus, when taken as a
whole, they provided strong support for
the jury to find that Archer knew that the
bond proceeds were being misappropriated. We are therefore confident that the
trial evidence, while circumstantial, did not
"preponderate[ ]
sufficiently
heavily
against the verdict that a serious miscarriage of justice may have occurred." Alston, 974 F.2d at 1211 (internal quotation
marks omitted).
2. Hughes and Atlantic
The evidence also strongly supported an
inference that Archer intended to help the
conspirators defraud Hughes's and Atlantic's clients by purchasing the bonds without informing them of the conflicts of interest that riddled the transactions - in
violation of the terms of the clients' investment agreements.
As even the district court acknowledged,
there was ample evidence showing that
Galanis, Archer, and Cooney acquired control of Hughes and Atlantic specifically to
place the Wakpamni bonds with their
clients so that they could generate funds to
acquire various roll-up companies. See Galanis, 366 F. Supp. 3d at 498. For instance,
Jason Galanis emailed Archer and Cooney
in May 2014, alerting them to the possibility of acquiring Hughes, which he said
would be "possibly useful," App'x 854, and
he kept Archer updated about the deal to
acquire Hughes as it progressed, repeatedly alluding to the Wakpamni bonds in doing so. Galanis told Archer that he "believe[d] Hughes would take $28 million" of
the Wakpamni bonds. App'x 871-72. And

12a
192

977 FEDERAL REPORTER, 3d SERIES

that is precisely what transpired: The
Hughes acquisition closed on or about August 11, 2014, and on August 22, 2014,
Hughes purchased the entire first Wakpamni bond offering, worth $28 million, on
behalf of its clients.
The email evidence told a similar story
with respect to the Atlantic acquisition.
Before the deal had closed, Morton sent
Galanis an email - which Galanis forwarded to Archer - stating that she was reviewing Atlantic's portfolio to determine where
the Wakpamni bonds could be placed. Atlantic then bought $16 million in Wakpamni bonds on behalf of one of its clients,
OSERS.
The district court stressed that there
was "nothing inherently illegal or illegitimate about these transactions;" rather, the
fraud was that ''bonds were purchased for
their clients without disclosure of all of the
potential conflicts of interest and [that] the
bonds fell outside certain clients' investment parameters." Galanis, 366 F. Supp.
3d at 498. And it found that Archer had
"no indication . . . that the individuals in
control of the investment advisers . . .
would fail to disclose the conflicts of interest or violate the terms of the clients'
investor agreements." Id. at 498-99.
[9] But direct evidence was not required, as "[b]oth the existence of a conspiracy and a given defendant's participation in it with the requisite knowledge
and criminal intent may be established
through circumstantial evidence." United
States v. Stewart, 485 F .3d 666, 671 (2d
Cir. 2007). The jury was entitled to credit
the circumstantial evidence that Archer
knew that his co-defendants - with whom
he had worked to acquire these companies
specifically to offload the Wakpamni
bonds - would then place the bonds into
their investors' accounts without disclosing
the conflicts of interest. The very nature of
the transactions was surely suspect, particularly in light of Galanis's questionable

reputation and regulatory troubles, of
which Archer was well aware. Indeed,
while Galanis had not yet been charged
criminally at the time of the scheme, he
had previously been barred from serving
as a director of a public company "due to
accounting irregularities" with another organization with which Galanis was involved. Tr. 905. There was testimony at
trial that this fact was readily available on
the internet, and Archer specifically acknowledged how "challenging" it was to
"defend[ ]" Galanis in light of his questionable reputation. App'x 905--08. And the
record clearly demonstrates that the companies were acquired specifically to offload
the bonds. For instance, the trial evidence
included the email - which Galanis forward
to Archer - in which Morton sought to
place the bonds in the investor accounts
before the bond deals had even closed.
Additionally, just days before the OSERS
purchase, Galanis noted the need to ''finesse" an Atlantic managing director who
would have to be "marginalized," prompting Archer to inquire how they could "get
ahead of' the director. App'x 900.
At a minimum, the email exchange reflected Archer's awareness that Galanis
and Morton were investing in ways that
would be objectionable to the directors which can reasonably support a finding of
his nefarious intent. When considered together and as a whole, there was ample
circumstantial evidence from which the
jury could conclude that Archer knew that
Galanis and the other conspirators were
dumping Wakpamni bonds on unsuspecting investors who were oblivious to the
serious conflicts of interest that infected
the transactions. More to the point, the
evidence certainly did not preponderate
heavily against such a finding.
3. The Source of Funds for the
Second Bond Purchase
The jury was also entitled to find that
Archer, in Ponzi-like fashion, intended to

13a
U.S. v. ARCHER

Cite as 977 F.3d 181 (2nd Cir. 2020)

promote the scheme by knowingly purchasing the bonds from the second issuance with proceeds from the first. Soon
after the initial offering, John Galanis advised the Wakpamni to issue a second set
of bonds worth $20 million, falsely assuring
them that additional investors wanted to
invest "right away." Tr. 1853----54; see al,so
Tr. 221. After again saying that the proceeds would be used to purchase an annuity, John Galanis represented that a "Burnham client who was excited about what
had occurred with the first bond issue"
wanted to purchase the additional bonds.
Tr. 221. In reality, there was no "Burnham
client" interested in purchasing the bonds;
instead, Archer, through his real estate
company RSB, purchased $15 million in
Wakpamni bonds with funds that originated in the WAPC account - the proceeds
from the first bond offering, which were
supposed to be invested in an annuity.
To accomplish this, Archer represented
to the Wakpamni in a letter that he was a
sophisticated investor purchasing the
bonds "for [his] own account and for investment only," App'x 618----19; Cooney
signed a similar letter. And while the parties vigorously disputed whether this was a
material misstatement in its own right, the
jury was certainly entitled to endorse the
government's view "that these statements
were themselves deceptive, given that, in
making them, Archer portrayed himself
(through RSB) as a legitimate investor . . .
using its own funds to invest." (16-cr-371,
Doc. No. 623 at 54 n.16.) The jury's conclusion was amply supported by the fact that
the funds used to purchase the bonds were
not Archer's at all; instead, the $15 million
came from Jason Galanis, who transferred
the bulk of the proceeds from the first
bond offering out of the WAPC account,
through numerous intermediaries, to an
account controlled by Archer's company,
RSB. Significantly, the last link in the
chain of intermediaries was Galanis's at--

193

torney, Clifford Wolff, whom Archer knew
to be the lawyer involved in Galanis's
Tribeca condo purchase.
Focusing on the circuitous route by
which the funds reached RSB's account,
the district court drew the opposite inference to conclude that Archer was a victim
of Galanis's deception, unaware that the
funds were derived from the misappropriated bond proceeds. Galanis, 366 F. Supp.
3d at 493----94. But while the complex transaction and use of intermediaries strongly
suggested that Galanis intended to conceal
the source of the funds, the jury was not
required to conclude that he intended to
conceal the source of the funds from Arch-er. At the very least, Archer knew that the
money he was using to purchase Wakpamni bonds "for [his] own account and for
investment only'' came from Galanis; he
also had some insight into the complex
rout e the money would take, and knew
that Galanis would be transferring funds
into one of his own accounts and sending
them through Wolff so that Wolff could
transfer them to Archer's RSB account.
From this constellation of facts, the jury
was certainly free to draw the inference
that Archer knew that the transactions
were part of a fraudulent scheme.
The district court also emphasized that
Dunkerley, despite being more involved in
the fraud than Archer, did not realize that
the funds used for the RSB purchases
were from the misappropriated proceeds
of the first bond offering. Id. But Dunkerley's knowledge had no bearing on Archer's, particularly since Galanis shared with
Archer - and not Dunkerley - concerns
about his lack of capital prior to transferring the $15 million to Archer. The sudden
appearance of $15 million - just weeks
after Galanis had repeatedly told Archer
that he needed "discretionary liquidity,"
App'x 866, and money to buy his "nyc
mansion," App'x 869 - supported a finding

14a
194

977 FEDERAL REPORTER, 3d SERIES

that the $15 million crone from the first
bond offering. There would, of course, typically be a distinction between one's personal liquidity and the liquidity of the company that person manages. But here the
jury could justifiably conclude that there
was no such distinction for Galanis, and
that, instead of investing the proceeds, he
was diverting the funds for his own personal use, including the purchase of a hurnry New York condominium in the name of
"Archer Diversified TRG, LLC." S. App'x
914; see al,so App'x 869 (discussing the
closing of the deal and the condo purchase
in the same chain). The jury could also,
then, conclude that the $15 million that
appeared in Archer's account just one
month later, from the same attorney who
was handling Galanis's condo purchase,
was from the same source - the proceeds
from the first bond offering that had been
diverted to the WAPC account.
The jury was certainly entitled to rely
on this evidence to conclude that Archer
knew the source of the $15 million he
received from Galanis to purchase the second set of Wakpamni bonds. Absent exceptional circumstances, a district court confronted with a Rule 33 motion may not act
as the factfinder, discounting substantial
circumstantial evidence or making contrary factual findings based on inferences
that the jury clearly rejected. See M cCourty, 562 F.3d at 475-76 ("Because the
courts generally must defer to the jury's
resolution of conflicting evidence and assessment of witness credibility, '[i]t is only
where exceptional circumstances can be
demonstrated that the trial judge may intrude upon the jury function of credibility
assessment.'" (quoting Sanchez, 969 F.2d
at 1414)); see also Robertson, 110 F.3d at
1118. No such exceptional circumstances
were present here.
4. Archer's Lies During the Conspiracy
Perhaps the strongest evidence of Archer's guilty knowledge were his lies to two

banks and the board of directors of the
Burnhrun Investors Trust (the "BIT
Board") concerning the source of the funds
for the second bond purchase and his relationship with Galanis. See United States v.
Anderson, 747 F.3d 51, 60 (2d Cir. 2014)
("[A]cts that exhibit a consciousness of
guilt, such as false exculpatory statements,
may . . . tend to prove knowledge and
intent of a conspiracy's purpose .... " (internal quotation marks omitted)). In late
September and early October 2014, Archer
made several false representations regarding the source of the funds used to purchase the bonds from the second bond
offering. Specifically, he told Deutsche
Bank that his company had "come to own
these bonds" through a "Real Estate
Sale." App'x 781. Similarly, he told Morgan
Stanley, where he ultimately deposited the
bonds, that the $15 million used to purchase the bonds was "generated through
[the] sale of real estate.'' App'x 658-59. At
trial, the government introduced a "Client
Representation Letter'' completed by a
Morgan Stanley employee who communicated wit h Archer in connection with the
bonds; the business record summarized
Archer's statement that the "funds used to
purchase the bonds were from real estate
sales through [his] business, Rosemont
Seneca Bohai, LLC.'' App'x 663. That
same employee testified at trial that she
''would not have written something [in that
document] that a client did not say.'' Tr.
867. And Archer told that employee in an
email that he came to know of the purchase because he was a "shareholder'' of
Burnhrun Financial, which ''packaged the
issuance.'' App'x 658-59. Later, after depositing his bonds at a different bank
''without a hitch," Cooney told Archer that
Archer "[n]eed[ed] to get . .. out of Morgan Stanley," App'x 787, which could reasonably be read to suggest that Archer

15a
U.S. v. ARCHER

195

Cite as 977 F.3d 181 (2nd Cir. 2020)

should move the bonds to a bank that
would less closely scrutinize his transactions.
The district court stated that it ''remain[ed] unconvinced" that these lies reflected Archer's knowledge that Galanis
was stealing the bond proceeds, Galanis,
366 F. Supp. 3d at 493, speculating that
Archer "may well have repeated a lie told
to him by Galanis," id. at 501, or that
perhaps the Morgan Stanley employee
who completed the form indicating the
source of the funds simply assumed they
came from Archer's real estate transactions. But the first explanation is not supported by the record, as there was no
evidence that Galanis ever told Archer that
the bonds were from real estate transactions. And the second explanation is at
odds with the employee's testimony that
she would not have written such information down unless it came from the client.
The district court also speculated that
Archer may have been trying to hide that
Galanis sent him the bonds because of
Galanis's ''well-documented checkered
past," which made him a "highly controversial figure." Id. But the jury was the
factfinder, and the district court was not
permitted to create a different narrative
by crediting inferences that the jury clearly rejected.
And Archer not only lied to the banks.
Around this same time, he also misled the
BIT Board about Galanis's involvement
with the Burnham companies. Again, Archer and the others sought to acquire control
of various Burnham companies in order to
leverage the prominent Burnham name in
building their own conglomerate. When
Archer requested the BIT Board's approval to acquire another Burnham subsidiary,
the BIT Board sought certain assurances.
Then, during a BIT Board meeting on
October 1, 2014, Archer warranted that
Galanis ''w[ould] not be involved with any

of the Burnham entities[,] their 'affiliated
persons[,]' " or "their successors or assigns." App'x 748. He further pledged that
Galanis ''w[ould] have no interest of any
kind, direct or indirect, in any of the Burnham entities," and that "the Burnham entities will not invest with or in, directly or
indirectly, any business or enterprise in
which Mr. Galanis has any association, affiliation, or investment, pecuniary or otherwise, directly or indirectly." App'x 748.
While Archer did not make this warranty in the context of the Wakpamni scheme
directly, his response, at a minimum, was
misleading. Galanis, of course, spearheaded the Wakpamni scheme, and Burnham
entities, including the placement agent,
Burnham Securities Inc., were intimately
involved in that scheme. Galanis also supplied money for Archer to buy the bonds
from the second offering, which Archer
would use to support the net capital of
companies he controlled, including a Burnham entity.
The district court nevertheless "remaine[d] unconvinced" that Archer made
these statements "because he knew that
Jason Galanis was stealing the bond proceeds." Galanis, 366 F. Supp. 3d at 501.
But a trial court ''must defer to the jury's
resolution of the weight of the evidence,"
Sanchez, 969 F 2d at 1414 (internal quotation marks omitted), and may not weigh
the competing inferences and choose the
one it finds "[m]ore likely," Galan is, 366
F. Supp. 3d at 501. And the mere fact that
competing inferences existed does not
compel a finding that the evidence preponderated heavily against the verdict.
5. The Cover-up
Finally, there was persuasive evidence
that Archer knowingly performed two key
actions in furtherance of a cover-up designed to delay discovery of the scheme.
First, on September 1, 2015, he trans-

16a
196

977 FEDERAL REPORTER, 3d SERIES

ferred $250,000 to WAPC - the purported
annuity provider - when the first set of
interest payments were due. These funds
were then used to help pay the interest on
the bonds, thereby delaying disclosure of
the fraud. Jason Galanis later repaid Archer in part, which he did using money from
entities that had received proceeds from
the third offering.
The district court found the "inference
urged by Archer" - that he was simply
providing needed short-term liquidity "equally if not more compelling'' than the
government's contention that Archer intended to prop up the scheme to forestall
the revelation that would come with defaulting on the payments. Id. at 503. But
even Archer does not dispute that he had
no legitimate affiliation with WAPC,
which, despite the similar name, was not
connected to Wealth Assurance Holding,
with which Archer was affiliated and which
had been falsely represented to the Wakpamni as the annuity provider. Thus, while
it may have been true, as the district court
observed, that Archer often infused cash
into his companies for legitimate purposes,
WAPC was not one of Archer's companies.
Whether or not Dunkerly or Galanis ever
discussed the true nature of WAPC with
Archer, the jury was certainly entitled to
infer that Archer's transfer of $250,000 to
a company with which he was not affiliated, completed shortly before the interest
on the first bonds was due, reflected his
knowledge of the scheme and was designed to prevent it from unraveling in the
event of a default.
Second, Archer made false statements
concerning Calvert, the fraudulent entity
created to cover the conspiracy's tracks
and delay discovery of the scheme. While
the government acknowledges that it did
not present any direct evidence showing
that Archer created any fake Calvert documents or gave any to regulators, as Coo-

ney had done, it did present clear evidence
that Archer explicitly used Calvert's name
in furtherance of the scheme. Specifically,
on November 25, 2015, Archer sent an
email to an employee at a roll-up company
that had taken possession of some of the
bonds from the second offering, stating
that the bonds needed "to be replaced/returned to Calvert" as "the lender and beneficial owner'' of the bonds. App'x 912.
Obviously, Calvert was not the "lender and
beneficial owner'' of the bonds, as Archer
claimed, since it had not even existed when
Archer purchased the bonds and never
lent Archer money for the bond purchases
or anything else.
The district court downplayed this email,
reasoning that "a single reference to Calvert in an email does not establish" Archer's knowledge. Galanis, 366 F. Supp. 3d
at 504. It further concluded that "the
weight of the evidence undercuts the notion that Archer was aware of the Calvert
cover-up" since "J ason Galanis and Hugh
Dunkerley came up with the idea for the
entity," "Dunkerley testified that neither
he nor anyone else discussed Calvert with
Archer," and Archer was not involved in
backdating the Calvert forms. / d. But
Archer clearly knew that Calvert was not
the beneficial owner of the bonds, as he
was involved in the bond issuance. Perhaps
"a single reference" to Calvert would be
insufficient if the record were otherwise
devoid of evidence, but it was not, and the
jury was entitled to draw inferences as to
Archer's knowledge and intent from his
explicit lie to a third party made during
the course of and in furtherance of the
cover-up.
[10] The review of the evidence above
illuminates two broader concerns we have
with the district court's ruling. First, the
preponderates heavily standard specifically
requires that the district court make a

17a
U.S. v. ARCHER

Cite as 977 F.3d 181 (2nd Cir. 2020)

comprehensive assessment of t he evidence.
While the district court acknowledged that
the "case must be assessed as a whole,
rather than taking each piece of evidence
in isolation," id. at 507, its analysis veered
into a piecemeal assessment of the evidence that understated the weight of the
proof in its totality. Indeed, in rejecting
Archer's Rule 29 motion, the district court
recognized that there was "a substantial
amount of circumstantial evidence" showing Archer's intent, which was subject to
competing inferences. Id. at 492. This evidence, when viewed as a whole, strongly
supported that Archer knew at least the
general nature and extent of the scheme
and intended to bring about its success. At
a minimum, that evidence did not preponderate heavily against the verdict in this
regard.
[11] Second, the preponderates heavily
standard does not permit a district court
to elevate its own theory of the evidence
above the jury's clear choice of a reasonable competing theory. Specifically, the
district court here adopted the defense's
theory that Archer was duped by Galanis,
and in doing so improperly discredited the
competing arguments regarding Archer's
reasons for participating in the fraud. The
district court noted that "Jason Galanis
operated to keep people in the dark, even
those who were undoubtedly willful participants in his various crimes." Id. at 505. It
noted that "his efforts as to Archer were
even more concerted," citing Galanis's at-tempts to keep Archer away from Dunkerely and how "the members of the conspiracy spoke of Archer when he was not
present, burnishing his credentials to others and describing him, among other
things, as 'the biggest show pony of all
time' whose involvement would 'add layers
of legitimacy' to the various deals." Id. It
noted that, "[a]t the same time Archer was
spoken of in this manner, Galanis was

197

simultaneously operating to ingratiate himself with Archer," which "further suggests
that Archer was not a party to this conspiracy but was instead being manipulated
by a skillful con artist." Id. While this
theory was by no means outlandish and
does find some support in the record, the
fact remains that defense counsel promoted it at length during trial, and the jury
rejected it. Moreover, while there assuredly was evidence that Galanis paraded
Archer's credentials to facilitate the fraud,
there was also evidence that Archer both
knew this and willingly allowed Galanis to
do so.
The government, by contrast, presented
a competing theory regarding Archer's
motive to engage in the fraud that the jury
found "compelling" even if the district
court did not. Id. at 492. In its opening
statement, the government argued that the
Defendants "needed money . . . to fund
their business empire," Tr. 54, and that
they "planned to use [the $60 million bond
purchase] for themselves and for their own
businesses," Tr. 56. Although the prosecution contrasted John Galanis's goals with
those of Archer and Cooney - that is, while
John Galanis spent money on "jewelry and
luxury cars, . . . Archer and Cooney
planned to make that money work for
them quietly," Tr. 58 - the distinction was
hardly exculpatory. The government's theory that Archer and Cooney intended "to
use the bonds for themselves to further
their schemes," Tr. 59, which included
building "a big financial services company
under the Burnham name," Tr. 59-60, was
fully consistent with the evidence in the
case.
During summation, the government
again emphasized that "[t]he Wakpamni
bonds were a massive fraud, a scam, a
scheme . . . to fund the luxurious lifestyles
of the few, [and] to fund personal business
ventures" of others. Tr. 3595. It repeated,

18a
198

977 FEDERAL REPORTER, 3d SERIES

yet again, that Archer and Cooney benefited from using the $20 million worth of
bonds "for their own business purposes"
and to support their "financial empire." Tr.
3650. Although Archer may not have received an envelope of cash or a condo from
the scheme, the district court's finding that
there was no "compelling'' motive presented to the jury was simply incorrect. While
the district court placed considerable emphasis on the extent to which Archer knew
of Galanis's personal gain from the fraud,
it is clear that the fraud had multiple
motivations, and it was not necessary that
Archer be fully versed in all of them. The
jury had before it considerable evidence
from which it could conclude that a second
motive, more personal to Archer, existed
and was furthered by the scheme.4
In sum, the preponderates heavily standard requires that the district court determine whether all the evidence at trial,
taken as a whole, preponderated heavily
against the verdict. It does not, however,
permit the district court to elect its own
theory of the case and view the evidence
through that lens. Having now clarified the
standard to be applied by a district court
in assessing a Rule 33 motion, we find that
the evidence here did not preponderate
heavily against the verdict. Because we
conclude that there is only one result available upon proper application of the preponderates heavily standard - reinstatement of the jury verdict - there is no need
to remand for further consideration of this
issue by the district court.
4. Although the district court further con cluded that the summary chart reflecting the
chain of payments in the scheme was so misleading that it supported overturning the
jury's verdict and granting a new trial, we are
unpersuaded. The summary chart showed a
payment that was accidentally made to Archer's company, RSB, and reversed twelve days
later. Even if arguably somewhat confusing,
the chart was accurate, as it explicitly liste,d
that this payment was r eversed. See United

CONCLUSION

For the reasons stated above, we reverse the district court's grant of the Rule
33 motion, reinstate the conviction, and
remand the case to the district court for
sentencing.

Donald J. TRUMP, Plaintiff-Appellant,
v.
Cyrus R. VANCE, Jr., in his official
capacity as District Attorney of the
County of New York, Mazars USA,
LLP, Defendants-Appellees.
Docket No. 20-2766
August Term, 2020
United States Court of Appeals,
Second Circuit.
Argued: September 25, 2020
Decided: October 7, 2020

Background: President of United States,
acting in his personal capacity, filed suit
under § 1983 against county district attorney, asserting broad presidential immunity
from state criminal process while President was in office and seeking declaratory
and injunctive relief to restrain enforceStates v. Citron, 783 F.2d 307, 3 16 (2d Cir.
1986) (recognizing that a chart must " fairly
r epresent and summarize the evidence upon
which [it was] based" to avoid misleading the
jury). And as the district court recognized , the
threat of prejudice was mitigated by the crossexamination, which highligh ted the payment
r eversal. Consequently, the error, if there was
one, was harmless, and not a basis to take the
"exceptional" step of granting a new trial.

Case 18-3727, Document 117, 12/23/2020, 3000249, Page1 of 1

19a
APPENDIXB
UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated tenn of the United States Comt of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Comthouse, 40 Foley Square, in the City of New York, on the
23rd day of December, two thousand twenty.

United States of America,
Appellant,
V.

ORDER

Devon Archer,

Docket No: 18-3727

Defendant - Appellee,
Jason Galanis, Gaiy Hirst, John Galanis, AKA Yanni,
Hugh Dunkerley, Michelle M01ton, Bevan Cooney,
Defendants.

Appellee, Devon Archer, filed a petition for panel reheai·ing, or, in the alternative, for
rehearing en bane. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Comt have considered the request for rehearing en bane.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

20a
APPENDIXC
U.S. v. GALANIS

Cite as 366 F.Supp .3d 477 (S.D.N.Y. 2018)

granted, and Plaintiffs Complaint (Dkt. 1)
is dismissed. The Clerk of Court is directed to close this case.
SO ORDERED.

477

1. Criminal Law e::>753.2(8)

On a motion for a judgment of acquittal, a court must view the evidence in a
light that is most favorable to the government, and with all reasonable inferences
resolved in favor of the government. Fed.
R. Crim. P . 29.
2. Criminal Law e::>753.2(6)

UNITED STATES of America,
v.

John GALANIS, Bevan Cooney, and
Devon Archer, Defendants.
No. 16-CR-371 (RA)

United States District Court,
S.D. New York.
Signed 11/15/2018
Background: Following jury trial, three
defendants were convicted of securities
fraud and conspiracy to commit securities
fraud. Defendants moved for judgment of
acquittal and new trial.
Holdings: The District Court, Ronnie
Abrams, J., held that:
(1) issue of whether first defendant willful-

ly joined scheme to misappropriate
corporation's bond pr oceeds was for
jury;

(2) guilty verdict was not supported by

sufficient evidence of second defendant's intent;

(3) guilty verdict was supported by suffi-

cient evidence of third defendant's intent; and

(4) failure of court to grant severance af-

ter introduction of prior-act evidence
against first defendant did not give rise
to manifest injustice.

Motions granted in part and denied in
part.

On a motion for a judgment of acquittal, the question is not whether the court
believes that the evidence at trial established guilt beyond a reasonable doubt, but
rather, whether any rational trier of fact
could have found the essential elements of
the crime beyond a reasonable doubt.
Fed. R. Crim. P. 29.
3. Criminal Law e::>753.2(6)

In a close case, where either of the
two results, a reasonable doubt or no reasonable doubt, is fairly possible, the court
must deny a motion for a judgment of
acquittal and let the jury decide the matter. Fed. R. Crim. P . 29.
4. Criminal Law e::>753.2(8)

On a motion for a judgment of acquittal, it is not the trial court's role to substitute its own determination of the weight of
the evidence and the reasonable inferences
to be drawn for that of the jury. Fed. R.
Crim. P. 29.
5. Criminal Law e::>753.2(8)

The strong deference to a jury verdict
on a motion for a judgment of acquittal is
especially important when reviewing a conviction of conspiracy because conspiracies
by their very nature are secretive and thus
are rarely laid bare in court. Fed. R.
Crim. P. 29.
6. Conspiracy e::>24(1), 47(2)

A conspiracy need not be shown by
proof of an explicit agreement but can be

21a
478

366 FEDERAL SUPPLEMENT, 3d SERIES

established by showing that the parties
have a tacit understanding to carry out the
prohibited conduct, and can be shown
based on circumstantial evidence alone.
7. Conspiracy e:>48.1(3)

In prosecution for conspiracy to commit securities fraud, issue of whether defendant willfully joined scheme to misappropriate corporation's bond proceeds was
for jury.
8. Criminal Law e:>913(1)

Courts have broad discretion to set
aside a jury verdict and order a new trial
to avert a perceived miscarriage of justice.
Fed. R. Crim. P. 33.
9. Criminal Law e:>905

Motions for a new trial are disfavored
and should be granted only in the most
extraordinary circumstances. Fed. R.
Crim. P. 33.
10. Criminal Law e:>935(1)

In deciding whether to grant a motion
for a new trial predicated on sufficiency of
the evidence, a judge may weigh the evidence and determine the credibility of witnesses and is not r equired to view the
evidence in the light most favorable to the
government. Fed. R. Crim. P. 33.
11. Criminal Law e:>935(1)

On a motion for a new trial, the trial
court must be satisfied that competent,
satisfactory, and sufficient evidence in the
record supports the jury verdict. F ed. R.
Crim. P. 33.
12. Criminal Law e:>961

On a motion for a new trial, the district court must examine the entire case,
take into account all facts and circumstances, and make an objective evaluation.
Fed. R. Crim. P. 33.

13. Criminal Law e:>935(1)

On a motion for a new trial, the court
must strike a balance between weighing
the evidence and credibility of witnesses
and not wholly usurping the role of the
jury. Fed. R. Crim. P. 33.
14. Criminal Law e:>913(1)

The ultimate test on a motion for a
new trial is whether letting a guilty verdict
stand would be a manifest injustice. Fed.
R. Crim. P. 33.
15. Criminal Law e:>935(1)

To grant a motion for a new trial,
there must be a real concern that an innocent person may have been convicted.
Fed. R. Crim. P. 33.
16. Conspiracy e:>47(4)
Criminal Law e:>935(1)

Jury's guilty verdict on charge of conspiracy to commit securities fraud was not
supported by sufficient evidence of defendant's intent, such that manifest injustice
would r esult from permitting verdict to
stand, and thus new trial was warranted;
leader of conspiracy took measures to hide
that he was sending defendant money
from misappropriated bond proceeds, leader's e-mails to defendant were ambiguous
as to whether conspirators planned to
keep clients' money for themselves or to
reinvest it on their behalf, neither of government's cooperating witnesses ever communicated with defendant about scheme,
defendant did not reap same illegal gains
as his alleged co-conspirators, and although defendant misled banks about leader's involvement in investment, he could
have done so because of leader's checker ed
past, rather than because he had knowledge that leader was stealing bond proceeds. Fed. R. Crim. P. 33.

22a
U.S. v. GALANIS

Cite as 366 F.Supp .3d 477 (S.D.N.Y. 2018)

17. Conspiracy e:,>47(4)
Criminal Law e:,>935(1)

J ury's guilty verdict on charge of conspiracy to commit securities fraud was
supported by sufficient evidence of defendant's intent, such that manifest injustice
would not result from permitting verdict to
stand, and therefore new trial was not
warranted; defendant received funds directly from account used to misappropriate
corporation's bond proceeds without apparent basis for him to receive money for
services rendered, defendant participated
in backdating forms related to fake entity,
and defendant lied to bank about his ownership of bonds in order to obtain $1.2
million loan. Fed. R. Crim. P. 33.
18. Criminal Law e::>622.7(3)

F ollowing proper joinder, severance is
reqmred only where the prejudice is sufficiently severe to outweigh the judicial
economy that would be realized by avoiding multiple lengthy trials.
19. Criminal Law e::>622.7(3)

Severance should be granted only
where there is a serious risk that a joint
trial would compr omise a specific trial
right of one of the defendants or prevent
the jury from making a r eliable judgment
about guilt or innocence.
20. Criminal Law e::>622.7(11)

A defendant is not entitled to a severance merely because he may have a better
chance of acquittal at a separate trial.
21. Criminal Law e::>622.7(8)

The introduction against one defendant of prior-act evidence by no means
reqmres severance. Fed. R. Evid. 404(b).
22. Criminal Law e:,,914

In pr osecution of three defendants for
conspiracy to commit securities fraud, failure of court to grant severance after introduction of prior-act evidence against one

479

defendant did not give rise to manifest
injustice necessary to grant new trial;
there was no evidence that other two defendants enjoyed relationship with defendant against whom evidence was introduced during relevant time, and court gave
robust limiting instruction specifying that
two defendants were not involved in or
even aware of other defendant's conduct.
Fed. R. Crim. P. 33; F ed. R. Evid. 404(b).
23. Criminal Law e:,>772(5)

Conscious avoidance charges are appropriate where involvement in an offense
was so overwhelmingly suspicious that the
defendant's failure to question the suspicious circumstances establishes the defendant's purposeful contrivance to avoid
guilty knowledge.
24. Conspiracy e:,>24(2)

That a single conspiracy may have
had multiple components or spheres does
not mean that the government instead alleged the existence of two conspiracies.
25. Criminal Law e:,>798(.5)

General unanimity instructions are
considered sufficient unless there exists a
genuine danger of jury confusion.
26. Criminal Law e:,>798(.7)

That certain aspects of the record in a
case are complex does not require a court
to give a specific unanimity instruction.
27. Criminal Law e:,>942(1)

When the import of newly discovered
evidence supporting a motion for a new
trial is that a witness committed perjury,
the threshold inquiry is whether the evidence demonstrates that the witness in
fact committed perjury. Fed. R. Crim. P.
33.
28. Criminal Law e:,>942(1)

If the prosecution was not aware of a
witness's perjury at the time of trial, a

23a

480

366 FEDERAL SUPPLEMENT, 3d SERIES

defendant can obtain a new trial only
where the false testimony leads to a firm
belief that but for the perjured testimony,
the defendant would most likely not have
been convicted. Fed. R. Crim. P. 33.
29. Criminal Law e=:>942(1)
If the prosecution knew or should

have known about a witness's perjury,
then the conviction will be set aside on a
motion for a new trial if there is any
reasonable likelihood that the false testimony could have affected the judgment of
the jury. Fed. R. Crim. P. 33.
30. Criminal Law e=:>942(1)

Where newly discovered evidence is
impeachment material, a new trial may be
granted only upon a showing that the evidence is not merely cumulative or impeaching, and that the evidence would likely result in an acquittal. F ed. R. Crim. P.
33.

Aimee Hector, Rebecca Gabrielle Mermelstein, Brian Roger Blais, Andrea Michelle Griswold, Brendan Francis Quigley,
Negar Tekeei, J effrey Coffman, U.S. Attorney's Office, SDNY, New York, NY, for
Plaintiff.

LLP(NYC), Paula J aclyn Notari, The Law
Office of Paula J. Notari, Abraham J abir
Abegaz-Hassen, O'neill and Hassen, New
York, NY, Daniel K. Streim, Orrick, Herrington & Sutcliffe, LLP (DC), Washington, DC, David Paul Nelson, Boies, Schiller & Flexner LLP (FL), Fort Lauderdale,
F L, Diane H. Bang, Spertus, Landes &
Umhofer, Los Angeles, CA, for Defendant.
OPINION AND ORDE R
RONNIE ABRAMS, United States
District Judge

INTRODUCTION
F ollowing a six-week jury trial, defendants John Galanis, Bevan Cooney, and
Devon Archer were convicted of securities
fraud and conspiracy to commit securities
fraud. Now before the Court are the defendants' motions for judgment of acquittal
and a new trial pursuant to Rules 29 and
33 of the F ederal Rules of Criminal Procedure.1 After careful consideration and a
thorough review of the record, the Court
grants Archer's Rule 33 motion, but denies
the others.

David Touger Peluso & Touger Joseph
Aaron Grob, Pro Hae Vice, J oseph A.
Grob, P.C., Gerald M. Cohen, Cohen &
Fitch, LLP, Eric P. Franz, Eric F ranz,
PLLC, Eugene Edward Ingoglia, Allen &
Overy, LLP, Gregory Robert Morvillo,
Caitlin Carey Sikes, Savannah Stevenson,
Orrick, Herrington & Sutcliffe LLP
(NYC), Neil Bruce Checkman, Law Offices
of Neil B. Checkman, Matthew Lane
Schwartz, Craig A. Wenner, Laura Elizabeth Harris, Boies, Schiller & Flexner

BACKGROUND
It is undisputed that a massive fraud
was perpetrated by Jason Galanis, the admitted mastermind of the conspiracy and a
serial fraudster. It is also not in dispute
that these defendants undertook actions
that had the effect of assisting Galanis in
this endeavor. The primary question for
the jury was whether the defendants
knowingly and willfully participated in the
charged scheme, or, as they each have
claimed, were themselves deceived by Jason Galanis. As the Court will detail, there
was ample evidence demonstrating that
John Galanis and Cooney were willful par-

John Galanis initially moved only pursuant
to Rule 29, but later submitted a supplemen-

tal Rule 33 motion predicated on newly discover ed evidence.

1.

24a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

481

ticipant.s. The Court harbors substantial
concern, however, that Archer lacked the
requisite intent and is thus innocent of the
crimes charged in this indictment.

expected, there was no secondary market
for the bonds and the client.s of Hughes
and Atlantic were thus unable to sell them.
See Tr. 751:15-25.

I. Overview of the Conspiracy

II. The Relevant Entities and Individuals

This single conspiracy had two component.s critical to it.s overall success, with
distinct groups of victims. First, the Wakpamni Lake Community Corporation
(''WLCC") was induced into selling approximately $60 million worth of bonds.
Tr. 156:17- 24. The bond proceeds were to
be invested in an annuity on behalf of the
WLCC. Tr. 147:3-13. This investment was
intended to generate sufficient returns to
pay the interest and principal due to bondholders, with additional revenue remaining
for the WLCC to fund certain economic
development project.s. Tr. 147:3-13. Instead, all of the proceeds were misappropriated at the direction of J ason Galanis, in
part for his personal benefit.
The second group of victims consisted of
certain client.s of two SEC-registered investment advisers, Hughes Capital
("Hughes") and Atlantic Asset Management ("Atlantic"). The conspirators gained
control of Hughes and Atlantic, which in
turn purchased approximately $40 million
worth of bonds on behalf of certain of their
client.s. This purchase violated the terms of
certain client.s' investor agreement.s and
further failed to disclose that some individuals were involved on both sides of the
transactions. See Tr. 1610:5-1614:13,
1617:3-13, 1680:9-1687:10; GX 927, GX
2632, GX 4016. Because the bond proceeds
were not invested as intended (with the
exception of the initial interest payment on
the first set of bonds) these client.s never
received the interest to which they were
entitled and never recovered their principal. See Tr. 752:20-753:4. Furthermore, as
2. Although he was not charged in this case,
Jason Sugarman has been characterized by

The WLCC scheme took place during
the course of a legitimate plan by Jason
Galanis, Bevan Cooney, Devon Archer, and
Jason Sugarman, among others, to conduct
a "roll up" of various businesses with the
goal of creating a financial services conglomerate that could be sold for a sum
larger than the value of it.s part.s. See Tr.
906:9-15.2 One of the entities they sought
to acquire was Burnham Financial Group,
which was intended to increase the value
of the conglomerate by virtue of it.s reputation. See Tr. 1321:17-22; DX 4733 at 8.
There is no indication that the roll up plan
it.self was illegal or otherwise suspect. Indeed, in pursuit of this plan the defendant.s
and their business partners acquired numerous legitimate companies, which collectively managed asset.s in the billions of
dollars. See Tr. 1324:18-24. But the complexity of the evidence in this case stems,
in part, from the tangled web of related
transactions involving the legitimate companies and those entities that were created
at the direction of Jason Galanis solely to
further the bond scheme and which were
purposefully given names to make them
appear related to the legitimate entities.
Before turning to the details of how the
WLCC scheme was executed, the Court
will provide an overview of the corporate
entities and actors central to this case.
Two companies, in particular, are implicated in many of the transactions: Burnham
Financial Group ("Burnham") and Wealth
Assurance Holdings. Burnham was the
the government as an uninructed co-conspirator.

25a
482

366 FEDERAL SUPPLEMENT, 3d SERIES

parent company of two other entities:
Burnham Securities, Inc. ("BSI"), a registered broker-dealer, and Burnham Asset
Management ("BAM"), an investment adviser with appr oximately $1.5 billion in
asset.s during the relevant period. Tr.
1071:24-1072:22. Wealth Assurance Holdings was a special holding company created specifically to acquire Wealth Assurance-AG ('WAAG"), a E uropean insurance
company. Tr. 911:13- 16, 1327:17- 20. During the relevant period, Wealth Assurance
Holdings also acquired another insurance
company, Valorlife, and was subsequently
renamed Valor Group. Tr. 1314:14-20. For
the sake of clarity, the Court will refer to
the Wealth Assurance Holdings/Valor
Group entity only as Wealth Assurance
Holdings ('WAH"). There was another entity, COR Fund Advisers ("CORFA"), created by J ason Sugarman, the purpose of
which was to raise money for corporate
acquisitions and which was intended to
play a role in the anticipated purchase of
Burnham. Tr. 1333:15-19,
As the Court will describe, many of
these entities touched, at least tangentially, the WLCC scheme. There were also a
number of entities created at the direction
of Jason Galanis for the sole purpose of
furthering the scheme and which were given names to make them appear related to
these companies, thus providing a veneer
of legitimacy. For instance, one entity involved in the acquisitions of Hughes and
Atlantic, BFG Socially Responsible Investing ("BFG SRI"), was in no way related to
Burnham or it.s subsidiaries despite it.s
name and was instead formed and owned
by WAAG. Tr. 1384:8-13, 1386:4-16.3 Similarly, the provider of the so-called annuity
for the WLCC was a company called
Wealth Assurance Private Client Corpora3. Th e nam e given this entity was "BFG Socially Responsible l nvesting"- not " Burnham
Financial Group Socially Responsible Invest-

tion ('WAPC"). Tr. 367:8-10. Again, it
bore no r elationship to WAH or WAAG,
but was named to give a misleading impression. Tr. 1014:18-21. Galanis even created a fake subscription agreement to
perpetrate the lie that WAPC was in fact
affiliated with WAH. Tr. 1459:8-20. While
Dunkerley knew that WAPC and WAH
did not enjoy a legal relationship, to his
knowledge he was the only board member
of WAH, including Archer, who was aware.
Tr. 1460:11- 1461:12. A third entity, Calvert Capital ("Calvert"), was later created
to leave a paper trail of backdated, fraudulent document.s in order to make certain of
the WLCC transactions appear legitimate.
Tr. 1057:14-1058:2.
Turning to the individuals who lie at the
center of this case, Devon Archer was a
principal of the Rosemont Group, a $2.4
billion private equity firm. DX 4733 at 12.
During the relevant period, he was also
the Chairman of Burnham, sat on the investment committee of BSI, and was on
the board of WAH. Tr. 1033:24-1034:1,
1327:5-9, 1409:20-23. J ason Galanis, the
admitted mastermind of the criminal
scheme who was the first of the defendant.s
to plead guilty in this case, did not have a
formal r ole at any of the Burnham entities
but was nonetheless involved in their affairs. Tr. 1071:2---5. He was also considered
an adviser to the boards of WAH and
WAAG. Tr. 912:8-10. Despite being involved in the r oll up plan, including as an
investor, see Tr. 907:3-9, Cooney, a friend
of Galanis', did not have a formal role at
any of these entities, while John Galanis,
Jason's father, apparently was not involved
in any capacity.
The other members of the alleged conspiracy were Michelle Morton, Gary Hirst,
and Hugh Dunkerley. Morton, who pleading" as Hugh Dunkerley initially testified before correcting himself on cross-examination.
Compare Tr. 936:5-6 with 1384:8-13.

26a
U.S. v. GALANIS

Cite as 366 F.Supp .3d 477 (S.D.N.Y. 2018)

ed guilty the week before trial, was recruited to purchase and operate the two
registered investment advisers, Hughes
and Atlantic. See Tr. 1032:20-24. Hirst,
who also entered a guilty plea shortly before trial, was installed as the Chief Investment Officer of Hughes following its
acquisition, created WAPC, and possessed
signatory authority over that entity's bank
account. Tr. 946:25-947:1, 1011:20-1013:12.
Dunkerley, a cooperating witness, occupied
a variety of roles. He sat on the Boards of
WAH and WAAG, was a director of CORF A, and was the sole managing member of
both WAPC and BFG SRI, the previously
discussed entities created solely to further
the criminal scheme. Tr. 897:23-898:3,
937:21, 1327:10-16.4 He also became an
employee of BSI, the placement agent for
the bonds. 897:23--898:3. Hirst and Dunkerley were responsible for transferring the
bond proceeds out of the WAPC account.
See Tr. 1020:1- 13, 1022:5-7. The government's case was also assisted by Francisco
Martin, who testified pursuant to a safe
passage letter. His role was to advise the
WLCC on the investments that would
comprise the annuity by virtue of his alleged employment at an entity called Private Equity Management. Tr. 1015:13-21.
He was also tasked with creating Calvert.
Tr. 2181:14--19.

Ill The Genesis of the WLCC Bond
Offerings
J ason Galanis and the defendants seem
to have first contemplated becoming involved in the sale of Native American
bonds in early 2014, with the intention, the
government argues, of obtaining liquidity
necessary to execute the r oll up. On F eb4.

Dunkerley p leaded guilty to two counts of
securities fraud relating to the WLC scheme,
as well as three counts for other crimes, including his production of fraudulent documents to cover-up the WLCC scheme and for
his participation in a separate fraud relating

483

ruary 12, 2014, J ason Galanis emailed
Archer and Cooney to inform them that he
had been ''brought a deal" involving a taxfree bond issuance by a Native American
tribe that "need[ed] an underwriter for . ..
municipal bonds." GX 2003. The email attached a letter from an employee of the
U.S. Department of Treasury to Raycen
Raines, a member of the Oglala Sioux
Tribe, regarding its application to issue
tribal economic development bonds. I d.
The WLCC is operated by the Wakpamni
Lake Community, a division of the Oglala
Sioux. Tr. 155:15-21.
In March 2014, John Galanis met Raycen Raines at a Native American development conference in Las Vegas, Nevada.
Tr. 1834:9-1835:11. Raines had not pr eviously met John Galanis. Tr. 1834:22--23.5
Beginning at that meeting and continuing
for several months, John Galanis proposed
that the WLCC issue bonds, the proceeds
of which would be placed in an annuity.
See Tr. 1835:24--1835:17. Based on certain
representations made by J ohn Galanis,
Raines believed that the annuity ''would be
like an insurance wrapper that would pr otect the principal investment and generate
annual income to cover the inter est on the
bond as well as generate income" for the
WLCC's various development projects. Tr.
1836:9-14. John Galanis initially informed
Raines that WAAG, the subsidiary of
WAH, would serve as the annuity provider. Tr. 1840:7- 14. Instead, the annuity provider ended up being WAPC (Wealth Assurance Private Client), which, contrary to
John Galanis' representations to Raines,
was in no way affiliated with WAH
(Wealth Assurance Holdings) or WAAG
to an entity called Ballybunion. See Tr. 927:7-

21.

5.

Instead of using his legal name, John Galan-

is introduced himself as "Yanni." See Tr.

1834:9- 13.

27a
484

366 FEDERAL SUPPLEMENT, 3d SERIES

(Wealth Assurance AG) despite its apparent affiliation based on its name. See Tr.
897:25--898:1, 1014:18-21. John Galanis further represented (accurately) that the
placement agent for the bonds would be
BSI, the previously mentioned subsidiary
of Burnham, and where Archer sat on the
investment committee. Tr. 1838:8-14.

ceeds pr ovided by Jason Galanis. A central
issue at trial was whether Archer and Cooney knew that the money they used to
purchase the second issuance was misappropriated from the proceeds of the first
set of bonds.

IV. The WLCC Issues Bonds and the
Proceeds are Misappropriated

At the time that John Galanis began
discussions with Raines, the conspirators
did not yet control either Hughes or Atlantic. On May 9, 2014, Jason Galanis forwarded Archer and Cooney an email concerning the potential acquisition of
Hughes, which he described as "possibly
useful." GX 2018; accord Tr. 1582:181583:7. The primary motivation underlying
the acquisition was to secure purchasers of
the first bond issuance. Tr. 933:8-11. Jason
Galanis also attached the resumes of Michelle Morton and Richard Deary. GX
2018. The acquisition, financed by wiring
$2.76 million to Hughes from WAAG,
closed on August 11, 2014. GX 2034; Tr.
1594:6--9. The funds went from WAAG to
BFG SRI, which as previously discussed
was not related to Burnham, then to an
entity called GMT Duncan, befor e finally
being provided to Hughes. Tr. 935:25-936:25. As a result of this transaction,
Hughes became wholly owned by GMT
Duncan. S ee Tr. 1383:18-20.6 Hirst was
installed as Hughes' Chief I nvestment Officer. Tr. 946:20-947:1.

The WLCC eventually conducted three
separate bond issuances, worth differing
amounts but otherwise structured similarly. The first and final issuances were purchased in their entirety by clients of
Hughes and Atlantic, respectively. The
second issuance was purchased by Archer
and Cooney using misappropriated pro-

On August 22, 2014, Hirst signed trade
tickets effecting the purchase of the entirety of the first WLCC bond offering on
behalf of clients of Hughes. See GX 813. In
the following days, approximately $24 million from Hughes' clients was deposited
into the WAPC account to fund the purchase of the annuity. GX 512 at 1; GX 4003

On June 16, 2014, J ohn Galanis emailed
Tim Anderson, a lawyer representing BSI,
copying Jason Galanis. GX 1304. Attached
to the email was a document setting forth
the details of the anticipated transaction
that were very similar to the final terms:
the bonds were intended to create a revenue stream for the WLCC to fund economic development projects; BSI would be the
placement agent and a company called Private Equity Management the portfolio
manager; the initial offering was for $28
million, with all but $500,000 of that
amount going to purchase an annuity from
WAPC; the WLCC would receive annual
payments ranging from $250,000 to
$350,000 for the following twenty-five
years; and the bondholders would r eceive
annual interest payments, with the principal being r ecover ed at the ten-year mark
at which point the bonds would be retired.
GX 1304; Tr. 170:13- 177:9.

6.

GMT Duncan was comprised of two classes
of sh areholders: voting Class A and non-voting Class B. The Class A shareholders were
Morton and Deary while the sole Class B
shareholder was BFG SRI, see Tr . 1385:1- 19,
a wholly owned subsidiary of WAAG (Wealth

Assurance AG), Tr . 1386: 14-20, which was
itself a subsidiary of WAH (Wealth Assurance
Holdings). As noted earlier, Archer sat on the
board of WAH and Dunkerley on the boards
of both WAH and WAAG.

28a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

at 4.7 Hughes' clients were not informed of
the purchase, which presented a conflict of
interest in light of the presence of the
same parties on both sides of the transaction and which violated the terms of certain clients' investor agreements. See Tr.
1610:5-1614:13, 1617:3-13, 1680:9-1687:10;
GX 927, GX 2632, GX 4016. Upon learning

of this transaction, Hughes' clients responded negatively, with many demanding
that the transaction be rescinded. Tr.
2049:21-2050:2.

Once the funds reached the WAPC account, they were not in fact used to purchase an annuity. Instead, through a series
of transactions, the money was transferred
to various individuals and corporations,
with approximately $7 million being spent
for the personal benefit of Jason and John
Galanis. See GX 4003 at 4. For example, $1
million was sent to the law firm representing the seller of a Tribeca apartment that
Jason Galanis was in the course of purchasing. GX 512 at 2, GX 4013. An additional $2.35 million was sent to a bank
account belonging to Sovereign Nations
Development Corporation ("Sovereign Nations"), which was created at the direction
of John Galanis days before the first bond
issuance. GX 4013. The money wired to
that account, which J ohn Galanis characterizes as a legitimate commission he
earned for his work on the deal, was ultimately disbursed to him for the purchase
of luxury items, as well as to several of his
family members. Id. An additional $4 million was sent from WAPC to Thorsdale
Fiduciary and Guaranty ("Thorsdale"), an
entity controlled by Jason Galanis that was
7. An additional $4 million of the clients' money was used to pay fees associated with the
transaction and to provide $2.25 million immediately to the WLCC, which was ear marked for the construction of a warehouse.
GX4003 at 4.
8.

FINRA ultimately determined, however,
that bonds of this nature may not be used to

485

a vehicle for investing his purported family
money. GX 4003 at 4. Among other things,
Jason Galanis distributed this money to
members of his family and purchased luxury cars and jewelry. Id.
The remaining proceeds were used to
purchase the second tranche of WLCC
bonds by Archer and Cooney. This money
was transferred out of the WAPC account
at the direction of J ason Galanis, shuffled
through various intermediaries, and finally
transferred to Archer and Cooney. See GX
4006. On October 1, 2014, Archer purchased $15 million of bonds through an
entity of which he was the sole managing
member, Rosemont Seneca Bohai ("RSB").
GX 4004 at 7. Cooney purchased the remaining $5 million of the second issuance
on October 9, 2014. GX 4005 at 6. The
bonds purchased by Archer and Cooney
were eventually used by entities with
which the two were associated to satisfy
net capital requirements set by the Financial Industry Regulatory Industry ("FINRA"). See GX 2075, GX 4004, GX 4005.8
As with the first offering, the proceeds
from the second issuance were not invested on behalf of the WLCC. In November
2014, $3.8 million was wired from WAPC
to Cooney, who allegedly intended to use it
to purchase Jason Galanis' home in Bel
Air. See GX 4007 at 4, GX 3224. Instead,
the money was ultimately used by WAH to
purchase the aforementioned Valorlife, a
subsidiary of an entity called Vaudoise, in
furtherance of the roll up. See GX 4007 at
4. The remaining portion of the proceeds
satisfy net capital requirements. Tr. 2093: 12094:24. There is no evidence, however, that
anything was amiss with this aspect of the
transactions. The entities seemed to have engaged with FINRA in good faith and ceased
using the bonds to satisfy net capital requirements upon receipt of the agency's final decision. See Tr. 2117:16-2126:9

29a

486

366 FEDERAL SUPPLEMENT, 3d SERIES

were transferred to Thorsdale, Jason Galanis' entity. See GX 4006. Archer did not
receive any transfers from the WAPC account. See id.

lated certain aspects of its agreement with
Atlantic, and was unable to liquidate the
bonds due to the absence of a secondary
market. See Tr. 656:3--25, 746:5-753:4.

Meanwhile, Jason Galanis was pursuing
the acquisition of another investment adviser, Atlantic. On August 28, 2014, Jason
Galanis emailed Archer and Cooney, with
the subject line ''we have a decent shot of
adding this one to the family." GX 2303.
Negotiations over this merger continued
through the fall and winter of 2014-2015.
See GX 828 at 1. Again, the acquisition was
motivated by a desire to facilitate the purchase of WLCC bonds, this time for the
third and final offering. See GX 2062; Tr.

The proceeds of the final issuance were
similarly misappropriated: Cooney received $75,000, GX 4009; Jason Galanis
used approximately $5.4 million to purchase Fondinvest, a European fund of
funds, with Dunkerley being installed as
the owner, see id., Tr. 1042:9-17; $4.6 million was sent to VL Assurance, another
WAH subsidiary, GX 4009, Tr. 913:6-8;
$305,000 went to Hughes, GX 4009; and
millions more went to Seymour Capital
and Thunder Valley, entities established at
Hirst's direction and which were eventually used to purchase shares of Code Rebel
in that company's IPO, see id., Tr.
2160:19- 2162:24. Again, Archer did not receive any proceeds from WAPC. See GX

1037:20-25.

Atlantic was eventually purchased for
approximately $6.1 million in cash. See GX
828 at 4; Tr. 1033:15-1035:10. The structure was similar to the previous acquisition
of Hughes-with the exception that the
funds originated with WAH instead of
WAAG-and Atlantic was merged into
Hughes, with the resulting combined entity being known as Atlantic and remaining
a subsidiary of GMT Duncan. See Tr.
1032:18---1037:13, 1383:18---20. Furthermore,
WAH agreed to provide a guarantee for an
additional $4,854,420 million of Atlantic's
debts. Tr. 1035:5-10; GX 828 at 4. During
this time, J ohn Galanis approached Raines
and suggested yet another bond issuance.
Tr. 1858:13--21. On April 15, 2015, Morton
purchased $16 million of the third and final
WLCC bond issuance on behalf of the
Omaha School Employees Retirement System ("OSERS"), which was a client of Atlantic. See GX 962; GX 4009. As with
Hughes' clients, OSERS was not provided
advance notice of the purchase, which vio-

The operative indictment in this case
charged each of the three defendants with
two counts: substantive securities fraud
and conspiracy to commit securities fraud.9
Trial commenced on May 22, 2018. The
government rested on June 20, at which
point the Court reserved ruling on the
defendants' motions for acquittal, pursuant
to Rule 29(b). Tr. 3131:13--22. Defendants
Archer and Cooney then presented cases
before resting on June 25. Following five
weeks of testimony and nearly 800 documents being admitted into evidence, the
jury began deliberations on June 28. See
Tr. 4192:3--4. In spite of the undisputed
complexity of this case, the jury did not
ask a single question or request that any

As noted previously, the initial indictment
charged seven individuals, four of whom
pleaded guilty, including two, Michelle Morton and Gary Hirst, who entered pleas the
week before trial. As a result of those two

p leas, the third and fourth counts of the indictment, which charged investment adviser
fraud and conspiracy, were rendered moot
because none of the three remaining defendants were charged in either of those counts.

9.

4009.

V. Procedural History

30a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

testimony be read back before finding all
three defendants guilty of both counts. See
Tr. 4195:2-4196:11. In total, the jury deliberated for less than three hours. See ECF
No. 541-4.

DISCUSSION

As mentioned above, the defendants

were convicted of both securities fraud and
conspiracy to commit securities fraud. It
was clear that material misstatements and
omissions were made in connection with
the sale of securities. The only seriously
disputed element was thus the intent of
each of the defendants.

487

accomplish that unlawful purpose [to commit the charged substantive securities
fraud], and that his action of joining such
an operation or conspiracy was not due to
carelessness, negligence, or mistake." Tr.
4169: 12-4170:4.
I. Rule 29
Each of the defendants challenges the
sufficiency of the evidence pursuant to
Rule 29. These motions are denied.

With respect to the required mental
state for the substantive securities fraud
offense, the Court charged the jury as
follows: "Knowingly means to act voluntarily and deliberately rather than mistakenly or inadvertently. Willfully means to
act knowingly and purposefully, with an
intent to do something the law forbids;
that is to say, with bad purpose, either to
disobey or to disregard the law. Intent to
defraud in the context of the securities
laws means to act knowingly and with
intent to deceive." Tr. 4153:8--17.10 Regarding intent in the context of the conspiracy
charge, the Court further instructed: "An
act is done knowingly and willfully if it is
done deliberately and purposefully; that is,
a defendant's acts must have been the
product of that defendant's conscious objective, rather than the product of a mistake or accident, or mere negligence, or
some other innocent reason . . . . [T]he government must prove beyond a reasonable
doubt that the defendant knew that he was
a member of an operation or conspiracy to

[1-4] Rule 29 requires a court, "on the
defendant's motion," to "enter a judgment
of acquittal of any offense for which the
evidence is insufficient to sustain a conviction." Fed. R. Crim. P. 29(a). When a court
reserves its decision until after the jury
returns a verdict, "it must decide the motion on the basis of the evidence at the
time the ruling was reserved." Fed. R.
Crim. P. 29(b). On such a motion, a court
"must view the evidence in a light that is
most favorable to the government, and
with all reasonable inferences resolved in
favor of the government." United States v.
Anderson, 747 F.3d 51, 60 (2d Cir. 2014)
(citation omitted). "The question is not
whether this Court believes that the evidence at trial established guilt beyond a
reasonable doubt, but rather, whether any
rational trier of fact could have found the
essential elements of the crime beyond a
reasonable doubt." United States v. Mi
Sun Cho, 713 F.3d 716, 720 (2d Cir. 2013)
(per curiam) (citations omitted). In a close
case, where "either of the two results, a
reasonable doubt or no reasonable doubt,
is fairly possible, the court must let the
jury decide the matter." United States v.

10. The Court also instructed the jury on aiding and abetting liability: "In order to aid or
abet another to commit a crime, it is necessary that you determine that he willfully,
knowingly associated himself in some way
with the crime and that he willfully and
knowingly would seek by some act to help

make the crime succeed. Participation in a
crime is willful if action is taken voluntarily
or intentionally, or in the case of a failure to
act, with a specific intent to fail to do something the law requires to be done; that is to
say, with a bad purpose, either to disobey or
to disregard the law." Tr. 4159 :15- 23.

31a

488

366 FEDERAL SUPPLEMENT, 3d SERIES

Autuori, 212 F.3d 105, 114 (2d Cir. 2000)
(citation omitted). It is not the trial court's
role to "substitute its own determination of
. . . the weight of the evidence and the
reasonable inferences to be drawn for that
of the jury." United States v. Guadagna,
183 F.3d 122, 129 (2d Cir. 1999) (ellipsis in
original) (citation omitted).

[5, 6] This strong "deference ... to a
jury verdict is especially important when
reviewing a conviction of conspiracy'' because conspiracies "by [their] very nature"
are "secretive" and thus are "rare[ly] ...
laid bare in court." Anderson, 747 F.3d at
72-73 (citations omitted). "A conspiracy
need not be shown by proof of an explicit
agreement but can be established by showing that the parties have a tacit understanding to carry out the prohibited conduct," United States v. Samaria, 239 F.3d
228, 234 (2d Cir. 2001), abrogated on other
grounds by United States v. Huezo, 546
F.3d 174, 180 n. 2 (2d Cir. 2008), and can
be shown based on circumstantial evidence
alone, United States v. Gordon, 987 F .2d
902, 906-07 (2d Cir. 1993).

Court will address in due course, the evidence introduced after the government
rested either has no bearing on the analysis or was beneficial to the defense case.
A. John Galanis
[7] There is no basis to disturb the
jury's verdict with respect to John Galanis.
In urging the Court to do so, he ignores
both the governing legal standards and the
evidence presented at trial, which overwhelmingly established his guilt.

As noted earlier, at the time the government rested the Court reserved judgment
on the defendants' motions pursuant to
Rule 29(b), with each of the defendants
filing written submissions after the verdict,
in which at least Archer also moves pursuant to Rule 29(c). The practical difference
is that Rule 29(c) permits the Court to
consider all of the evidence presented at
trial as opposed to the evidence in the
record at the time the Court reserved
decision. See Fed. R. Crim. P. 29. The
Court's conclusion, however, is the same
under either approach. With one exception
pertaining to John Galanis, which the

The primary thrust of John Galanis' argument is that he only made two representations to the WLCC, neither of which was
inaccurate in his view. As an initial matter,
this argument mistakenly assumes that a
defendant may only be liable if he personally made an actionable misrepresentation.
But even assuming, arguendo, that John
Galanis accurately states the law, his argument is unavailing because he did in fact
make material misrepresentations to members of the WLCC. First, John Galanis
acknowledges discussing his son's work at
Burnham with members of the WLCC. He
claims, however, that he merely said Jason
"had a position at Burnham wherein he
had great influence on deciding what investment opportunities Burnham would
become involved in." Galanis Mot. at 2,
ECF No. 564. It is of course true that
Jason Galanis, despite not holding a formal
position at Burnham or its subsidiaries,
was actively involved in their affairs. See
Tr. 1071:2-5. But the evidence at trial
showed that John Galanis made a different
and very specific representation to the
WLCC: that Jason was an employee of
Burnham. Tr. 1838:15--17; see al,so Tr.
154:3-8.11 This was indisputably false. 12

John Galanis does not appear to contest
the materiality of this misstatement. Even if
he did, however, the jury could have reasonably concluded that it was material by providing the representations made by John and

Jason Galanis to the WLCC some veneer of
legitimacy, particularly because it was John
who was so intimately involved in structuring
the deal in its early stages and he bore no
formal relationship with Burnham. In any

11.

32a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

There were additional misrepresentations, moreover, which John Galanis does
not acknowledge in his moving papers.
Most notably, he told members of the
WLCC that the proceeds from the bond
offerings would be placed in an annuity on
its behalf. Tr. 1839:10-1840:6. Indeed, this
was the entire motivation for the WLCC to
participate in the transaction in the first
place. It is undisputed that no such annuity was ever purchased. Instead, the proceeds were placed in the account of a shell
company created specifically to facilitate
the ensuing misappropriation.13 Based on
this representation, therefore, the jury
could have easily concluded that John Galanis was guilty.
But equally as important, Galanis ignores the requirements for liability. There
was ample evidence presented at trial of
John Galanis' central role in the criminal
enterprise, on which the jury could have
event, even if this statement was not material,
as the Court will explain there were ample
other bases on which the jury could have
convicted John Galanis.
12. The second representation identified by
John Galanis is that he told the WLCC that
sovereign immunity would shield them from
any liability related to the bond offerings. It is
unclear to the Court where in the record John
Galanis made this representation, which, in
any event, would not have been true in light
of the clause in the governing documents partially waiving the WLCC's sovereign immunity. See Tr. 207:3- 208: I.
13. The government correctly notes that John
Galanis initially told members of the WLCC
that WAAG would be the annuity provider,
presumably because it had a positive reputation. Tr. 1840:7-14. It is also undisputed,
however, that John Galanis eventually informed members of the WLCC that instead
WAPC would serve as the annuity provider.
Tr . 1852:15- 23. Whatever probative value this
series of events may have with respect to John
Galanis' intent, it cannot serve as the misrepresentation of material fact giving rise to liability.

489

concluded that he willfully participated in
the scheme.14
John Galanis asserts that the government's case turned on the mere fact that
he was related to Jason. Not so. The government even reminded the jury in its
summation of the obvious principle that
being related to a person who has committed a crime does not give rise to criminal
liability. Tr. 3619:23--24. Rather, the evidence established that they were a father
and son working in tandem in the context
of this criminal scheme.
The jury could have reasonably inferred
from the record that John Galanis did not
by happenstance meet Raines in Las Vegas but specifically targeted him. Indeed,
weeks earlier Jason Galanis had emailed
Archer and Cooney about an opportunity
to work with the WLCC, mentioning
Raines by name. GX 2003. Moreover, there
was at least one occasion on which Tim
14. Unlike his co-defendants, John Galanis
does not argue that the indictment alleges two
distinct conspiracies. He does, however, make
a related argument: that a prejudicial variance ensued because the evidence at trial
failed to establish the single conspiracy alleged by the government. This argument lacks
merit. It was well-established at trial that the
conspirators made these two sets of misrepresentations-to the WLCC and the clients of
Hughes and Atlantic- in a concerted effort in
pursuit of a single goal: to steal the bond
proceeds. See United States v. Payne, 591 F.3d
46, 61 (2d Cir. 2010) ("[A] single conspiracy
is not transformed into multiple conspiracies
merely by virtue of the fact that it may involve
two or more phases or spheres of operation,
so long as there is sufficient proof of mutual
dependence and assistance." (citation omitted) ). In any event, to the extent the evidence
did in fact establish two separate conspiracies, any such variance did not affect John
Galanis' substantial rights. See United States
v. Gonzalez, 399 F. App'x 64 1, 645 (2d Cir.
2010).

33a
490

366 FEDERAL SUPPLEMENT, 3d SERIES

Anderson, an attorney who helped structure the WLCC issuances, contacted Jason
Galanis seeking certain information about
WAPC, a request to which John Galanis
responded. Tr. 184:16---20. Finally, when
Raines suggested that the WLCC explore
alternative annuity providers in order to
compare rates, John Galanis discouraged
him from doing so. Tr. 1854:23-1855:10. If
another entity had served as the annuity
provider, it would not have been possible
to misappropriate the proceeds.15
J ohn Galanis also grossly mischaracterizes the record concerning the money he
received for his assistance in executing
the WLCC scheme. It is undisputed that
he received $2.35 million, which he describes as a commission. Galanis is of
course correct that commissions are not
per se illegal. He also rightly notes that
BSI received $250,000 for its role as the
placement agent for the bonds. GX 214 at
5. Raines even believed that Galanis might
receive a portion of the payment due to
Burnham. Tr. 1947:17- 21. But the circumstances under which John Galanis received this money belie the notion that it
was payment for anything but his participation in the criminal scheme.
First, unlike the payment to Burnham,
the $2.35 million distributed to John Galanis was not provided for in the schedule
setting forth the payments of expenses

owed at closing. See GX 214 at 5. Indeed,
unlike the payment to BSI, which was
made at closing, the funds given to John
Galanis came at a later time out of the
WAPC account. See GX 4013. At trial, he
failed to identify any authority for such a
distribution to be made to him in the context of these transactions. Second, the size
of the payment further undermines his
argument. It stands to reason that if BSI
was receiving $250,000 for its role as placement agent, John Galanis should not have
received nearly ten times that sum for
whatever services he allegedly provided.
To the extent John Galanis suggests that
his payment was a finder's fee, that argument is contradicted by the trial record,
which, as previously discussed, established
that Jason Galanis and the other defendants at trial were aware of this potential
transaction prior to J ohn Galanis ever
"meeting" Raycen Raines. See GX 2303.
Finally, the manner in which the funds
were disbursed to J ohn Galanis is perhaps
most probative of the fact that this payment was not legitimate. John Galanis was
not simply wired the funds. Instead, mere
days prior to the first issuance, he directed
an associate to create Sovereign Nations.
See Tr. 2820:1- 2822:16; see al,so GX 623,
GX 1112. The incorporation and account
opening documents for this company are

15. The one piece of evidence introduced after
the Court reserved judgment on the Rule 29
motions that harmed any of the defendants
was that regarding John Galanis' participation in a prior securities fraud scheme
orchestrated by his son. The Court had precluded the government from introducing this
Rule 404(b) evidence unless counsel for John
Galanis argued that his client had been duped
by Jason in the context of this conspiracy. In
spite of the Court's explicit warnings, counsel
did just that in his summation, at which point
the Court briefly re-opened the evidentiary
record to permit the government to introduce
a stipulation that John Galanis had pied guilty
to that previous fraud. Tr. 3829:2- 16. The

Court provided a robust liiniting instruction
that neither Archer nor Cooney were implicated in that conduct and that the jury was
permitted to consider the evidence only
against John Galanis for the purpose of assessing his intent in the present case. Tr.
3829:25-3831: 11. Needless to say, this evidence was highly probative of whether John
Galanis was a willing participant in the
scheme at hand. But as the Court's analysis
demonstrates, the jury had ample bases for
convicting him based on the evidence that
had been introduced at the time the government rested and the Court reserved judgment
on his Rule 29 motion.

34a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

bereft of any mention of John Galanis,
even though he was the one effectively
exercising control over the bank account.
See GX 623, GX 1112, Tr. 2826:3-2828:1,
2831:5--2837:5. The $2.35 million was wired
to Sovereign Nations, at which point J ohn
Galanis directed distributions, using a fake
email account, to himself and family members. See GX 3400, GX 4009, Tr. 2822:23-2823:24.
On this record, the jury's conclusion,
supported by ample evidence, was eminently reasonable.

491

order a new trial to avert a perceived
miscarriage of justice." United States v.
Ferguson, 246 F.3d 129, 133 (2d Cir. 2001)
(ellipsis in original) (citation omitted). Motions for a new trial pursuant to Rule 33
"are disfavored in this Circuit" and "should
be granted only in the most extraordinary
circumstances." United States v. Figueroa, 421 F. App'x 23, 24 (2d Cir. 2011)
(emphasis in original) (citations omitted).

A. Sufficiency of the Evidence

[8, 9] Rule 33 permits courts to "vacate
any judgment and grant a new trial if the
interest of justice so requires." Fed. R.
Crim. P. 33(a). Courts have ''broad discretion . . . to set aside a jury verdict and

[10-15] "In deciding whether to grant
a Rule 33 motion [predicated on sufficiency
of the evidence], a judge may weigh the
evidence and determine the credibility of
witnesses" and "is not required to view the
evidence in the light most favorable to the
Government." United States v. Tarantirw,
No. 08--CR-655 (JS), 2012 WL 5430865, at
*2 (E .D.N.Y. Nov. 7, 2012) (citations omitted), affd, 617 F . App'x 62 (2d Cir. July 10,
2015). "The trial court must be satisfied
that competent, satisfactory and sufficient
evidence in the record supports the jury
verdict. The district court must examine
the entire case, take into account all facts
and circumstances, and make an objective
evaluation.'' Ferguson, 246 F.3d at 134 (citations omitted). The Court, however, must
"strike a balance between weighing the
evidence and credibility of witnesses and
not wholly usurping the role of the jury."
Id. at 133 (citation omitted). "The ultimate
test [on a Rule 33 motion] is whether
letting a guilty verdict stand would be a
manifest injustice. To grant the motion,
there must be a real concern that an innocent person may have been convicted."
United States v. Aguiar, 737 F.3d 251,264
(2d Cir. 2013) (citations omitted).

16. As previously noted, John Galanis does not
attack the sufficiency of the evidence under
Rule 33. Cooney has made several arguments
for a new trial without explicitly attacking the
sufficiency of the evidence, as he does under

Rule 29. Nonetheless, particularly to the extent Cooney joins in Archer's motions, the
Court construes Cooney's papers as also arguing that the evidence is insufficient under
Rule 33.

B. Devon Archer and Bevan Cooney
The Rule 29 motions submitted by Archer and Cooney are similarly denied. With
respect to Archer, as will become clear in
the course of the forthcoming Rule 33
analysis, when drawing all inferences in
the government's favor, there is not a valid
basis to grant his Rule 29 motion. AB the
Court will further explain, Cooney's insufficiency of the evidence argument fails
even under the more lenient Rule 33 standard.

II. Rule 33
AB mentioned above, Archer and Cooney
both attack the sufficiency of the evidence
in advancing motions for a new trial under
Rule 33.16 The defendants also make various other Rule 33 arguments. For reasons
the Court will detail, Archer's motion
based on the sufficiency of the evidence is
granted, while all others are denied.

35a
492
1.

366 FEDERAL SUPPLEMENT, 3d SERIES

Devon Archer

The Court has been mindful of the deference appropriately accorded juries and
does not grant Archer's motion for a new
trial lightly or absent careful consideration. As noted above, when drawing every
inference in the government's favor, as the
Court is required to do under Rule 29, the
Court cannot conclude that no reasonable
jury could have convicted him, particularly
because the primary issue was intent and
the government presented a substantial
amount of circumstantial evidence to that
effect.
The government's reliance on circumstantial evidence is of course perfectly appropriate. And the government's case
against Archer is not without appe.al at
first blush. He did, after all, purchase
WLCC bonds using misappropriated proceeds that he received from Jason Galanis.
But when each piece of evidence in this
indisputably complex case is examined
with scrutiny and in the context of all the
facts presented, the government's case
against Archer loses much of its force.
First, the government's overwhelming
reliance on circumstantial evidence is coupled with Jason Galanis' deception, including of those who intentionally aided his
crimes. His modus operandi was to compartmentalize his schemes, such that each
participant knew only that which was essential to his or her narrowly defined
role. Indeed, the trial record is replete
with acknowledgements by accomplices of
Jason Galanis that he was intentionally
deceptive, rendering them unaware of
various aspects of his illegal conduct-including those central to the WLCC
scheme-and that sometimes they did not
learn the truth until they reviewed the
indictment in this case or were otherwise
17. At trial, the government advanced a theory
that Archer profited by way of $700,513 in

informed by the government. See Tr.
932:7- 14, 933: 17- 20, 1028:4---10, 1120:171121:10,
1126:5-1128:17,
1142:12-21,
1311:24- 1312:6, 1339:10-24, 1425:1- 15,
1557:2-6, 2142:6-13, 2144:1-22, 2159:8-21,
2296:9--18, 2326:8-15, 2329:16-23, 2332:212333:17, 2335:2-4, 2336:5-7, 2345:152346:2.
This ignorance extended so far as to
specific transactions in which they were
involved. For example, the government's
cooperating witnesses only learned that
the WLCC deal was fraudulent by virtue
of their independent observations. Dunkerley, despite his close relationship with Galanis and after already having performed
discrete acts in furtherance of the conspiracy, arrived at this realization only when
he noticed that the bond proceeds in the
WAPC account, to which he had access,
were not being used to purchase an annuity. See Tr. 1310:13-21. There were no such
clues for Archer. Moreover, the evidence
demonstrated that Galanis viewed Archer
as a pawn to be used in furtherance of his
various criminal schemes. See, e.g., DX
4078. The role of J ason Galanis as it pertains to the defendants' intent is all the
more vexing in light of the legitimate roll
up plan, which involved many of the same
entities and actors. It is through this prism
that the evidence in this case must be
assessed.
The Court's concerns are further exacerbated by the government's inability
throughout trial to articulate a compelling
motive for Archer to engage in this fraud.
Although the government is of course not
required to prove motive, it is notable that
Archer never received money from the
purported annuity provider, nor did he
profit directly from the misappropriation
of the bond proceeds.17 The theory on
misappropriated proceeds he received from
Thorsdale, the entity controlled by Jason Ga-

36a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

which the government now relies is that
Archer's admitted interest in the roll up
being successful- due, principally, to his
ownership interest in Burnham and the
shares of WAH stock he received for serving on the board-ereated a motive for
him to participate in the WLCC fraud,
which, the government contends, provided
funds critical to the roll up's success. The
Court cannot dismiss this possibility entirely, though it is mitigated by the fact
that Archer's commitment to the roll up
also resulted in him spending substantial
amounts of his own money, with one calculation offered by Archer estimating that he
lost approximately $800,000 during the relevant period. See Tr. 3567:21- 23; DX 9003.
Nonetheless, the fact that Archer did not
profit by virtue of retaining bond proceeds
that he received, either directly or indirectly, from the purported annuity provider is a significant distinction between him
and his co-defendants. See GX 4013 (entity
controlled by J ohn Galanis received $2.35
million directly from WAPC); GX 4009
(Cooney received $75,000 directly from
WAPC); cf GX 4012 (documenting the
many millions of misappropriated funds
Jason Galanis spent on himself); Tr.
1005:14-18, 1096:1- 5 (Dunkerley received
$125,000 at close of first bond issuance for
being the placement agent even though he
did not actually have to locate purchasers
of the bonds); Tr. 2143:20-25, 2147:6-18,
2149:g....g (Martin received $150,000 for
serving as the investment manager for the
annuity even though one was never purchased).
lanis . See GX 4012. Cross-examination established, however, that this was not the case.
The evidence on which the relevant government chart was based consisted of two wires
from Thorsdale to RSB: one for $100,000
and a second for $600,513. The transfer for
$ I 00,000 appears to have been repayment of
a loan made to Thorsdale by RSB one m onth

493

[16] While some of Archer's conduct is
troubling- particularly his repeated failure
to disclose his involvement with Jason Galanis-the Court remains unconvinced that
Archer knew that Jason Galanis was
perpetrating a massive fraud. In short,
when permitted to weigh the evidence on
its own, as Rule 33 allows, the Court is left
with an unwavering concern that Archer is
innocent of the crimes charged.

The government's case as to Archer's
intent was comprised primarily of the following evidence: (1) his purchase of $15
million of WLCC bonds; (2) emails involving him, Cooney, and J ason Galanis; (3)
purported lies he told Morgan Stanley and
Deutsche Bank in the course of custodying
the WLCC bonds and to the Board of
Trustees of the Burnham Investors Trust
("BIT Board"); and (4) various alleged efforts to cover up the WLCC scheme. The
Court will address each in turn.
i.

Archer's Purchase of the
Second Tranche

The primary aspect of the government's
case against Archer was his purchase of
WLCC bonds using proceeds from the
first issuance. This $15 million represented
approximately one-fourth of the total
amount misappropriated during the course
of the conspiracy. It is undisputed that
Archer knew Jason Galanis supplied the
money. See GX 2228. What is disputed,
however, is whether he knew the funds
Galanis gave him were misappropriated
bond proceeds.
It is imperative to understand the nuances of these transactions, which were
earlier while the second wire was soon thereafter retwned to Thorsdale. See Tr. 3002:253028: 16. Indeed, the government seems to
have abandoned its argument that these
transfers are evidence of motive, instead describing the money as being "funneled"
through RSB's account in the course of the
conspiracy. See Govt Opp. at 51 .

37a
494

366 FEDERAL SUPPLEMENT, 3d SERIES

structured intricately by Jason Galanis,
presumably, to aid hls deception. It is clear
from the record that Archer knew Jason
Galanis was providing the money for him
to purchase his portion of the second
tranche. But critically, the funds were not
transferred to Archer from WAPC, as
when John Galanis received misappropriated proceeds. See GX 4013. Instead, the
money took a circuitous route. Hugh
Dunkerley, operating at the direction of
Jason Galanis, transferred $15 million to
Thorsdale, the entity controlled by Galanis,
at which point it was wired to Clifford
Wolff, an attorney who represented Galanis in various transactions. See GX 4006. It
was only then that Wolff sent the funds to
an account belonging to RSB, an entity
that, as previously discussed, was controlled by Archer. See id. RSB in turn
purchased $15 million of WLCC bonds. See
id.
Despite his involvement, the government
presented no evidence that Archer knew
that these funds came from WAPC, which
presumably would have operated as a red
flag. Moreover, the first transaction in this
series was effected in a manner intended
to prevent anyone from realizing that the
funds were coming from the purported
annuity provider. Instead of merely wiring
the money, pursuant to an explicit instruction by Jason Galanis, Dunkerley went to a
bank and withdrew $15 million from the
WAPC account and then separately deposited it into Thorsdale's account. Tr. 1514:112, 1516:10--1517:15. As opposed to when a
transfer is effected by wire, it is only
possible to connect these two transactions
by simultaneously examining the records
for the two accounts and because a bank
employee wrote on the withdrawal slip
that the money was being deposited into
Thorsdale's account. See GX 565; Tr.
1525:12---24. Thls was the only occasion on
which Dunkerley effected a transfer from
the WAPC account in this manner. Tr.

1517:13- 17. The transfer from Thorsdale
to the Wolff Law Firm was also accompanied by an email from Francisco Martin,
ghost-written by Jason Galanis, in which
Martin "[t]hank[ed]" Wolff for his "assistance in helping to settle this investment
for your client." DX 4795; accord Tr.
2339:24- 2340:22.

Perhaps most critically, even Dunkerley,
who the evidence showed was privy to
more aspects of Jason Galanis' various
criminal acts than virtually anyone else-including frauds in which Archer is not
alleged to have played any role-did not
realize either (1) that the $15 million from
the WAPC account was ultimately being
sent to Archer or (2) that Archer ultimately purchased bonds with misappropriated
proceeds. See Tr. 1028:5-10, 1312:8--13. Instead, Jason Galanis told Dunkerley, who
was an active participant in this series of
transactions, that Archer had a contract
from China to make investments in the
United States, which required him to use
the money by a certain date. S ee Tr.
1025:2---7. Archer, according to Galanis,
was going to buy the bonds in order to
"effectively park the money so that he
could use it for future investments as they
came up." Tr. 1025:8--10. The fact that
Dunkerley knew only the details of the one
transaction of this series in which he was
directly involved- sending the money from
WAPC to Thorsdale-counsels strongly
against concluding that Archer had insight
into the entire sequence, which would be
necessary for him, as the recipient of the
final transfer, to know where the money
originated from, namely the W APC account.
In sum, there was no evidence presented
that Archer was aware that the money
being provided by Jason Galanis constituted proceeds from the first issuance. As the
Court has described, moreover, other aspects of the record suggest that he did not

38a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

know. Indeed, Jason Galanis' measures to
hlde that he was sending Archer money
from the WAPC account stands in stark
contrast to other occasions on whlch Jason
Galanis misappropriated proceeds, such as
when money was sent directly to the account of an entity effectively controlled by
his father and other funds were wired
directly to Thorsdale. See GX 4003 at 4.
And as previously noted, Dunkerley, who
was instrumental in transferring the funds
in question to Archer, only realized that
bond proceeds were being misappropriated
at all due to hls access to the WAPC
account, which obviously revealed that the
funds were not being used to purchase an
annuity. See Tr. 1310:13-21. The evidence
indicates that Archer had no such access.
See Tr. 1339:25-1340:3. 18
ii. Emails Involving Jason Galanis,
Archer, and Cooney

495

government urged the jury to construe
these emails as evidence of the defendants'
intent to perpetrate fraud, the Court views
them as more probative of Archer's innocence.
Broadly speaking, the emails concern
two topics: (1) the genesis of the WLCC
bond offerings, including planning the first
issuance, and (2) the acquisitions of
Hughes and Atlantic. The Court will address each in turn.

The government next argues that emails
between Archer, Cooney, and J ason Galanis, particularly those sent by Galanis, demonstrate an intention to steal the bond
proceeds and defraud the clients of
Hughes and Atlantic. These emails were
read into evidence by law enforcement
agents without any accompanying testimony. Indeed, the government's two witnesses who were participants in the
scheme-Hugh Dunkerley and Francisco
Martin-were not parties to these messages and could not interpret or explain
the statements made therein. The government is, of course, not required to offer
testimony accompanying such evidence. As
the Court will explain, however, the language in the emails is facially innocuous
or, at best, most naturally subject to innocent interpretations. Thus, although the

As for the emails regarding the structuring of the WLCC bond deal, the government points to terms such as "liquidity"
and "discretionary'' as if they are necessarily evidence of criminal intent. But the
government interprets these communications with the benefit of hindsight, knowing that Jason Galanis in fact misappropriated the proceeds. Instead, the critical
question is what these emails say about
Archer's intent at the time they were
made. As the government rightly notes,
evidence must be interpreted in context,
which also requires the Court to consider
that these communications were sent
among three individuals attempting to
complete the previously discussed roll up
plan, a primary goal of which was to increase assets under management. See DX
4733 at 13. That the defendants, by virtue
of the WLCC bond deal, may have increased, or wanted to increase, the assets
over whlch they had discretion to invest is
not evidence of criminal intent. Furthermore, the annuity was intended to include
private equity investments. See GX 209 at
10, GX 210 at 11 (agreements providing for
the annuity to include private equity investments); Tr. 370:17- 19, 372:9- 15,

18. Related to this transaction, t he government
asserts in a footnote in its opposition papers
that the letter submitted by Archer to the
WLCC indicating that h e was a sophisticated
investo r could itself be an actionable misstatement. See Govt Opp. at 54 n. 16 (citing GX

281). Assuming that the letter in fact contained a material misstatem ent, the governm ent would still n eed to demonstrate that it
was made with the requisite intent and the
Court's Rule 33 analysis thus remains applicable.

39a
496

366 FEDERAL SUPPLEMENT, 3d SERIES

500:22-504:6 (Anderson, the attorney who
represented BSI, the placement agent for
the bonds, understood that the bond proceeds would be invested in private equity,
agreeing that such investments "typically
involve taking a substantial stake or even
control of a company''). Therefore, that
certain communications may indicate a
hope or belief that the defendants would
benefit from the WLCC bond deal by virtue of it helping to advance the roll up
does not mean that such benefit was mutually understood to result from stealing the
bond money. In fact, consistent with these
agreements, Dunkerley and Galanis even
planned to cover up the theft of the proceeds by telling the WLCC that the bond
money had been invested in various companies acquired in the course of the roll up
and that the returns on their ownership
stake in these entities were sufficient for
the annuity to generate the expected returns. See Tr. 1057:5-10.
For instance, one of the first emails
connecting Archer to the WLCC scheme,
and on which the government places much
weight, is an April 2014 message from
Jason Galanis regarding a transaction that
never came to fruition, in which he wrote
"$20mm bond approved. Proceeds are
15mm to us and 5mm to them for a winery
investment they want to make." GX 2011.
In the government's view, Galanis was
communicating that he and the defendants
were free do as they wished with the $15
million. But a more reasonable interpretation of this message is that Galanis was
conveying that $5 million of the bond proceeds would be immediately distributed to
the WLCC while the remaining $15 million
was to be invested on its behalf, thereby
increasing assets under management. Indeed, this was similar to the structure of
the deal that was eventually consummated,
where $2.25 million was distributed immediately to the WLCC and roughly $24 million was earmarked for investment. See

GX 4003. This interpretation also comports
with the opinion letter from a law firm
attached to the message. See GX 2011.
Moreover, Cooney replied, asking, "[w]hat
do we get to do with the 15mm." GX 2120.
While the government argues that this is
further probative of criminal intent, a
more natural inference is that Cooney did
not understand Galanis to mean that they
would steal the money but instead that
there would be limitations of some sort on
how the funds could be used, presumably
pursuant to the agreements that would
govern the contemplated transaction.
The Court is similarly concerned about a
possible misinterpretation of Galanis' response that the funds were "discretionary." Id. Archer could easily have understood Galanis to be referring to the fact
that the group would be able to invest the
money for the WLCC as they saw fit, so
long as they complied with any restrictions
put in place by the client. This is not a
novel concept. Discretionary liquidity is
frequently referenced in the course of discussing perfectly legitimate transactions
and entities, including the sorts at issue in
the case at hand. See GX 2029 (noting that
Hughes "manages $900 million on a discretionary basis for 29 institutional clients
(pensions and endowments)" (emphasis
added) ); GX 2303 (noting that Atlantic
"managed on a discretionary basis approximately US $1.8869 billion of client assets
and provides advisory services on a nondiscretionary basis with respect to US
$7.1457 billion of client assets" (emphasis
added) ); DX 4733 at 13 (Burnham pitch
deck emphasizing its discretionary assets
under management); Tr. 650:1~51:8;
855:2-14; 1397:18-1398:4; 1605:20---1606:2;
1635:22-1636:4; 1660:8-12; 1673:13-20.
The foregoing analysis similarly applies
to other emails in which Galanis emphasized the need for discretionary liquidity.
See GX 1221 (June 2014 email correspon-

40a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

dence in which Galanis informed Archer
that he was working with "dan and Hugh
on capital vehicles that result in us controlling discretionary funds" which would provide them with ''money to invest," to which
Archer responded that "[w]e need discretionary funds at our command soonest,"
and to which Galanis replied that he was
focused on "discretionary''); GX 2025 (Galanis writing ''with some dry powder in our
control soon, we will be scary effective");
GX 2026 (Galanis providing an update on
the progress towards closing the transaction, adding "shooting for the end of
month. lots to accomplish to finesse this
over the line, im not counting the money
yet ... my primary objective is to get us a
source of discretionary liquidity. sick of
begging.''); GX 2031 (on eve of closing of
first issuance Galanis writes "[i]f I get this
$28mm, I have 12-15mm to put into WAH
[Wealth Assurance Holdings]"); GX 2065
(November 20, 2014 email from Galanis in
which he lays out the details of a potential
future bond deal, including that proceeds
would be placed in a WAH annuity, with
returns being "generated by a diversified
private equity portfolio in order to grow
Tribal assets"); GX 2216 ("Dan and Hugh
have locked [Fondinvest] up and came to
me for the money, which I have agreed to
arrange/provide (probably Indians).").19
The Court's concern is further exacerbated when, as it must, the evidence is
construed cumulatively and not in isolation. On June 20, 2014, Jason Galanis
19. The government rightly notes in its opposition papers that Jason Galanis in fact later
used $5.4 million in proceeds from the final
bond issuance to purchase Fondinvest. See
GX 4009. Archer contends that he plausibly
understood this to mean that proceeds would
have been used in the acquisition of Fondinvest, with the WLCC enjoying a stake in the
company, i.e., as a private equity investment.
The government's counter to this argument
appears to be the conclusory statement that
Archer knew he and his alleged co-conspira-

497

emailed Archer and Cooney, writing
"Arch[,] the Indians signed two hours ago
our engagement . . . Nothing for you to do
at this point, but giving you a heads up.
The use of the proceeds is to place the
bond proceeds into a Wealth Assurance
annuity. . . . btw, annuity proceeds get invested by an appointed manager on a discretionary basis on a 20 year contract.
Hercules has been appointed." GX 1235.
Far from being inculpatory, this email appears exculpatory because Galanis is specifically representing that the bond proceeds would be placed in an annuity. It
further seems clear that when these individuals used the word discretionary in this
context they were referencing the ability
of an asset manager to exercise discretion
in selecting investments for a client, in this
case the WLCC. Galanis' response supports Archer's argument that this is probative of his belief that the proceeds could be
legitimately invested on behalf of the
WLCC while simultaneously advancing the
roll up. Although Jason Galanis likely intended to steal the bond proceeds by this
point, the Court remains unconvinced that
he communicated such intent in these messages, or, more critically, that Archer understood him so. As noted earlier, during
this period even Dunkerley and Martin
believed the WLCC deal was legitimate.
See Tr. 1139:24-1140:5, 2296:9-18.
Other emails regarding the first bond
issuance are simply status updates, which
appear facially innocuous. See GX 1220
tors were instead using the bond proceeds for
themselves. See Govt Opp. at 33 n.13 ("There
was no annuity, and Archer knew that he and
others were using the proceeds of the bond
issuances for themselves and not, as promised
to the WLCC, to an annuity."). But as the
Court has noted, it was specifically contemplated that investments on behalf of the
WLCC would include private equity. S ee GX
209 at 10, GX 210 at II; Tr. 370:17- 19,
372:9- 15, 500:22- 504:6

41a
498

366 FEDERAL SUPPLEMENT, 3d SERIES

(Galanis forwarding email correspondence
with Tim Anderson and writing that he
was "moving the $20MM sovereign nation
debt issued"); GX 1267 ("closing soon" in
reference to the first issuance); GX 2026
(''we got US Bank to act as trustee for the
bond issue," "GT is issuer counsel," and
"Tribe counsel met and approved the issue"); GX 2027 (Galanis writing that they
were "close" and "target close is July 31");
GX 2031 (Galanis stating he was "in closing docs on $28mm with GT. Close. Could
fall apart but close."); GX 2217 (''Wilma
Standing Bear and Geneva Lone Hill have
fully executed the agreements").
Finally, the government cites to various
messages from Archer and Cooney in
which they express enthusiasm in response
to the information provided by J ason Galanis. S ee GX 2024 (Cooney responding
with a picture of a Jack playing card and
writing "The Greek! [which was a nickname for Galanis]"); GX 2026 (Archer responding "Unreal! This is just a testament
to taking a portfolio approach to pursuing
opportunity (aka the ping pong method).
Unreal as you never know where the nuggets pop up."); GX 2026 (Archer responding "Appreciate that J ack! And completely
correct !"); GX 2028 (Archer writing
"[f]rom your lips to Gods ears! July 31 is
right around the corner."); GX 2031 (Archer stating "I'm not sure I can take anymore of the precious. It's incredibly capital
intensive greenfield work. But let's discuss
because there's also a lot of blue sky!"). In
the Court's view, these emails simply do
not give rise to the inference urged by the
government.
20. The one caveat is that the acquisition of
H ughes was financed through the so-called
Ballybunion fraud, see DX 4060 at 2 (conditioning $2.76 million for acquisition of
Hughes on release of Ballybunion proceeds),
a separate crime committed by Jason Galanis
and H ugh Dunkerley in which none of thes e
defendants are implicated, see Tr. l l 5 l :4-8

The same is true of t he emails related to
the acquisitions of Hughes and Atlantic.
There was nothing inherently illegal or
illegitimate about these transactions, even
though they were motivated by a desire to
locate purchasers of the WLCC bonds.20
Rather, the fraud as it pertains to the
investment advisers is that bonds were
purchased for their clients without disclosure of all of the potential conflicts of
interest and the bonds fell outside certain
clients' investment parameters.21
The emails relied on by the government
make it clear that Archer was aware of
the acquisitions of Hughes and Atlantic, as
well as the goal that these transactions
would facilitate the sale of WLCC bonds.
S ee GX 1229 (in reference to acquisition of
Atlantic closing, Galanis noting that it
''will be nice to have dry powder to fire");
GX 2018 (Galanis emailing Archer, Cooney, and Andrew Godfrey regarding
Hughes, noting that firm has "$1.0 billion
AUM [assets under management]. all
fixed income. 52 clients. all institutional.");
GX 2029 (Galanis forwarding executed
term sheet for acquisition of Hughes and
noting that it "manages $900 million on a
discretionary basis for 28 institutional
clients (pensions and endowments)"); GX
2034 (''WAAG wired $2.78 million today to
close Hughes."); GX 2242 (discussing how
acquisition of Atlantic would provide
"more liquidity and sources for the various
projects" and that it could be used to purchase WLCC bonds, months before its acquisition); GX 2303 (email from Galanis
indicating that ''we have a decent shot of
(Dunkerley was told by Jason Galanis not to
tell anyone else about the Ballybunion frau d).
21. The Court notes that certain of the con-

flicts were apparently disclosed. See Tr .
508:15- 509:8 (Dunkerley's involvement in
both WAAG and BSI was disclosed in private
p la cement m emorandum); GXl 334.

42a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

adding [Atlantic] to the family''); see also
GX 1224, GX 1228, GX 1282, GX 2037, GX
2063, GX 2076, GX 2078. There is no indication, however, that the individuals in
control of the investment advisers, Morton
and Hirst, would fail to disclose the conflicts of interest or violate the terms of the
clients' investor agreements. Indeed, certain emails to which the government
points support the opposite inference,
namely that there existed a hope that
clients of Hughes and Atlantic would purchase WLCC bonds, but no intent to unilaterally foist the bonds upon them. See
GX 2029 (Galanis writing that "[w]e have
agreed to give" Hughes "an OJYPOTtunity
to participate in Native American new
bond issues" and asserting his belief that
it would take "$28 million of the Wakpamrri/Ogala [sic] Sioux issue" (emphasis added) ).
The government, finally, places much
emphasis on two emails related to Jason
Galanis' purchase of a condominium in
New York City, which was made in part
with bond proceeds. On July 9, 2014, Clifford Wolff emailed Archer and his assistant, Sebastian Momtaz~ that Galanis was
going to "purchase a condo using the
above name [Archer Diversified TRG,
LLC] and Devon's cache [sic]. The company is using your office address." GX 2122.
Later that month, Galanis, in an email
thread in which he had previously specified
that the closing date for the WLCC deal
was July 31, commented "so close. Cliff is
running the stall for me on nyc mansion[.]
I want to be here and won't live in a 1750
square foot cage[.] Massively motivated."
GX 2028. The inference urged by the government is that Archer knew Galanis was
going to later use bond proceeds to purchase the condominium.
The Court is not convinced that this
correspondence leads to the inference
urged by the government. It is true that

499

these emails suggest that Archer permitted Galanis, with whom he was working at
the time, to effectively trade on his name
in attempting to purchase a condominium.
But that misleading impression is not probative of whether Archer knew Galanis
was going to steal the bond proceeds.
Moreover, that Galanis expressed the desire to make this real estate purchase in an
email in which he also addressed the
WLCC bond deal does not lead to the
inference that he would ultimately finance
this purchase, in part, with misappropriated bond proceeds. As Archer notes, it can
also be read as merely affirming that Galanis was going to purchase the property if
the deal went through (e.g. , in part using
money he might legitimately earn from the
bond deal or fees later generated as a
result of the anticipated investment on behalf of the WLCC). Burnham, a subsidiary
of which was set to be the placement agent
for the bonds, also maintained its offices in
Manhattan, making the discussion of Galanis' anticipated move to New York City
in the context of discussing the closing of
the WLCC deal not illogical.
But the more critical point is this: because this email was admitted with no
accompanying testimony or other evidence
probative of its meaning, the Court (as the
jury was) is left to speculate as to whether
Galanis was implicitly conveying criminal
intent to Archer. The Court is hesitant to
conclude from this correspondence that
Galanis was effectively stating that he intended to steal the bond proceeds, which is
simply too large an inferential leap. The
inference urged by the government is further undercut by the fact that Galanis
financed the rest of this purchase by diverting money from Valorife, under the
pretense that it was purchasing WLCC
bonds. See GX 4015, DX 4127, DX 4824,
Tr. 3539:4-3541:1. There is no indication
that Archer was involved in that conduct.

43a
500

366 FEDERAL SUPPLEMENT, 3d SERIES

One final point bears mentioning: the
government attempts to read nefarious intent into certain of these messages by
suggesting that the defendants knew that
Jason Galanis intended to steal the bond
proceeds because he was short on money
but nonetheless discussed extravagant expenditures, such as a condominium in New
York. This suggestion is unpersuasive,
however, in light of the extensive evidence
presented at trial demonstrating that J ason Galanis successfully misled virtually
every person he met into thinking he was
immensely wealthy and successful. See,
e.g., Tr. 2306:1- 2303:17.
In sum, the Court does not view this
body of evidence as tending to show that
Archer was in fact aware of Galanis' theft.
Indeed, certain emails, most notably Government Exhibit 1235, tend to show the
opposite, namely that Archer had good
reason to believe the WLCC bond deal was
legitimate. At a bare minimum, the inferences urged by Archer are more closely
tethered to the actual language used in
these communications.
iii. Purported Lies to Morgan
Stanley, Deutsche Bank,
and the BIT Board
The most damaging evidence against
Archer, in the Court's view, were the purported lies he told three entities: Morgan
Stanley, Deutsche Bank, and the BIT
Board. While certain of these statements
were clearly misleading, as the Court will
explain the primary manner in which they
were deceptive-hiding the involvement of
Jason Galanis-does not lead to the ultimate conclusion necessary for Archer's
guilt: that he was misleading because he
knew Galanis was stealing the bond proceeds.
Archer's statements to Morgan Stanley
and Deutsche Bank occurred in the course
of identifying an institution to custody the
WLCC bonds he purchased in the second

tranche, which simply entails storing them.
See Tr. 833:3-11. The government argues
that Archer lied about the source of the
$15 million he used to purchase the bonds
when he told both entities that the money
was generated via real estate sales. See
GX 344, GX 1226. Archer contends that
these statements were accurate in his view
at the time because he was merely repeating lies Jason Galanis had told him about
the source of the funds. There were also
two pieces of evidence, however, that indicate the funds were generated by real
estate sales specifically completed by RSB,
as opposed to a third party, which would
constitute statements that Archer clearly
knew to be false. See GX 345, GX 352 at 4.
Archer asserts that he did not actually
provide this information because the statements in question were made by a Morgan
Stanley employee, who must have assumed
that any transactions generating the funds
had been completed by the entity on whose
behalf the bonds would be custodied, RSB.
The appropriate inference, in the government's view, is that Archer lied about the
source of the money because he knew that
it constituted bond proceeds recycled from
the first issuance.
The communications with the BIT
Board, on the other hand, were not related
to the WLCC bond deal. Instead, t hese
statements arose in the course of Archer's
pursuit of the roll up plan. The Burnham
Investors Trust, managed by the BIT
Board, was the largest client of BAM,
which, as previously discussed, was a subsidiary of Burnham. Tr. 2666:13-2667:9.
Archer wished to retain the Trust as a
client. The BIT Board and Archer engaged
in a prolonged negotiation, each advised by
legal counsel, in the course of which Archer made certain representations about the
involvement of Jason Galanis, or rather,
his lack of involvement in various entities
related to Burnham. See GX 762 at 1-2,

44a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

GX 763 at 3, Tr. 2765:1- 2778:20. The government argues that Archer lied, which, it
contends, is probative of his intent with
respect to the WLCC scheme. Archer
counters that the very technical statement.s with which he agreed to comply,
with the advice of counsel, were in fact
true, despite the involvement of J ason Galanis in certain capacities.
There are fair argument.s by both the
government and Archer about the statement.s he made to these entities and
whether they were literally true, false, or
technically true but nonetheless misleading. At the very least, it is a fair inference
that even if Archer's various statement.s
were technically true, he misled these entities and violated the spirit of his representations. Indeed, when crediting Archer's
argument.s as to the statement.s he made
to the banks, his failure to acknowledge
that a third party (J ason Galanis) provided
the money is what led to Morgan Stanley's
allegedly faulty assumption that the transactions generating the funds had been
completed by RSB. The Court remains
unconvinced, however, that this evidence,
even considered with the rest of the government's case, establishes the only issue
that matters for purposes of establishing
Archer's guilt: that he was misleading because he knew that Jason Galanis was
stealing the bond proceeds.
With respect to Morgan Stanley and
Deut.sche Bank, there are two possible inferences to be drawn from Archer's statement.s that the money used to purchase
the bonds came from r eal estate sales: (1)
he hid the fact that the funds constituted
recycled bond proceeds and (2) he hid the
involvement of Galanis. The probative value of the evidence with r egard to the first
inference, however, hinges on the assumption of the very fact for which it is offered.
It is undisputed that the funds constituted
misappropriated proceeds, rendering the

501

statement false. It is only probative of
Archer's intent, however, if he knew the
statement was false. For all the reasons
the Court has and will articulate, it does
not find that particular inference persuasive. The inference is further weakened by
the fact that Galanis specifically held himself out as having made money from real
estate, bolstering the notion that Archer
may well have repeated a lie told to him by
Galanis. See Tr. 480:6-15; 924:3-14;
1417:18-20; 1418:1-18; 2305:19--22. More
likely, in the Court's view, is that Archer
was hiding the involvement of Galanis,
whose role in supplying the money was
indisputably a fact of which Archer was
aware. There were other reasons, however,
Archer may not have wanted to disclose
Galanis' involvement that, while deceptive,
are not probative of his intent with respect
to the charged conspiracy.
Galanis, even during the relevant period,
had a well-documented checkered past. Although he had never been charged criminally, he had been barred by the SEC
from serving on the board, or as an officer,
of a public company, though it had expired
by the time of these event.s. Tr. 1332:3-8.
In spite of this, the evidence at trial demonstrated that Galanis had many admirers
in addition to his critics. See Tr. 904:10- 16
(Dunkerley testifying that he had been
told by J ason Sugarman that Galanis "had
a mixed reputation, that fifty percent of
the people who knew him didn't like him
and fifty percent of the people who knew
him did like him"). It is thus r easonable to
believe that Archer misled the banks not
because he knew Galanis was stealing the
bond proceeds, but instead because he simultaneously viewed Galanis as a business
asset while realizing that he was a highly
controversial figure. Indeed, in an email
from Archer to Matt Nor dgren on December 19, 2014, Archer specifically noted, in
regard to Galanis' involvement in Burnham, that there were "regulatory issues

45a

502

366 FEDERAL SUPPLEMENT, 3d SERIES

with [Galanis] so [he couldn't] mention his
name." GX 2066. Bolstering the strength
of this inference, the communications at
issue occurred in October 2014 on the
heels of the aforementioned negotiations
with the BIT Board, in which one of the
primary concerns expressed by the Board
was the involvement of Jason Galanis. See
GX 762 (Archer's representation letter
dated September 26, 2014).
The ultimate inference advocated by the
government-that Archer knew about Galanis stealing the bond proceeds-is further undercut when Archer's statements
are viewed in light of Dunkerley's testimony, the witness who provided the greatest
insight into J ason Galanis' methods. Dunker ley definitively established that even Galanis' co-conspirators were ignorant about
the details and import of transactions with
which they were intimately involved. As
noted earlier, Dunkerley had no idea that
proceeds were being recycled to buy more
bonds or that proceeds were being sent to
Archer. See Tr. 1028:5-10, 1312:8-13. What
is clear from his testimony is that his
knowledge of the illegal nature of the
WLCC scheme derived from what he personally observed- not what Galanis communicated to him. It was Dunkerley's access to the WAPC account that informed
him of the bond misappropriation. See Tr.
1310:13-21. Archer was not privy to such
information. See Tr. 1339:25-1340:3. The
inference advanced by the government,
therefore, depends largely on the assumption that Galanis had a conversation or
correspondence with Archer that he never
had with Dunkerley (or Martin, the other
cooperating witness) proactively informing
him that the WLCC deal was a fraudulent
scheme. In light of the substantial evidence in the form of the government's own
witnesses undercutting that notion, as well
as the absence of any evidence that Galanis ever admitted as much to Archer- not
to mention the other reasons Archer had

for being deceptive, which are not probative of his intent in the context of the
charged crimes-the Court remains concerned that Archer did not mislead Morgan Stanley and Deutsche Bank because
he knew Galanis was misappropriating
bond proceeds.
The inference urged by the government
is even less persuasive with respect to the
BIT Board evidence, which, as the Court
noted, did not concern the WLCC bond
deal. Assuming the factual predicate of the
government's argument, Archer did not
fully disclose the involvement of Jason Galanis in various entities related to the
Board, primarily his role as an adviser to
the boards of WAH and WAAG and his
actively working with Archer on the
WLCC deal. The probative value of this
evidence is that Archer was misleading
about Galanis' involvement And yet again
the conclusion necessary to deem Archer
guilty requires one more inferential leap:
that Archer misled the BIT Board because
he knew Galanis was stealing the bond
money. As discussed above, there is substantial evidence cutting against this inference.
Relatedly, the government further alleges that Archer lied to the BIT Board when
he denied being involved in the events
described in a complaint filed by the SEC
against Atlantic and being one of the anonymous defendants described therein. See
GX 784 at 1- 2. As an initial matter, the
government conceded at trial that Archer
is not in fact one of the defendants described in the complaint. Tr. 3239:12-13.
While the government alleges that Archer
was a member of the conspiracy here,
which included defrauding the clients of
Atlantic, it has never alleged that he personally failed to disclose the material conflicts of interest or violated the clients'
investor agreements. Those duties were
instead within the province of other mem-

46a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

hers of the alleged conspiracy, namely
Morton and Hirst.
The Court recognizes that Archer made
statements intended to mislead these various entities, which is of course troubling.
In light of the contexts in which Archer
WaB deceptive, however, this evidence is
not directly probative of his guilt with
respect to the crimes charged in this indictment. Particularly bearing in mind the
very plausible reaBons for Archer to otherwise hide Galanis' involvement and the
unique features of this caBe stemming
from Galanis' deception, the Court thus
continues to harbor a concern that Archer
is innocent.
iv. Archer's Alleged Involvement
in the Cover-Up
The government, finally, presented several pieces of evidence that, it claims, show
Archer tried to cover up the scheme: (1)
he made a $250,000 payment to the W APC
account shortly before the initial interest
payment WaB due on the first set of bonds;
(2) he sent an email referencing a fake
entity, Calvert Capital, that WaB created to
cover-up the bond scheme; and (3) he sent
an email to Cooney and others discussing
the next steps forward in light of Jason
Galanis' arrest on unrelated charges in
September 2015. This evidence does not
alter the Court's doubt that Archer waB
unaware of J aBon Galanis' fraud.
Archer does not dispute that he transferred $250,000 to the W APC account,
which, again, belonged to the purported
annuity provider and WaB the account from
which proceeds were wired in the course of
the misappropriation. See GX 4010. The
import of this evidence, in the govern22. Of the amount that Archer and others
transferred into the account in early September 2015, $240,000 was transferred to Thorsdale, presumably for Jason Galanis' personal
affairs. See GX 4010, GX 5 12 at 66. These
events serve to further illustrate that Jason

503

ment's view, is that Archer provided this
money so that it could be used to make the
initial interest payment to the bondholders
who acquired bonds in the first issuance,
thus delaying discovery of the fraud. But
when construed in light of the roll up plan,
the inference urged by Archer is equally if
not more compelling.
Indeed, there are a variety of reasons,
other than that the bond proceeds were
being misappropriated, that could explain
why Archer would make such a transfer.
First, the evidence showed that it WaB
relatively common for Archer to supply
liquidity to entities with which he WaB affiliated. S ee DX 9003 at 5; Tr. 3562:123568:1. Critically, even Dunkerley testified
that although he knew WAPC WaB not
actually affiliated with WAH, to the best of
his knowledge he WaB the only member of
the WAH Board, which included Archer, to
realize this because Jason Galanis had created a fake subscription agreement between the two companies. Tr. 1459:81461: 12. And the governing documents of
the bond transaction were unambiguous
that the anticipated investment on behalf
of the WLCC entailed risk, aB all investments do. As noted earlier, this one possessed an even greater risk profile than a
typical annuity by virtue of including private equity investments. See GX 209 at 10,
GX 210 at 11; Tr. 515:9-516:15. It is thus
just aB consistent with Archer's transfer of
money that he WaB intending to assist what
he believed to be a legitimate transaction
by providing liquidity needed in the shortterm.22
Next, the government places great emphaBis on an email in which Archer referGalanis and Ar cher were not as closely
aligned as the government claims and also
further undercuts the notion that Archer was
aware that the money he supplied was being
used for illegitimate purposes because Galanis was simultaneously stealing from Archer.

47a
504

366 FEDERAL SUPPLEMENT, 3d SERIES

ences Calvert, a sham entity that was
created by Hugh Dunkerley, Francisco
Martin, and Jason Galanis to assist in the
cover-up of the WLCC scheme. In writing
to Mark Waddington, who is not alleged
to have been a member of the conspiracy,
Archer noted that the bonds he purchased in the second tranche, then held
by VL Assurance, were "to be replaced/returned to Calvert," adding in a
subsequent message in the exchange that
"the consensus is we would like to return
these bonds to the lender and beneficial
owner in the quickest orderly manner
possible." GX 2119. The inference urged
by the government is that Archer knew
about the Calvert cover up, which would
obviously be probative of his intent with
respect to the WLCC scheme.
On this record, however, a single r eference to Calvert in an email does not establish Archer 's knowledge that it was a sham
entity and that he was thus a willful participant in the conspiracy. Indeed, the weight
of the evidence undercuts the notion that
Archer was aware of the Calvert cover-up.
Jason Galanis and Hugh Dunkerley came
up with the idea for the entity, Tr. 1450:21453:3, which Francisco Martin cr eated,
Tr. 2181:14-19. Dunkerley testified that
neither he nor anyone else discussed Calvert with Archer, Tr. 1464:1- 13, 1509:6--8,
whom Martin never even met, Tr. 2381:1518. While Galanis, Dunkerley, and Cooney
all participated in backdating Calvert
forms related to certain of the bond transactions, see Tr. 1464:17-1465:16, 2181:1423. In a footnote, the governm ent also reminds
the Court that Archer r eceived an email from
Galanis after his arrest from the "clean"
email account set up for him by Dunkerley.
See GX 1453, Tr. 2180:21- 2181:13. T he Court
does not deem this evidence to be especially
probative. The email did not concern anything inherently illegal-merely appointment
of dir ectors to Atlantic's boar d- and was also
sent to Andrew Godfrey, who is not alleged to
have been a member of the conspiracy. See

17, GX 1577, GX 2298, Archer did not
participate in this backdating even though
the conspirators created a fraudulent document describing a purported loan Calvert
made to RSB, see GX 1577. Tellingly, this
document was signed only by Dunkerley,
see GX 1577, in contrast to other fraudulent forms relating to Calvert, see GX 2298
(document signed by both Dunkerley and
the purported recipient of the "loan," Cooney). Finally, it bears mentioning that
even Martin was unaware that Calvert was
a fake entity intended to deceive even
though he was the one who created it. Tr.
2295:10-25; 2348:2-7. This further highlights the extent to which Galanis did not
disclose the true import of discrete acts he
directed others to take, even those who
were clearly willing participants in his
criminal schemes.

The government's final strand of evidence relates to Archer's conduct after
Jason Galanis' arrest on unrelated charges.
It cites an email Archer sent Cooney, J ason Sugarman, and Andrew Godfrey. GX
2102. This email included a list of "immediate issues" to address in light of Galanis'
arrest. Id. But there is nothing nefarious
about the included items. See id. The import of this evidence, in the government's
view, appears to be that Archer was aware
of certain aspects of the bond transactions.
But he has never argued otherwise.23 The
issue, rather , is whether he knew that
Jason Galanis was stealing the bond proceeds.24
GX 1453. Moreover, there is no evidence that
Archer ever responded.

24. The government also urges an inference
against Cooney on the basis that he responded to Archer's message, indicating that it was
a " [g]ood prelim checklist." GX 2102. For the
same reasons as those discussed with respect
to Archer, the Court does not rely on this
evidence in denying Cooney's Rule 33 motion.

48a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

v. Final Considerations
Exacerbating the Court's concern about
Archer are two additional considerations
that further weigh in favor of granting a
new trial: (1) the unique considerations
pertaining to his relationship with Jason
Galanis and (2) potential juror confusion
over a government summary chart admitted as an exhibit.

505

ing that "[y]ou don't get any more politically connected [than Archer is] and make
people more comfortable than that," and
Archer's involvement would thus provide
"layers of legitimacy with all the deals
we're doing now''); Tr. 1864:8-24 (Raycen
Raines had heard from others "more than
once or twice" that Archer was business
partners with Hunter Eiden); Tr. 1867:12--15 (Raines acknowledging that Galanis
"did in fact boast about Mr. Archer and
Mr. Biden's involvement"); DX 4078 (Galanis writing to Cooney that "the alternative is to pimp devon and see how quickly
he stops responding . . . it will happen");
DX 4836 (Galanis instructing Dunkerley
that it may be worthwhile to clarify in
Archer's bio that two of his business partners "are Chris Heinz and Hunter Eiden,
the step son of the Secretary of State John
Kerry and the son of the Vice President
Joe Eiden, respectively''); Tr. 2159:22--2160:3 (Martin testifying that Galanis had
told him that Archer "was a business partner and a very well connected individual
politically and also in the business world").

&, the Court has previously described,
Jason Galanis operated to keep people in
the dark, even those who were undoubtedly willful participants in his various crimes.
But his efforts as to Archer were even
more concerted. Galanis, for instance, explicitly instructed Dunkerley not to attend
WAH board meetings where Archer would
also be present, a demand with which
Dunkerley complied. Tr. 1328:19- 23. This
acknowledgement by Dunkerley is all the
more striking because it was he-not J ason Galanis-who was on the board with
Archer, and Dunkerley further testified
that he specifically wanted to meet Archer
due to his various business connections.
See Tr. 1328:19-1330:13. Even more telling
is the manner in which those who were
members of the conspiracy spoke of Archer when he was not present, burnishing his
credentials to others and describing him,
among other things, as "the biggest show
pony of all time" whose involvement would
"add layers of legitimacy'' to the various
deals. See, e.g., DXs 4908-09 (Cooney
bragging, while being surreptitiously recorded, that Archer is "the biggest whale
of anyone," the "biggest show pony of all
time," and "a total fucking whale," explain-

At the same time Archer was spoken of
in this manner, Galanis was simultaneously
operating to ingratiate himself with Archer. There was anecdotal evidence, for instance, of an elaborate dinner held in New
York by Galanis and his then-wife where
he presented a toast to Archer, his "new''
friend. See Tr. 3291:25-3293:7, 3299:6-12.
This evidence further suggests that Archer
was not a party to this conspiracy but was
instead being manipulated by a skillful con
artist.25

25. The notion that Archer lacked the requisite
knowledge and intent is all the more plausible
in light of Archer's numerous commitments
during the relevant time period. As the Court
discussed in the background section, Archer's
involvem ent in the WLCC deal came in the
context of his substantial role in the overall
roll-up, which involved numerous entities that
collectively managed assets worth billions of

dollars. There was also evidence about his
other business--and person al-commitments
during this time. See, e.g., DX 4733 at 12; Tr.
3287:18-3288: 19. Archer's relative lack of involvem ent in the WLCC deal is perhaps best
demonstrated by the fact that none of the
witnesses who took part in the deal had substantial interactions with Archer. While this
consideration ultimately does not weigh

49a
506

366 FEDERAL SUPPLEMENT, 3d SERIES

Second, the Court harbors some concern
that the jury was confused by the testimony of the government's final witness, FBI
Special Agent Kendall, who prepared and
testified about a number of summary
charts. The evident iary portion of this trial
was protracted and tedious. The summary
charts gave the jury a relatively straightforward view of the numerous related
transactions. There was one chart in particular that troubled the Court: Government Exhibit 4011. This exhibit detailed
the interest payment on the second
tranche of bonds, those purchased by
Archer and Cooney. As previously discussed, RSB, the entity controlled by
Archer, and Cooney transferred the bonds
to other entities, meaning they were no
longer in possession of them at the time
the interest payment became due. The
money to make this payment was transferred from VL Assurance to Burnham,
which then sent it to the WLCC. Due to an
internal error at Morgan Stanley, however,
$903,000 was then accidentally wired to
RSB. See Tr. 3063:22-3064:8; DX 4523 at
6. Realizing the mistake, Morgan Stanley
corrected the error twelve days later, reversed the wire, and then sent the money
to the intended recipients, BSI and VL
Assurance. See GX 301 at 190; DX 4523 at
1. Agent Kendall agreed with the government that the chart depicted the conspirators "basically pa[ying] themselves the interest on t he bonds[.]" Tr. 2970:20--21.
The issue arises because, although the
chart had text indicating that the wire to
RSB, Archer's entity, was reversed, there
was no explanation as to what that meant
heavily in the Court's mind, it is r elevant in
light of the nature of this case and Archer's
defense.
26. Indeed, the acquisition of bonds in the
second tranche aside, the primary other connection Archer had to the conspiracy, as displayed in the government swnmary charts,

and the arrows indicating the flow of money from entity to entity showed that the
funds went directly from RSB to BSI and
VL Assurance. S ee GX 4011. This gave the
impression that RSB was involved in the
transaction by which the conspirators were
allegedly paying themselves the interest
due on the second set of bonds. Indeed,
immediately after Agent Kendall testified
that $903,000 went to RSB, she further
explained that at this point in time it no
longer owned any of the bonds, further
suggesting impropriety on the part of RSB
and by extension Archer. See Tr. 2969:252970:4.
Any prejudice was certainly mitigated
by the manner in which counsel for Archer
elicited on cross-examination that the
''wire reversal" really meant that RSB had
received the money in error, accompanied
by Morgan Stanley emails showing that it
was an internal mistake later rectified by
the bank. See Tr. 3063:1-3080:16. Given
the persuasive power of summary charts,
however, particularly in a highly complex,
tedious case such as this one, and the
manner in which the flow of money was
visually depicted in the government exhibit, there is a real concern that the jury was
confused by this aspect of Agent Kendall's
testimony. This concern is exacerbated by
the relatively limited nature of Archer's
involvement in t he universe of relevant
transactions. 26 While this consideration is
by no means a sufficient basis on which to
grant Archer's motion, the Court of Appeals has recognized the power that such
summary charts have on juries, even when,
as here, t hey are not emphasized by the
was the purported profit of $700,513 that he
r eceived from Thorsdale. As discussed earlier,
however, while there were transfers of funds,
Archer did not actually enjoy any profit, as
part of that money was r epayment of a loan
and the rest was returned to Thorsdale. See
supra n. 17.

50a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

government on summation. See United
States v. Groysman, 766 F.3d 147, 163 (2d
Cir. 2014).
vi. Conclusion

AB is readily apparent, the government
presented a good deal of circumstantial
evidence concerning Archer's intent This
is, as the Court previously stated, a perfectly appropriate way to prove a defendant's guilt. The government is also right
to note that its case must be assessed as a
whole, rather than taking each piece of
evidence in isolation. It is primarily for
this reason that the Court, when drawing
every inference in favor of the government, denies Archer's Rule 29 motion.
After scrutinizing the evidence and giving the various issues their due attention,
however, the Court harbors substantial
doubt about Archer's guilt. Neither of the
government's cooperating witnesses ever
communicated with Archer about the
WLCC scheme. Most of the government's
witnesses never communicated with Archer at all. Unlike his co-defendants at trial,
he never received misappropriated proceeds directly from the purported annuity
provider for the WLCC. Indeed, although
the government need not prove motive, the
Court is left wondering why Archer would
have engaged in this scheme, especially in
light of the illegal gains reaped by his
alleged co-conspirators but not by him.
In hindsight, it now appears obvious that
it was Jason Galanis' intent to misappropriate the bond proceeds from the inception of his plan to sell Native American
bonds. And, as the evidence relating to the
statements made to Morgan Stanley and
the BIT Board demonstrates, Archer's behavior was troubling in some respects. But
being misleading in contexts unrelated to
the sale of securities does not render Archer guilty of the securities fraud offenses
alleged in this indictment, unless such behavior establishes that he knew of the

507

object to steal the bond money and/or
defraud the clients of Hughes and Atlantic.
In sum, when viewing the entire body of
evidence, particularly in light of the alternative inferences that may legitimately be
drawn from each piece of circumstantial
evidence, the degree to which Jason Galanis manipulated even those who were members of the conspiracy together with his
desire to benefit from Archer- the person
who "add[ed] layers of legitimacy''- and
the intertwined web of legitimate and illegitimate transactions, the Court harbors a
real concern that Archer is innocent of the
crimes charged and accordingly orders a
new trial.
2. Bevan Cooney
In many respects, Cooney is similarly situated to Archer. Indeed, there is
substantial overlap in the government's evidence against them, namely their purchase of the second tranche of bonds and
the email communications involving them
and Jason Galanis. The Court's analysis
above with respect to those pieces of evidence is similarly applicable to Cooney. It
may well be that Cooney-like Archer,
Dunkerley, and Martin- was unaware of
the criminal object of the WLCC deal at
the time he participated in the vast majority of the email communications with Archer and Galanis. S ee S U'fYIYl, Discussion, II.
A.I.ii. But other evidence demonstrates
that-also like Dunkerley and Martin- he
at some point became a member of the
conspiracy. Indeed, the compelling consideration that requires the denial of Cooney's Rule 33 motion is the other circumstantial evidence unique to him, primarily
regarding his receipt of money from the
WAPC account, his participation in the
Calvert cover-up, and purported lies he
told various entities about subjects that
were indisputably within his realm of
knowledge.
(17)

51a
508

366 FEDERAL SUPPLEMENT, 3d SERIES

Specifically with respect to Cooney, the
government introduced the following additional evidence: (1) his receipt of money
directly from the WAPC account, consisting of $75,000 from the final issuance and
$4 million purportedly to purchase J ason
Galanis' home in Bel Air; (2) his participation in backdating forms r elated to the
previously referenced fake entity, Calvert;
and (3) his purported lies to City National
Bank ("CNB") regarding his purchase of
the second tranche of bonds.27 The Court
addresses each in turn.
i. Cooney's Receipt of Funds
from the WAPC
The flaw most fatal to Cooney's motion,
and which is the most substantial distinction between the evidence against him and
Archer, is that Cooney received money
directly from the purported annuity provider for the WLCC. After the final bond
issuance, Cooney was wired $75,000 directly from the W APC account, consisting of
money provided by OSERS, Atlantic's
client. See GX 4009. While defendants have
argued that they believed WAPC to be a
subsidiary of Wealth Assurance, which it
was not, there has never been any suggestion that they were unaware that WAPC
was to provide the annuity on behalf of the
WLCC. Indeed, the only context in which
WAPC, legitimate or not, was referenced
at trial was in the context of it being the
purported annuity provider.
It is unclear how Cooney could have
received money from WAPC for legitimate
27. Cooney at times suggests that none of this
evidence may support a conviction because
these acts did not constitute material misstatements or omission in connection with the
sale of a security. This is of course true.
H owever, the government does not rely on
this evidence for that purpose, but rather because it is probative of effectively the only
question at issue in this case: whether Cooney acted with the requisite intent.

reasons. It is true that the mere receipt of
money from WAPC does not necessarily
mean that such a transfer was part and
parcel of the bond misappropriation. For
instance, Tim Anderson received $50,000
from the WAPC account when, following
the closing of the deal, his law firm performed additional work that had not been
contemplated. Tr. 490:13-491:23. But there
is no such apparent basis for Cooney to
have received a payment for services rendered, nor has he suggested otherwise. He
even argues throughout his moving papers
that he was only a passive investor in
relation to the bond offerings. Assuming
that Cooney was the beneficial owner of
the bonds he purchased, it is of course true
that as an investor he would have been
entitled, as all bondholders were, to periodic interest payments. But this $75,000
transfer occurred before any interest payments on the second tranche of bonds
were due, which he did not even own at
the time that particular payment was
made. See GX 4005 at 6, GX 4011. Indeed,
it occurred even prior to the first interest
payment on the initial tranche. Compare
GX 4010 with GX 4011.28
F urther probative of the illegitimate nature of this transfer are Cooney's statements to his accountant concerning how to
classify the payment. On April 28, 2015,
Cooney's business manager at Fulton &
Meyer emailed him, asking if the $75,000
wire from WAPC was a loan. GX 3250.29
28. Moreover, while Cooney purchased the
second tranche of bonds, any suggestion that
he would have been entitled to an interest
payment would be dubious as he was not the
beneficial owner of the bonds. As discussed
above, it is undisputed that Cooney knew the
money to purchase the bonds came from Jason Galanis. And as the Court will discuss
below, he later acknowledged that he did not
actually own the bonds he acquired.
29. Consistent with Jason Galanis' lie that

52a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

Cooney confirmed that it in fact was a loan
and asked his manager to add up all of the
loans from Wealth Assurance and Thorsdale from the previous couple of years. GX
3250. Not only did Cooney lie, it belies
reason to suggest that WAPC could have
provided legitimate loans to Jason Galanis'
friends and business partners.
And this was not the only payment Cooney received directly from WAPC. On November 12, 2014, he also received a wire
for $3.895 million. GX 4007 at 1. This
money was allegedly earmarked for the
purchase of Jason Galanis' home in Bel Air
before ultimately being used to acquire
Valorlife by WAH. See id. at 4, GX 3224.
At trial and again in his moving papers,
Cooney asserts that contrary to the government's contention, he genuinely intended to use the money to purchase Jason
Galanis' home. The government rightly
notes evidence that undermines this argument, namely that the day after the funds
were deposited into the escrow account
associated with the purchase of Galanis'
home, Cooney requested that they be
transferred out. See GX 4007 at 2; DX
3056(a). At the very least, it is not unreasonable to credit the government's evidence on this point.
But even assuming, arguendo, that Cooney is correct about his intended use of the
funds, his argument remains unavailing. In
fact, Cooney's contention that he intended
to use the money to purchase Jason Galanis' home in certain respects is more damaging to his defense than the purpose for
which the money was ultimately used, i.e.,
WAPC was a subsidiary of Wealth Assurance,
Cooney's business manager refers to the loan
as coming from "Wealth Assurance." GX
3205. Cooney, however, was aware that the
money came from WAPC, which as discussed
above, was the annuity provider for the
WLCC regardless of whether Cooney honestly
believed it to be a subsidiary of the legitimate
Wealth Assurance entity.

509

to acquire a subsidiary for WAH.30 Regardless, Cooney's intent as to the use of
the money is of no moment. The critical
point is that Cooney personally received
nearly $4 million in funds directly from the
annuity provider for the WLCC. Moreover, Cooney later falsely informed his
accountant that this money was a loan
from Thorsdale, the entity controlled by
Jason Galanis. See GX 3272; Tr. 2028:212029:2. On this record, as with the $75,000
transfer, the natural inference to draw is
that Cooney knew this money constituted
misappropriated bond proceeds.
ii. Cooney's Participation in
the Calvert Cover-Up

Further probative of Cooney's intent is
his use of fraudulent documents related to
Calvert Capital, which, as discussed, was
created in order to cover up the WLCC
scheme. On February 28, 2016, Cooney
emailed his business managers at Fulton &
Meyer a secured loan agreement purportedly showing that Calvert Capital had
loaned the Bevan Cooney Trust $5 million
days before he purchased the second
tranche. See GX 2298; Tr. 2028:21- 2030:3.
This occurred just two days after Cooney
similarly provided a letter from Thorsdale
purporting to show that Calvert had
loaned him the roughly $4 million he received directly from WAPC and which was
ultimately used to purchase Valorlife. See
GX 3272; Tr. 2028:21- 2030:3. Cooney does
not dispute that Calvert was a fraudulent
entity created to cover up the scheme, nor
could he credibly do so. Indeed, Calvert
30. Indeed , it is probative of the relationship
enjoyed by Cooney and Jason Galanis that it
was Cooney whom Galanis asked to participate in this transaction related to his residence. Dunkerley also testified that they were
the "best of friends" who had known each
other since childhood. See Tr. 909:4-6,
2171 :13-21.

53a
510

366 FEDERAL SUPPLEMENT, 3d SERIES

did not even exist on October 2, 2014 and
November 12, 2014, when it allegedly provided Cooney with these two "loans." Campare GX 2298 and GX 3272 with Tr.
2182:3----4. The backdated form regarding
the $5 million used to purchase a portion
of the second tranche of bonds was signed
by both Jason Galanis, the alleged managing partner of Calvert, and Cooney. See
GX 2298. Although Cooney did not sign
the document regarding the loan for the $4
million used to acquire Valorlife, he gave it
to his accountant while clearly aware that
its substance was false because he received
that money from WAPC-not Thorsdale,
the purported agent, or Calvert. Campare
GX 4007 with GX 3272. Therefore, the fact
that Cooney, unlike Archer, signed one of
these fraudulent forms and later distributed both of them is highly probative of his
intent.
iii. Cooney's Purported Lies to CNB
The final category of evidence against
Cooney concerns various statements he
made to CNB, specifically as they pertain
to his ownership of the bonds he purchased. AB the government rightly notes,
upon his receipt of $5 million from Thorsdale he recognized the amount as a loan.
See GX 3216. In January 2015 he then
applied for a loan from CNB, in conjunction with which he personally completed a
financial statement. See GX 405. He acknowledged owning the $5 million worth of
bonds while omitting any reference to a
loan. See id. In May of that year, Cooney
transferred the bonds to an entity called
Bonwick. Tr. 1741:15--19. The next month,
in pursuit of a separate loan from CNB for
$1.2 million, he signed an affirmation that
the previously submitted financial statement remained accurate. See GX 414 at 2.
31. A medallion guarantee "is a signature
guar antee on a marketable security, a stock or
a bond. So, similar to what a notary would do
on r eal estate documents or other kinds of

It was not until Cooney was unable to
repay the $1.2 million loan that CNB
learned he no longer possessed the bonds
and that he had financed their purchase
with a loan. Tr. 1749:12--17; 1813:3-13;
1819:2--9.

On the basis of this evidence, the government urges the following inferences:
(1) Cooney lied about the source of the
funds used to purchase the bonds in order
to hide the fact that the transaction was
effected with recycled bond proceeds; (2)
Cooney's inconsistent statements regarding his ownership of the bonds reveal that
he was a strawman for the purchase; and
(3) Cooney financially benefited from his
participation in the scheme. Although the
frrst two inferences have some probative
value, it is true that Cooney could just
have easily told these lies in order to mislead CNB into providing him a loan. More
critically, in the Court's view, is the final
inference. Although proof of motive is not
legally required, and Cooney obviously had
no burden at trial, this evidence undermines one of the primary defenses advanced by Cooney, namely that he did not
profit from this criminal scheme. It is clear
from the trial record that Cooney's "ownership" of the bonds was one factor considered by CNB in electing to provide him
with the $1.2 million loan, most of which he
never repaid. See Tr. 1742:4-16.
Cooney asserts several arguments in an
attempt to undermine this evidence: (1) he
did not personally complete the various
forms submitted to CNB; (2) a representative of CNB completed a medallion guarantee 31 effecting the transfer of the
WLCC bonds to Bonwick; and (3) he made
good faith efforts to repay the $1.2 million
documents wh ere you are guaranteeing somebody's signature, you use a medallion guarantee to guarantee somebody's signature on a
stock or bond-related matter ." Tr. 1740:3--S.

54a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

loan after he defaulted.32 None of these
arguments is persuasive.
First, while Fulton & Meyer may have
submitted these forms to CNB, the forms
were personally signed by Cooney and
whatever information contained therein
would have been provided by him. The
inaccuracies contained in the forms are not
administrative in nature but instead go to
the very heart of Cooney's finances. Second, the issue relating to the medallion
guarantee is a red herring. The import of
this argument, in Cooney's view, is that
prior to issuing the $1.2 million loan a
representative of CNB guaranteed the
document by which the WLCC bonds were
transferred to Bonwick. Therefore, according to Cooney, CNB was well aware that
he no longer possessed t he bonds. But
Steven Shapiro, the CNB representative
who signed the medallion, testified at trial
that (1) he was unaware that it was the
WLCC bonds being transferred and (2) he
similarly was not required to verify whether the bonds were being sold or, as was
the case here because Cooney apparently
never actually owned them, transferred
absent consideration. See Tr. 1742:17- 22,
1808:9-25. Finally, Cooney's contention
that he made good faith efforts to repay
the $1.2 million loan is irrelevant. The fact
remains that he repaid only approximately
32. Coon ey also re-iter ates, in conclusory fashion, his arguments regar ding the admissibility
of the CNB evidence, namely that unfair prejudice and potential for juror confusion substantially outweigh any probative value. The
Court rejected this argument in permitting
the government to introduce this evidence,
and Cooney offers no new arguments. The
Court remains of the opinion that inaccurate
statements Cooney made regarding his ownership of the bonds he purchased from the
second tranch e are probative of his intent,
which is the critical issue in this case, and
were not substantially outweighed by the danger of unfair prejudice, potential for juror
confusion, or any other factor enumerated in
Rule 403.

511

$80,000 and it thus serves as powerful

evidence of one way in which he profited
from the scheme. See Tr. 1750:14-17.

Viewing the government's entire case,
therefore, the Court is not persuaded that
a manifest injustice results from permitting this guilty verdict to stand and accordingly denies Cooney's motion.33

B. Remaining Rule 33 Arguments
The defendants also make various other
arguments under Rule 33. None have merit.
1. The Introduction of John Galanis'
Guilty Plea in Gerova
First, Archer and Cooney each contend
that the introduction, following summations of the government and John Galanis,
of evidence of John Galanis' prior participation in a securities fraud scheme with
his son prejudiced them. They rightly note
that the duty to sever a trial continues
throughout its duration. But neither has
made the requisite showing that a severance was required in light of the introduction of this evidence or that the manner in
which it was introduced otherwise ran
afoul of Rule 33.
(18-21] Following proper joinder,
which is not contested, severance is re33. The government also introduced testimony
by Francisco Martin that upon Jason Galanis'
arrest for unrelated conduct in September
2015, Cooney called Martin to inform him
that Jason Galanis had been arrested but that
it did not concern the WLCC bonds. See Tr.
2176:17- 2177:22. The obvious infer ence, according to the government, is that Cooney's
statement evinced his knowledge that the
WLCC bond scheme was illegal because he
was apparently concerned that Galanis may
have been arrested for conduct relating to the
bonds. The Court, however, did not view this
as an especially compelling inference and
does not rely on this evidence in denying
Cooney's Rule 33 motion.

55a

512

366 FEDERAL SUPPLEMENT, 3d SERIES

quired only where the prejudice "is sufficiently severe to outweigh the judicial
economy that would be realized by avoiding multiple lengthy trials." United States
v. Page, 657 F.3d 126, 129 (2d Cir. 2011)
(citation omitted). The Supreme Court has
instructed that severance should be granted only where "there is a serious risk that
a joint trial would compromise a specific
trial right of one of the defendants or
prevent the jury from making a reliable
judgment about guilt or innocence." Zafiro
v. United States, 506 U.S. 534, 539, 113
S.Ct. 933, 122 L.Ed.2d 317 (1993). Indeed,
a defendant is not entitled to a severance
merely because he may have a better
chance of acquittal at a separate trial. See
id. at 540, 113 S.Ct. 933. Notably, the
introduction against one defendant of Rule
404(b) evidence by no means requires severance:
Courts have distinguished between the
adverse inference a jury may draw
against a co-defendant because of his
association with a prior criminal conviction, which can typically be cured by a
limiting instruction and the potential for
unfair prejudice in instances in which
the submission of prior-act evidence
against one defendant tends to prove
directly or implicate another defendant's
involvement in the prior act.

United States v. Catapano, No. 05-CR-229
(SJ) (SMG), 2008 WL 2222013, at *19
(E.D.N.Y. May 22, 2008) (citation omitted),
adopted lYy 2008 WL 3992303 (E.D.N.Y.
Aug. 28, 2008).
In the matter at hand, the Court had
barred the government from introducing
evidence of John Galanis' prior guilty plea
for securities fraud due to his participation
in a scheme orchestrated by his son because, although probative of his intent in
this matter, it ran afoul of Rule 403. See
Tr. 7:25-8:1, May 16, 2018. The parties
agreed, however, that counsel for John

Galanis could open the door to such evidence if he argued that his client was
duped by his son in the context of the
WLCC scheme. See Tr. 8:8-9:10, May 16,
2018. On June 14, 2018, the government
moved to introduce this evidence, arguing
that the door had been opened. The Court
denied this request, but warned counsel
for John Galanis that he could still open
the door during his summation. See Tr.
2457:9-2458:4. That is precisely what transpired.
Consistent with the procedure followed
in United States v. Alcantara, 674 F.
App'x 27 (2d Cir. Dec. 22, 2016), the Court
permitted the government to briefly reopen the evidentiary record. See Tr.
3829:2-5. The evidence of John Galanis'
plea was introduced by way of stipulation:
It is hereby stipulated and agreed between the parties that on July 20, 2016,
John Galanis pied guilty to conspiring
with Jason Galanis and others to commit
securities fraud in or about 2009 through
in or about 2011, in that John Galanis
and others openly managed brokerage
accounts of an individual and effected
the sale of Gerova stock, and received
and concealed proceeds derived therefrom, knowing that this activity was designed to conceal from the investing
public the true ownership and control of
that Gerova stock.
Tr. 3829:8-16.
The Court immediately gave the following limiting instruction as the evidence
pertained to Archer and Cooney:
It is also important for you to know that
John Galanis' guilty plea was to charges
stemming from the investigation that resulted in Jason Galanis' arrest in September 2015[,] which you have already
heard about. I reiterate to you now that
the conduct for which Jason Galanis was
arrested and John Galanis pied guilty
was entirely unrelated to this case.

56a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

I further instruct you that Mr. Archer
and Mr. Cooney were not subjects of
that investigation, and there is no evidence that either of them knew about
Jason or John Galanis' fraudulent conduct in that matter or the investigation
of it until after Jason Galanis was arrested in September of 2015. You are
not to consider this evidence in any way
against either Mr. Archer or Mr. Cooney.
Tr. 3830:23-3831:11. The Court also permitted the government and counsel for
John Galanis to offer brief supplemental
summations, prior to proceeding with the
remaining summations of counsel for Archer and Cooney, as well as the government's rebuttal. See Tr. 3831:12-3837:20.
[22] Based on this record, the Court is
not persuaded that either Archer or Cooney were prejudiced, and certainly not to
the extent requiring severance or otherwise giving rise to a manifest injustice.
While Archer accurately notes that the
Court had previously found the introduction of this evidence to run afoul of Rule
403, that was with respect to John Galanis. See Tr. 7:25--8:1, May 16, 2018; cf Tr.
330:2-332:3. It is well-established that the
introduction of Rule 404(b) evidence
against a co-defendant does not require
severance. See Catapano, 2008 WL
2222013, at *19. That is especially true
given the circumstances of the case at
hand. Although there had been evidence
about Cooney's friendship with Jason Galanis, there was no evidence indicating
that either Archer or Cooney enjoyed a
relationship with John Galanis. The Court
also gave a robust limiting instruction,
specifying that Archer and Cooney were
not involved in the previous conduct and
that there was no evidence they were
even aware of it until Jason Galanis was
arrested in September 2015. Therefore,
the fact that John Galanis was also impli-

513

cated in one of Jason Galanis' prior
crimes, which the jury was already aware
of, did not operate to prejudice either
Archer or Cooney. The Court remains of
the view that this acted as a legitimate
basis on which Archer and Cooney could
distinguish themselves from John Galanis
in summations, aided by the Court specifically instructing the jury that they were
not involved in that prior conduct. There
is simply no basis to conclude that a severance was required.
To the extent Archer and Cooney were
prejudiced by the specific manner of introduction of this evidence, it was by virtue of
the fact that, they claim, their trial strategy would have been different. Most notably, they argue that would have sought to
introduce evidence that Jason Galanis,
John Galanis, and Hirst had previously
committed securities fraud together, thus
highlighting who the "real" conspirators
were in the context of the WLCC scheme.
The Court is dubious of this argument, as
the mere fact that certain participants had
histories of engaging in fraudulent activity
with Jason Galanis did not foreclose the
possibility that either Archer or Cooney
were guilty in the case at hand. The issue
before the jury was whether they had the
requisite intent with respect to the WLCC
scheme, and this other evidence they may
have presented, assuming its admissibility,
would likely have been of limited probative
value, if any. They also contend that the
introduction of this evidence exacerbated
the prejudicial effect of earlier evidence of
Jason Galanis' September 2015 arrest and
undercut the Court's instruction that his
arrest in that instance was for conduct
unrelated to the case at hand. Such arguments, however, fly in the face of the
Court's robust limiting instruction.
Accordingly, on this record no manifest
injustice occurred.

57a
514

366 FEDERAL SUPPLEMENT, 3d SERIES

2. Challenges to Jury Instructions
Archer and Cooney fare no better with
their various arguments as to the jury
instructions. The Court considered and rejected each of these arguments prior to
giving the charge. The defendants have
not raised any new considerations. Moreover, they have not provided any authority
for the proposition that alleged instructional errors of this sort are a valid basis on
which to order a new trial under Rule 33.
Indeed, in the current posture the question
is not whether the rulings were in error
but whether any errors resulted in a manifest injustice. S ee United States v. Soto,
No. 12-CR-556 (RPP), 2014 WL 1694880,
at *5 (S.D.N.Y. Apr. 28, 2014), afj'd sub
nom., Un ited States v. Rarrws, 622 F.
App'x 29 (2d Cir. 2015).
[23] First, contrary to Archer's argument, there was an adequate factual predicate to give a conscious avoidance charge.
The entire thrust of Archer's argument is
that there is no evidence that he "saw a
red flag and took specific action to avoid
le.a rning it." Archer Mot. at 94, ECF No.
567 (emphasis in original). The Court of
Appeals has instructed, however, that such
charges are appropriate where involvement in an offense was "so overwhelmingly
suspicious that the defendant's failure to
question the suspicious circumstances establishes the defendant's purposeful contrivance to avoid guilty knowledge." United
States v. Svoboda, 347 F.3d 471, 480 (2d
Cir. 2003); accord Un ited States v. Goffer,
721 F.3d 113, 127- 28 (2d Cir. 2013). Given
the extensive involvement of Archer and
Cooney in transactions that were central
to the execution of the criminal conspiracy
and in light of the various misleading
statements they made, it was appropriate
to provide such a charge to the jury.
[24] It similarly was not a manifest
injustice for the Court to decline to give
the requested multiple conspiracies

charge. Throughout this case, Archer and
Cooney have contended that the government has alleged the existence of two conspiracies instead of one. Under their theory, there was one conspiracy to defraud
the WLCC and another directed at the
clients of Hughes and Atlantic. As the
Court previously reasoned in rejecting this
argument, however, the operative indictment was unambiguous in setting forth an
overarching conspiracy with a single goal:
to misappropriate the WLCC bond proceeds. That this single conspiracy may
have had multiple components or spheres
does not mean that the government instead alleged the existence of two conspiracies. See Payne, 591 F.3d at 61 ("[A]
single conspiracy is not transformed int o
multiple conspiracies merely by virtue of
the fact that it may involve two or more
phases or spheres of operation, so long as
there is sufficient proof of mutual dependence and assistance." (citation omitted) ).
[25, 26] The final argument relating to
the charge is the Court's decision not to
provide Archer's requested unanimity instruction or, in the alternative, a more
detailed verdict form. This argument is
also without merit. Tellingly, the defendants have not provided any authority for
the proposition that either of these steps
were required. Instead, general unanimity
instructions are considered sufficient unless there exists "a genuine danger of jury
confusion." United States v. Ferguson, 676
F.3d 260, 279 (2d Cir. 2011) (citation omitted). On this record, the Court cannot
conclude that a specific instruction was
required, particularly in light of the repeated warnings to the jury that they were
required to be unanimous in order to convict any of the defendants on either count.
See Tr. 4123:23-25, 4183:7- 10, 4185:6-9,
4185:15-17. Moreover, that certain aspects
of the record in this case were complex did

58a
U.S. v. GALANIS

Cite as 366 F.Supp.3d 477 (S.D.N.Y. 2018)

not require the Court to give such an
instruction. See Ferguson, 676 F.3d at 280.
3. Newly Discovered Evidence
Finally, each of the defendants in their
reply briefs argues for a new trial on the
basis of newly discovered evidence that
was produced to them after they filed their
initial motions. Archer also argues, in the
alternative, for an evidentiary hearing. The
Court rejects these arguments.
[27-30] When the import of newly discovered evidence is that a witness committed perjury, "the threshold inquiry is
whether the evidence demonstrates that
the witness in fact committed perjury."
United States v. White, 972 F.2d 16, 20 (2d
Cir. 1992). If the answer is yes, the standard for assessing materiality differs
based on when the government learned of
the material contradicting the witness's
testimony. "[I]f the prosecution was not
aware of the perjury [at the time of trial],
a defendant can obtain a new trial only
where the false testimony leads to a firm
belief that but for the perjured testimony,
the defendant would most likely not have
been convicted." United States v. Stewart,
433 F.3d 273, 296--97 (2d Cir. 2006). "If
instead the prosecution lrnew or should
have lrnown about the perjury, then the
conviction will be set aside if there is any
reasonable likelihood that the false testimony could have affected the judgment of
the jury." United States v. Torres, 128
F.3d 38, 49 (2d Cir. 1997) (citation omitted). Where the newly discovered evidence
is impeachment material, however, a new
trial "may be granted only upon a showing
that . . . the evidence is not merely cumulative or impeaching; and . . . the evidence
would likely result in an acquittal." United
Stat,es v. Forbes, 790 F.3d 403, 406--07 (2d
Cir. 2015).
34. In light of an ongoing investigation, at the
government's request, portions of this opinion
are redacted. An unredacted copy of the opin-

515

The purportedly newly discovered evidence consists of [Redacted],34 there is not
a sufficient basis to grant a new trial for
the following reasons: (1) with respect to
the substance of the alleged perjury, the
defendants cannot make the requisite
showing, even under the more forgiving
standard applicable when the government
lrnew or should have lrnown of the perjury
and (2) as impeachment material it was
cumulative and would not have affected
the jury's verdict.
When considered as substantive testimony, the defendants cannot carry their burden. [Redacted]
[Redacted]
[Redacted] Bearing these considerations
in mind, there is no basis to conclude that
this additional material, if lrnown to the
defendants at trial, would have had any
possibility to affect the jury's verdict.
[Redacted]
Accordingly, the Court declines to grant
a new trial on the basis of newly discovered evidence. For substantially the same
reasons, the Court also denies the requests
for an evidentiary hearing.

CONCLUSION
For the foregoing reasons, Archer's motion for a new trial is granted, while all
others are denied. The Clerk of Court is
respectfully directed to terminate the motions pending at docket entries 563, 564,
565, and 566.
Archer and the government are directed
to confer and propose next steps within
forty-five days of this opinion.
SO ORDERED.

ion will be provided to the parties and filed
under seal.

Rule 33. New Triagg~tutes I United States I Westlaw

5/17/2021

THOMSON REUTERS

WFc:;TI AW FOC.F
All content

APPENDIXD

0

607830...

History

Enter t erms, cit ations, dat abases, questions,

Folders

Favorites

Notifications

Sign out

Search Tip!

3rd Circuit

Advanced

Rule 33. New Trial
FRCRP Rule 33 • United States Code Annotated • Federal Rules of Criminal Procedure for t he United States District Courts

Document

Notes of Decisions (2,266)

History (l

Citing References (30,75f

(Approx. 9 pages)

Context & Analysis (26!

Fullscreen

§

United States Code Annotated
Federal Rules of Criminal Procedure for the United States District Courts (Refs & An nos)
Title VII. Post-Conviction Procedures

Federal Rules of Criminal Procedure, Rule 33

Rule 33. New Trial
Currentness

(a) Defendant's Motion. Upon the defendant's motion, the court may vacate any judgment and grant a
new trial if the interest of justice so requires. If the case was tried without a jury, the court may take
additional testimony and enter a new judgment.
(b) Time to File.

(1) Newly Discovered Evidence. Any motion for a new trial grounded on newly discovered evidence
must be filed within 3 years after the verdict or finding of guilty. If an appeal is pending, the court
may not grant a motion for a new trial until the appellate court remands the case.

(2) Other Grounds. Any motion for a new trial grou nded on any reason other than newly discovered
evidence must be filed within 14 days after the verdict or finding of guilty.

CREDIT{S)
(As amended Feb. 28, 1966, eff. July 1, 1966; Mar. 9, 1987, eff. Aug. 1, 1987; Apr. 24, 1998, eff. Dec. 1,
1998; Apr. 29, 2002, eff. Dec. 1, 2002; Apr. 25, 2005, eff. Dec. 1, 2005; Mar. 26, 2009, eff. Dec. 1, 2009.)

ADVISORY COMMITTEE NOTES
1944 Adoption
This ru le enlarges the time limit for motions for new trial on the ground of newly discovered evidence,
from 60 days to two years; and for motions for new trial on other grou nds from three to five days.
Otherwise, it substantially continues existing practice. See former Rule II of the Criminal Appeals Rules
of 1933, 292 U.S. 661 (18 U.S.C. formerly following§ 688]. Cf. Rule 59(a) of the Federal Rules of Civil
Procedure, 28 U.S.C., Appendix.

1966 Amendments
https://1.next.westlaw.com/Link/Document/FullText?findType=L&pubNum=1000598&cite=USFRCRPR33&originatingDoc=l0636916008be11 eb8cddf39. .

1/4

Rule 33. New Trial I Statutes I United States I Westlaw

5/17/2021

60a

The amendments to the first two sentences make it clear that a judge has no power to order a new trial
on his own motion, that he can act only in response to a motion timely made by a defendant.
Problems of double jeopardy arise when the court acts on its own motion. See United States v. Smith,

il U.S. 469 (1947) . These amendments do not, of course, change the power which the court has in

certain circumstances, prior to verdict or finding of guilty, to declare a mistrial and order a new trial on
its own motion. See e.g., Gori v. United States, 367 U.S. 364 (1961); Downum v. United States, 372 U.S.

734 (1963); United States v. Tateo, 377 U.S. 463 (1964). The amendment to the last sentence changes
the time in which the motion may be made to 7 days. See the Advisory Committee's Note to Rule 29.
1987 Amendments

The amendment is technical. No substantive change is intended.
1998 Amendments

As currently written, the time for filing a motion for new trial on the ground of newly discovered
evidence runs from the " final judgment." The courts, in interpreting that language, have uniformly
concluded that that language refers to the action of the Court of Appeals. See, e.g., United States v.

Reyes, 49 F.3d 63, 66 (2nd Cir. 1995)(citing cases). It is less clear whether that action is the appellate
court's judgment or the issuance of its mandate. In Reyes, the court concluded that it was the latter
event. In either case, it is clear that the present approach of using the appellate court's final judgment
as the triggering event can cause great disparity in the amount of time available to a defendant to file
timely a motion for new trial. This would be especially true if, as noted by the Court in Reyes, supra at
67, an appellate court stayed its mandate pending review by the Supreme Court. See also Herrera v.

Co((ins, 506 U.S. 390, 410-412 (1993) (noting divergent treatment by States of time for filing motions for
new trial) .
It is the intent of the Committee to remove that element of inconsistency by using the trial court's
verdict or finding of guilty as the triggering event. The change also furthers internal consistency within
the rule itself; the time for filing a motion for new trial on any other ground currently runs from that
same event.
Finally, the time to file a motion for new trial based upon newly discovered evidence is increased to
three years to compensate for what would have otherwise resulted in less time than that currently
contemplated in the rule for filing such motions.
2002 Amendments

The language of Ru le 33 has been a mended as part of the general restyling of the Criminal Rules to
make them more easily understood and to make style and terminology consistent throughout the
rules. These changes are intended to be stylistic only.
2005 Amendments
Rule 33(b)(2) has been amended to remove the requirement that the court must act within seven days
after a verdict or finding of guilty if it sets another time for filing a motion for a new trial. This
amendment parallels similar changes to Rules 29 and 34. Further, a conforming amendment has been
made to Rule 45(b)(2) .

https://1.next.westlaw.com/Link/Document/FullText?findType=L&pubNum=1000598&cite=USFRCRPR33&originatingDoc=I0636916008be11 eb8cddf39..

2/4

Rule 33. New Trial I Statutes I United States I Westlaw

5/17/2021

61a

Currently, Rule 33(b)(2) requires the defendant to move for a new trial within seven days after the
verdict or the finding of guilty verdict, or within some other time set by the court in an order issued
during that same seven-day period. Similar provisions exist in Rules 29 and 34. Courts have held that
the seven-day rule is jurisdictional. Thus, if a defendant files a request for an extension of time to file a
motion for a new trial within the seven-day period, the court must rule on that motion or request
within the same seven-day period. If for some reason the court does not rule on the request within the
seven days, it loses jurisdiction to act on the underlying substantive motion. See, e.g., United States v.

Smith, 331 U.S. 469, 473-474 (1947) (rejecting argument that trial court had power to grant new trial on
its own motion after expiration of time in Rule 33); United States v. Marquez, 291 F.3d 23, 27-28 (D.C. Cir.
2002) (citing language of Rule 33, and holding that "district court forfeited the power to act when it
failed to ... fix a new time for a filing a motion for new trial within seven days of the verdict").
Assuming that the current rule was intended to promote finality, there is nothing to prevent the court
from granting the defendant a significant extension of time, so long as it does so within the seven-day
period. Thus, the Committee believed that the rule should be amended to be consistent with all of the
other timing requirements in the rules, which do not force the court to act on a motion to extend the
time for filing within a particular period of time or lose jurisdiction to do so.
Accordingly, the amendment deletes the language regarding the court's acting within seven days to
set the time for filing. Read in conjunction with the conforming amendment to Rule 45(b), the
defendant is still required to file a timely motion for a new trial under Rule 33(b)(2) within the sevenday period specified. The defendant may, under Rule 45, seek an extension of time to file the
underlying motion as long as the defendant does so within the seven-day period. But the court itself is
not required to act on that motion within any particular time. Further, under Rule 45(b)(l)(B), iffor
some reason the defendant fails to file the underlying motion for new trial within the specified time,
the court may nonetheless consider that untimely underlying motion if the court determines that the
failure to file it on time was the result of excusable neglect.
2009 Amendments

Former Rules 29, 33, and 34 adopted 7-day periods for their respective motions. This period has been
expanded to 14 days. Experience has proved that in many cases it is not possible to prepare a
satisfactory motion in 7 days, even under the former rule that excluded intermediate Saturdays,
Sundays, and legal holidays. This led to frequent requests for continuances, and the filing of bare
bones motions that required later supplementation. The 14-day period--including intermediate
Saturdays, Sundays, and legal holidays as provided by Rule 45(a)--sets a more realistic time for the
filing of these motions.

Notes of Decisions (2266)

Fed. Rules Cr. Proc. Rule 33, 18 U.S.C.A., FRCRP Rule 33
Including Amendments Received Through 5-1-21

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

https://1.next.westlaw.com/Link/Document/FullText?findType=L&pubNum=1000598&cite=USFRCRPR33&originatingDoc=I0636916008be11 eb8cddf39..

3/4

5/17/2021

Rule 33. New Trial I Statutes I United States I Westlaw

62a

Contact us • Live chat • Training and support • Improve Westlaw Edge • Transfer My Data • Pricing guide • Sign out

(;i~j

THOMSON REUTERS

1-800-REF-ATTY (1-800-733-2889)

Westlaw Edge. © 2021 Thomson Reuters

Accessibility • Privacy • Supplier terms

Thomson Reuters is not providing professional advice

https://1.next.westlaw.com/Link/Document/FullText?findType=L&pubNum=1000598&cite=USFRCRPR33&originatingDoc=I0636916008be11 eb8cddf39..

4/4

